<html>
<title> - KEY ISSUES AND CHALLENGES FACING NASA: VIEWS OF THE AGENCY'S WATCHDOGS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 KEY ISSUES AND CHALLENGES FACING NASA: VIEWS OF THE AGENCY'S WATCHDOGS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            February 3, 2010

                               __________

                           Serial No. 111-73

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
54-616PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. McCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

                HON. GABRIELLE GIFFORDS, Arizona, Chair
DAVID WU, Oregon                     PETE OLSON, Texas
DONNA F. EDWARDS, Maryland           F. JAMES SENSENBRENNER JR., 
MARCIA L. FUDGE, Ohio                    Wisconsin
PARKER GRIFFITH, Alabama             DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        FRANK D. LUCAS, Oklahoma
BARON P. HILL, Indiana               MICHAEL T. McCAUL, Texas
CHARLES A. WILSON, Ohio                  
ALAN GRAYSON, Florida                    
SUZANNE M. KOSMAS, Florida               
BART GORDON, Tennessee               RALPH M. HALL, Texas
              RICHARD OBERMANN Subcommittee Staff Director
            PAM WHITNEY Democratic Professional Staff Member
             ALLEN LI Democratic Professional Staff Member
            KEN MONROE Republican Professional Staff Member
            ED FEDDEMAN Republican Professional Staff Member
                    DEVIN BRYANT Research Assistant







                            C O N T E N T S

                            February 3, 2010

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Gabrielle Giffords, Chairwoman, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    15
    Written Statement............................................    17

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    20
    Written Statement............................................    20

Statement by Representative Pete Olson, Ranking Minority Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    18
    Written Statement............................................    19

                               Witnesses:

Hon. Paul K. Martin, Inspector General, National Aeronautics and 
  Space Administration
    Oral Statement...............................................    21
    Written Statement............................................    23

Ms. Cristina T. Chaplain, Director, Acquisition and Sourcing 
  Management, Government Accountability Office
    Oral Statement...............................................    27
    Written Statement............................................    29

Vice Admiral Joseph W. Dyer (U.S. Navy, Retired), Chair, 
  Aerospace Safety Advisory Panel, National Aeronautics and Space 
  Administration
    Oral Statement...............................................    33
    Written Statement............................................    35

Discussion
  Cost Growth....................................................    38
  Risk Reduction Report Methods..................................    39
  Risk in Ares Program...........................................    40
  Regulation of Human Space Flight...............................    40
  Technology Development on Ares/Orion...........................    42
  Cost Growth....................................................    42
  Systemic Weakness of Government Acquisitions...................    42
  Progress on Improving Program Management.......................    43
  Public vs. Private Management of Spaceflight...................    44
  Managing the Shuttle and Constellation Transitions.............    46
  Oversight of Commercial Human Spaceflight......................    47
  Human Rating Requirements......................................    47
  Ensuring Access to LEO.........................................    48
  NASA Role in Commercial Spaceflight............................    48
  Shuttle Extension..............................................    49
  Maintaining Vital Skills in Transition.........................    49
  Shuttle Extension..............................................    50
  Opinions on Constellation......................................    50
  Gap in Human Spaceflight.......................................    51
  Fully Utilizing the ISS........................................    52
  Transitioning Workforce and Infrastructure.....................    53
  Safety Implications of Transition..............................    54
  SBIR Program Progress/Minority Contracting.....................    55
  Human Rating Requirements......................................    56
  Progress on Constellation......................................    58
  Role of NASA in Commercial Space Program.......................    59

  ...............................................................      

             Appendix 1: Answers to Post-Hearing Questions

Hon. Paul K. Martin, Inspector General, National Aeronautics and 
  Space Administration...........................................    62

Ms. Cristina T. Chaplain, Director, Acquisition and Sourcing 
  Management, Government Accountability Office...................    65

Vice Admiral Joseph W. Dyer (U.S. Navy, Retired), Chair, 
  Aerospace Safety Advisory Panel, National Aeronautics and Space 
  Administration.................................................    69

 
 KEY ISSUES AND CHALLENGES FACING NASA: VIEWS OF THE AGENCY'S WATCHDOGS

                              ----------                              


                      WEDNESDAY, FEBRUARY 3, 2010

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Gabrielle 
Giffords [Chairwoman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                     U.S. HOUSE OF REPRESENTATIVES

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                 Key Issues and Challenges Facing NASA:

                    Views of the Agency's Watchdogs

                      wednesday, february 3, 2010
                           10 a.m.-12:00 p.m.
                   2318 rayburn house office building

I. Purpose

    On February 3, 2010 the Subcommittee on Space and Aeronautics will 
hold a hearing on the key issues and challenges facing the National 
Aeronautics and Space Administration (NASA) as seen by the agency's 
``watchdogs''--the NASA Inspector General, the Government 
Accountability Office (GAO), and the Aerospace Safety Advisory Panel 
(ASAP). Leveraging the unique perspectives these organizations 
developed in the course of their work at NASA in the areas of 
management, mission execution, and security and safety oversight, the 
hearing will examine (1) the critical issues and challenges facing NASA 
that warrant congressional attention and (2) the corresponding 
commitment, initiatives, and policies needed by NASA to successfully 
address these issues and challenges. Separate hearings are planned to 
address NASA's Fiscal Year 2011 budget request as well as the 
administration's human space flight strategy after they are announced.

II. Scheduled Witnesses:

Hon. Paul K. Martin
Inspector General
National Aeronautics and Space Administration

Ms. Cristina T. Chaplain
Director
Acquisition and Sourcing Management
Government Accountability Office

Vice Admiral Joseph W. Dyer [U.S. Navy, retired]
Chair
Aerospace Safety Advisory Panel
National Aeronautics and Space Administration

III. Overview

    During the second session of the 111th Congress, the Committee on 
Science and Technology expects to move legislation reauthorizing NASA 
activities. To inform Congress' deliberations, it will be important to 
hear from the agency's ``watchdog'' organizations on what they consider 
to be the key issues and challenges facing NASA. At this hearing, they 
will be basing their testimony on recent work that they have carried 
out. In particular:

        <bullet>  In November 2009, the NASA Office of the Inspector 
        General (OIG) issued its annual memorandum identifying what it 
        views as NASA's most serious management and performance 
        challenges, namely transitioning from the Space Shuttle to the 
        next generation of space vehicles; managing risk to people, 
        equipment, and mission; financial management; acquisition and 
        contracting processes; and information technology security.

        <bullet>  On the eve of this hearing, GAO released its annual 
        assessment of 19 large-scale projects focusing on the extent of 
        cost and schedule growth in each project. In this 
        congressionally-directed review, GAO found that 9 of the 10 
        projects that have been in the implementation phase for several 
        years experienced cost growth ranging from 8 to 68 percent, and 
        launch delays of 1 to 33 months, in the past three years. 
        Contract management has been on GAO's high-risk list since 
        1990. As part of its high-risk update issued last year, GAO 
        continued to include NASA's ``acquisition management'' activity 
        on its high-risk list. The office cited the persistence of cost 
        growth and schedule delays as reason for the inclusion. GAO has 
        also recently reported on vulnerabilities of NASA's key 
        information technology (IT) networks (at the direction of the 
        2008 NASA Authorization Act) and, at the request of the 
        Committee on Science and Technology, on future research 
        utilization of the International Space Station (ISS).

        <bullet>  The ASAP found, in its 2009 Annual report released on 
        January 15, 2010, that NASA faces unprecedented challenges; and 
        that important decisions on the future of human space flight 
        face NASA, as well as the White House, Congress, and the 
        Nation. Significant concerns identified by the ASAP include the 
        need to: establish human rating requirements for potential 
        commercial and international vehicle systems that might be used 
        to carry U.S. astronauts; analyze the ramifications of any 
        decision to extend the Space Shuttle beyond the current 
        manifest; transition the workforce from the Shuttle to the 
        follow-on program; candidly communicate the risks of human 
        space flight with the public and the Congress; and more 
        aggressively use robots to reduce the risk of human 
        exploration.

IV. Potential Issues

        <bullet>  What are the top priorities and issues that the 
        witnesses think Congress should consider in upcoming NASA 
        authorizing legislation?

        <bullet>  What critical challenges is NASA facing and what 
        corresponding decisions are required? What are the major 
        concerns regarding NASA's ability to address these challenges?

        <bullet>  How does NASA compare, in terms of financial 
        accountability today to where the agency was three years ago? 
        How successful has NASA been in instilling the rigor and 
        discipline necessary for good financial management? What more 
        needs to be done?

        <bullet>  How do acquisition management weaknesses impact 
        NASA's ability to carry out its missions? What progress has 
        NASA made in addressing its acquisition management weaknesses? 
        What issues could interfere with NASA's progress in addressing 
        these weaknesses?

        <bullet>  How significant are the identified vulnerabilities in 
        NASA's key networks to the agency's ability to successfully 
        execute future missions? What progress has NASA made in 
        addressing these network vulnerabilities?

        <bullet>  What progress has NASA made in instilling and 
        maintaining safety in the agency's culture, standards, and 
        processes? What could impact continued progress?

V. Background Information

Funding NASA for Fiscal Year 2010

    To put NASA's FY 2010 budget request into context, NASA has been 
tasked with flying the Space Shuttle safely until the end of the decade 
and then retiring the Shuttle fleet; completing assembly of, operating, 
and utilizing the ISS; developing a new Crew Exploration Vehicle (known 
as Orion) and a Crew Launch Vehicle (known as Ares I) by 2015; 
returning U.S. astronauts to the Moon by 2020; and conducting a variety 
of challenging science and aeronautics programs. The NASA Authorization 
Act of 2008 [P.L. 110-422] authorized a FY 2009 funding level for NASA 
of $20.21 billion; the appropriation enacted for FY 2009 was $17.78 
billion. P.L. 110-422 is a one-year authorization for NASA; the 
Committee on Science and Technology is planning to move legislation 
reauthorizing NASA this legislative session. In addition, The American 
Recovery and Reinvestment Act [P.L. 111-5] included $1 billion for 
NASA's Earth science, aeronautics, exploration programs, cross-agency 
support, and Inspector General. Recovery Act funds are to be expended 
by September 30, 2010.
    In response to the president's FY 2010 budget request for NASA, the 
House passed the Commerce, Justice, Science (CJS) appropriations bill, 
which includes NASA, in June 2009. Agreement on the final bill was 
reached with the Senate as part of the FY 2010 Consolidated 
Appropriations Act which passed the House on December 10, 2009 and the 
Senate on December 13, 2009. The president signed the bill into law on 
December 16, 2009. The total amount appropriated for FY 2010 for NASA 
approximates the total requested by the president for the agency. While 
the FY 2010 enacted appropriations total is about $1 billion greater 
than that enacted for FY 2009, the total of FY 2009 appropriations is 
basically the same when the $1 billion of funding provided to NASA by 
the American Recovery and Reinvestment Act (a.k.a. ``stimulus funds'') 
is added.
    Specific language was included in the Statement of Managers 
accompanying the consolidated appropriations with regards to human 
space flight expenditures. Because Congress is awaiting a decision from 
the president on his plans for future implementation of human space 
flight following the findings of the U.S. Human Spaceflight Plans 
Committee, the statement placed constraints on how the FY 2010 
appropriations for human space exploration could be used, with specific 
direction on the current program. Specifically, the Statement said:

        ``Accordingly, it is premature for the conferees to advocate or 
        initiate significant changes to the current program absent a 
        bona fide proposal from the Administration and subsequent 
        assessment, consideration and enactment by Congress.

        To protect the jurisdiction and prerogatives of the House and 
        Senate Committees on Appropriations and of the Congress 
        generally while providing appropriate flexibility to the 
        Administration in managing a complex research and development 
        program, the conference agreement provides $3,466,400,000 for 
        human exploration architecture development, the same level as 
        the budget request. Changes in budgetary and programmatic 
        requirements for fiscal year 2010 from the original request 
        shall be submitted only in the form of a supplemental budget 
        request for fiscal year 2010 and not through an initial 
        operating plan or subsequent updates.''

        ``Funds are also not provided herein to cancel, terminate or 
        significantly modify contracts related to the spacecraft 
        architecture of the current program, unless such changes or 
        modifications have been considered in subsequent appropriations 
        Acts.''

    In addition, the conferees created a new account called 
``Construction and Environmental Compliance.'' It is funded by moving 
money from several of the Mission Directorates into this new account 
and funds necessary expenses for the ``construction of facilities 
including repair, rehabilitation, revitalization, and modification of 
facilities, construction of new facilities and additions to existing 
facilities, facility planning and design, and restoration, and 
acquisition or condemnation or real property, as authorized by law, and 
environmental compliance and restoration.''
    The following table compares the NASA appropriation enacted for FY 
2009, the amount requested by the president for FY 2010, and the 
appropriation recently enacted for FY 2010.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


NASA's Office of the Inspector General

            Authority and Scope of Work

    Public Law 95-452, known as the Inspector General Act of 1978, 
created independent audit and investigative units, called Offices of 
Inspector General (OIGs) at 63 Federal agencies. The mandate of the 
OIGs, as spelled out in the Act, is to:

        <bullet>  Conduct and supervise independent and objective 
        audits and investigations relating to agency programs and 
        operations;

        <bullet>  Promote economy, effectiveness and efficiency within 
        the agency;

        <bullet>  Prevent and detect crime, fraud, waste and abuse in 
        agency programs and operations;

        <bullet>  Review and make recommendations regarding existing 
        and proposed legislation and regulations relating to agency 
        programs and operations; and

        <bullet>  Keep the agency head and the Congress fully and 
        currently informed of problems in agency programs and 
        operations.

    In accordance with the Inspector General Act, NASA's Office of the 
Inspector General (OIG) conducts oversight of NASA programs and 
operations and independently reports to the Administrator, Congress, 
and the public to further the agency's accomplishment of its mission. 
The OIG is led by the NASA Inspector General, a presidentially-
appointed position requiring Senate confirmation. The OIG's Office of 
Audits conducts independent and objective audits, reviews, and other 
examinations to improve the economy, efficiency, and effectiveness and 
to identify any waste and mismanagement in NASA programs, projects, 
operations, and contractor activities. In addition, the Office of 
Audits oversees the work of the independent public accountant in its 
audit of NASA's financial statements. The OIG's Office of 
Investigations investigates allegations of crime, cyber-crime, fraud, 
abuse or misconduct having an impact on NASA programs, operations, and 
resources. The Office of Investigations refers its findings to either 
the Department of Justice for prosecution or to NASA management for 
action. Through its investigations, the Office of Investigations 
identifies crime indicators and recommends effective measures for NASA 
management that are designed to reduce NASA's vulnerability to criminal 
activity.

            Memorandum on NASA's Most Serious Management and 
                    Performance Challenges
    In November 2009, the Acting Inspector General released a 
memorandum entitled ``NASA's Most Serious Management and Performance 
Challenges''. As required by the Reports Consolidation Act of 2000, 
this memorandum provides the OIG's views of the most serious management 
and performance challenges facing NASA. In determining whether to 
report an issue as a challenge, the OIG said that it considered the 
significance of the issue in relation to the agency's mission; its 
susceptibility to fraud, waste, and abuse; whether the underlying 
problems are systemic; and the agency's progress in addressing the 
issue. The NASA OIG found that NASA is working to improve agency 
programs and operations through various initiatives and by implementing 
recommendations made by GAO and itself. However, the NASA OIG said that 
challenges remain in several areas.

            Transitioning from the Space Shuttle to the Next Generation 
                    of Space Vehicles

    The NASA OIG said that ``NASA's greatest challenge continues to be 
maintaining the critical skills and capabilities required to safely and 
effectively fly the Space Shuttle until its retirement while 
transitioning to the next generation of space vehicles. In 2004, the 
``President's Vision for U.S. Space Exploration'' caused a substantive 
reorganization of NASA's strategic priorities, established a timeline 
for the retirement of the Space Shuttle, established the completion 
date for the International Space Station (ISS), and set the goals of 
returning to the Moon and reaching Mars. However, fiscal realities and 
technical challenges have hampered NASA's efforts to effectively 
implement the Vision.''

            Managing Risk to People, Equipment, and Mission

    The NASA OIG said in the November 2009 memorandum that ``Ensuring 
the success of NASA's mission is the goal of effective risk management. 
Safety and mission assurance controls are key to supporting robust and 
reliable operations in the context of very challenging launch and 
mission schedules. NASA program managers are constantly confronted with 
risks introduced by fiscal realities, schedule demands, and ever-
changing priorities. In addition, the NASA OIG has investigated 
instances involving damaged, counterfeit, or inferior parts purchased 
by NASA as a result of questionable or even criminal actions of 
suppliers. Technical challenges, competition for scarce resources, and 
U.S. economic constraints add risk to international and commercial 
partnerships. Close scrutiny by NASA management of adherence to the 
fundamentals of project and program management, risk identification and 
mitigation, and proven acquisition strategies is beneficial toward the 
accomplishment of Agency goals.''

            Financial Management

    The NASA OIG acknowledged that over the past year, NASA continued 
to make progress in improving its internal control over financial 
reporting by executing its Continuous Monitoring Program (CMP). The OIG 
said that ``The CMP assesses and evaluates internal controls, 
compliance with generally accepted accounting principles, and evidence 
used to support that balances and activity reported in NASA's financial 
statements are accurate and complete by requiring Centers to perform a 
set of control activities. Throughout FY 2009, the CMP has operated as 
designed. NASA has identified exceptions through the execution of the 
control activities and has generally tracked and resolved those 
exceptions in a timely manner.''
    While recognizing that much progress has been made in developing 
policies, procedures and controls to improve NASA's financial processes 
and systems, the NASA OIG also reported that challenges remain. 
Specifically, the NASA OIG said that ``during FY 2009, NASA management 
and Ernst & Young LLP (E&Y) continued to identify deficiencies in the 
Agency's system of internal control, which impair NASA's ability to 
timely report accurate financial information. The most severe 
deficiency involves NASA's internal control over legacy property, 
plant, and equipment (PP&E).'' The NASA OIG found that the effort to 
address PP&E deficiencies is currently focused primarily on 
establishing controls over legacy assets that flow from contracts 
executed prior to October 1, 2007. The most significant of these legacy 
assets are the ISS and the Shuttle. For several years, audits of these 
legacy assets have identified serious weaknesses in internal controls 
over the completeness and accuracy of the value of the assets. As a 
result, the NASA OIG said, ``Agency management and E&Y have been unable 
to obtain sufficient evidentiary support for the amounts presented in 
the financial statements.''
    Each year, federal agencies are required to obtain an audit of 
their consolidated financial statements from independent auditing 
firms. The E&Y November 2009 report said that E&Y determined that ``. . 
. the scope of our work was not sufficient to enable us to express, and 
we do not express, an opinion on the consolidated balance sheets . . 
..'' This constitutes a ``disclaimed opinion''--one in which the 
auditing firm finds a material weakness in the accounting processes of 
the agency so severe that they cannot reliably verify the agency's 
financial accounts. The Subcommittees on Investigations and Oversight 
and Space and Aeronautics held a joint hearing in December 2009 to 
determine what NASA needs to do to continue improving its financial 
control and accounting system.

            Acquisition and Contracting Processes

    One of NASA's long-standing management challenges, the OIG 
memorandum said, relates to systemic weaknesses identified in its 
acquisition and contracting processes. The OIG referenced GAO's 
identification of NASA's contract management as a high-risk area in 
1990 and that office's acknowledgment of improvements to NASA's 
processes in its most recent update. The OIG also noted NASA's 
continued emphasis, in 2009, on monitoring this challenge and 
implementing disciplined acquisition management processes. However, the 
OIG said that both GAO's and its audits and investigations ``continue 
to reveal systemic weaknesses in the areas of acquisition and 
procurement, to include awards as part of the Small Business Innovation 
Research (SBIR) Program.'' OIG work has identified instances of fraud, 
waste, and abuse by SBIR Program participants that bring into question 
the effectiveness of the Program's internal controls. For example, the 
NASA OIG found that some SBIR contractors received awards from multiple 
agencies for essentially the same work, submitted different proposals 
to multiple agencies but then provided all of them the same 
deliverable, or misrepresented information including the role of the 
principal investigator who was supposed to perform the research.

            Information Technology Security

    The NASA OIG said in its November 2009 memorandum that it 
recognizes that strengthening the agency's Information Technology (IT) 
security program will occur through improvements in the Agency's 
overarching IT management practices. In the past, the OIG noted that 
NASA reported IT security as a material weakness in the Administrator's 
annual Statement of Assurance. The NASA OIG reported that subsequent to 
IT security being reported as a material weakness, NASA has implemented 
various solutions in an attempt to improve its IT security. The OIG 
said in the November 2009 memorandum that ``These solutions have 
resulted in continued incremental improvements across NASA's IT 
infrastructure; however, challenges remain. Specifically, not all 
solutions have been fully implemented and ongoing breaches of NASA 
computer systems have resulted in the theft of sensitive data related 
to Agency programs, which adversely affected NASA's mission and 
resulted in millions of dollars in losses.''
    Mr. Paul Martin, NASA's Inspector General, will be a witness at the 
hearing and can provide additional details on the November 2009 
memorandum as well as other work performed by his office.

Government Accountability Office

            Authority and Scope of Work

    The U.S. Government Accountability Office (GAO) is an independent, 
nonpartisan agency that works for Congress. Often called the 
``congressional watchdog,'' GAO investigates how the federal government 
spends taxpayer dollars. GAO's work is done at the request of 
congressional committees or subcommittees or is mandated by public laws 
or committee reports. It also undertakes research under the authority 
of the Comptroller General who heads GAO. GAO audits agency operations 
to determine whether federal funds are being spent efficiently and 
effectively and reports on how well government programs and policies 
are meeting their objectives. Ms. Cristina Chaplain, who directs much 
of GAO's work at NASA, is a witness at today's hearing and will use 
recent GAO findings as the basis for the office's views on key 
challenges facing NASA.

            High-Risk Report Update

    Since 1990, GAO has periodically reported on government operations 
that it identifies as ``high risk.'' This effort has brought focus to 
problems impeding effective government and costing the government 
billions of dollars each year. GAO's high-risk status reports are 
provided at the start of each new Congress. Historically, high-risk 
areas have been so designated because of traditional vulnerabilities 
related to their greater susceptibility to fraud, waste, abuse, and 
mismanagement. As GAO's high-risk program has evolved, it has 
increasingly used the high-risk designation to draw attention to areas 
associated with broad-based transformations needed to achieve greater 
economy, efficiency, effectiveness, accountability, and sustainability 
of selected key government programs and operations. In 1990, GAO 
designated NASA's contract management as high risk in view of 
persistent cost growth and schedule slippage in the majority of its 
major projects. Since that time, GAO's high-risk work has focused on 
identifying a number of causal factors, including antiquated financial 
management systems, poor cost estimating, and undefinitized contracts.
    In its January 2009 update of the office's high-risk list [GAO-09-
271], GAO reported that since the 2007 high-risk update, NASA had taken 
significant steps to improve its acquisition management with the 
implementation of new policies and procedures and the development of a 
corrective action plan to address weaknesses in areas identified as 
high risk by GAO. For example, NASA revised its acquisition and 
engineering polices to incorporate elements of a knowledge-based 
approach that should allow the agency to make informed decisions. 
According to GAO, NASA is also instituting a new approach whereby 
senior leadership is reviewing acquisition strategies earlier in the 
process and developed broad procurement tenets to guide the agency's 
procurement practices. Among procurement policy reforms, GAO noted that 
an earned value management procurement policy has been established and 
a requirement that all award fee contracts undergo a cost-benefit 
analysis has been codified to improve the likelihood that NASA is using 
its resources most effectively. GAO noted NASA's broad plan for 
reducing acquisition risk and observed that successful implementation 
of both the plan and revised policies should stem cost growth and 
schedule slippage.
    However, GAO said that because cost growth and schedule delays 
persist, this activity--now titled ``acquisition management'' because 
of the scope of issues that need to be resolved--remains high-risk. GAO 
added that, to maximize NASA's investment dollars, implementation needs 
to be complemented by vigorous executive leadership to foster the 
expansion of a business-oriented culture and a sustained commitment to 
identify and take action on projects that are not achieving cost, 
schedule or performance goals upon which they were based when they were 
initiated.

            Assessment of Selected Large-Scale Projects [GAO-10-227-SP]
    GAO released its report [GAO-10-227-SP] on the eve of this hearing 
assessing the status of 19 NASA large-scale projects with a combined 
life cycle cost of more than $66 billion. GAO's independent assessment 
was initially undertaken in response to the explanatory statement of 
the House Committee on Appropriations accompanying the Consolidated 
Appropriations Act of 2008; the Committee on Science and Technology was 
a co-requester of that assessment and is a co-requester on the 2009 
assessment [The explanatory statement of the House Committee on 
Appropriations accompanying the Fiscal Year 2009 Omnibus Appropriations 
Act directed GAO to prepare this latest assessment].
    In its most recent assessment, GAO compared projects against best 
practice criteria for system development including attainment of 
knowledge on technologies and design. The office found that of the 19 
projects, 4 are still in the formulation phase where cost and schedule 
baselines have yet to be established, and 5 just entered the 
implementation phase in fiscal year 2009 and therefore do not have any 
cost and schedule growth. However, GAO said that ``9 of the 10 projects 
that have been in the implementation phase for several years 
experienced cost growth ranging from 8 to 68 percent, and launch delays 
of 1 to 33 months, in the past three years. These 10 projects had 
average development cost growth of almost $121.1 million--or 18.7 
percent--and schedule growth of 15 months, and a total increase in 
development cost of over $1.2 billion, with over half of this total--or 
$706.6 million--occurring in the last year. In some cases, cost growth 
was higher than is reported because it occurred before project 
baselines were established in response to the statutory requirement.''
    Commenting on factors contributing to cost and schedule increases, 
GAO said ``Many of the projects we reviewed experienced challenges in 
developing new or retrofitting older technologies, stabilizing 
engineering designs, managing the performance of their contractors and 
development partners, as well as funding and launch planning issues. 
Reducing the kinds of problems this assessment identifies in 
acquisition programs hinges on developing a sound business case for a 
project. Based, in part, on GAO's previous recommendations, NASA has 
acted to adopt practices that would ensure programs proceed based on a 
sound business case and undertaken initiatives aimed at improving 
program management, cost estimating, and contractor oversight. 
Continued attention to these efforts should help maximize NASA's 
acquisition investments.''
    [GAO defines a ``sound business case'' as having, in its simplest 
form, the following two elements: (1) the customer's needs are valid 
and can best be met with the chosen concept, and (2) the chosen concept 
can be developed and produced within existing resources--that is, 
proven technologies, design knowledge, adequate funding, and adequate 
time to deliver the product when needed.]
    GAO recognized NASA's efforts to improve acquisition management 
through the issuance of a new policy instituting key decision points in 
the development life-cycle; a corrective plan to improve the 
effectiveness of the agency's program/project management; and an 
initiative to help programs and projects with management, cost and 
schedule estimating, and maintenance of adequate levels of reserves. 
However, GAO said that while these efforts are positive steps, it is 
too early to assess their impact. The office cautioned that ``For 
projects to have better outcomes not only must they demonstrate a high 
level of knowledge at key junctures, but decision makers must also use 
this information to determine whether and how best a project should 
proceed through the development life cycle. If done successfully, these 
measures should enable NASA to foster the expansion of a business-
oriented culture, reduce persistent cost growth and schedule delays, 
and maximize investment dollars.''
    Cost and schedule growth at NASA was the subject of a hearing held 
by the Space and Aeronautics Subcommittee in March 2009. At that 
hearing entitled ``Cost Management Issues in NASA's Acquisitions and 
Programs'', Subcommittee Chairwoman Giffords noted:

        ``It is clear that good cost and schedule management will be 
        critical to the success of NASA's planned robotic and human 
        space flight activities. However, it is also clear that NASA, 
        Department of Defense (DOD), and the other agencies of the 
        federal government involved in space activities have many 
        dedicated and competent scientists and engineers working long 
        hours to try to deliver successful projects. That tells me that 
        dealing with these cost and schedule issues is hard, and that 
        there's no simple fix or the situation would have been resolved 
        long ago. We need to find out why preventing cost and schedule 
        growth in our space projects is so hard, and more importantly, 
        what we can do to put us on a better path for the future.''

            Report on International Space Station Utilization [GAO-10-
                    9]

    In 2005, Congress designated the ISS as a national laboratory; in 
addition, the NASA Authorization Act of 2008 required NASA to provide a 
research management plan for the ISS National Laboratory. GAO was asked 
by the Committee on Science and Technology to review the research use 
of the ISS. In a report dated November 2009, GAO found that research 
utilization has not been the priority because the primary objective for 
the ISS through 2010 is construction. GAO said that ``Some research has 
been and is being conducted as time and resources permit while the crew 
on board performs assembly tasks, but research is expected to begin in 
earnest in 2010. NASA projects that it will utilize approximately 50 
percent of the U.S. ISS research facilities for its own research, 
including the Human Research Program, opening the remaining facilities 
to U.S. ISS National Laboratory researchers.'' GAO reported that ``NASA 
faces several significant challenges that may impede efforts to 
maximize utilization of all ISS research facilities, including:

        <bullet>  the impending retirement of the Space Shuttle in 2010 
        and reduced launch capabilities for transporting ISS research 
        cargo once the shuttle retires,

        <bullet>  high costs for launches and no dedicated funding to 
        support research,

        <bullet>  limited time available for research due to the fixed 
        size of crew and competing demands for the crew's time, and

        <bullet>  an uncertain future for the ISS beyond 2015.''

    GAO also reported that ``NASA is researching the possibility of 
developing a management body including internal and external elements 
to manage ISS research, which would make the ISS National Laboratory 
similar to other national laboratories.'' NASA concurred with GAO's 
recommendations that the NASA Administrator implement certain actions 
such as increasing user outreach and centralizing decision-making to 
enhance use of the ISS.

            Report on Vulnerabilities in Key IT Networks [GAO-10-4]

    The NASA Authorization Act of 2008 directed GAO to (1) determine 
whether NASA has implemented appropriate controls to protect the 
confidentiality, integrity, and availability of the information and 
systems used to support NASA's mission directorates and (2) assess 
NASA's vulnerabilities in the context of prior incidents and corrective 
actions.
    In a report dated October 2009, GAO found that ``although NASA has 
made important progress in implementing security controls and aspects 
of its information security program, it has not always implemented 
appropriate controls to sufficiently protect the confidentiality, 
integrity, and availability of the information and systems supporting 
its mission directorates.'' GAO said that NASA did not consistently 
implement effective controls to prevent, limit, and detect unauthorized 
access to its networks and systems. As examples, GAO said that NASA did 
not always sufficiently restrict user access to systems, encrypt 
network services and data, and audit and monitor computer-related 
events. GAO reported that a key reason for these weaknesses is that 
NASA has not yet fully implemented key activities of its information 
security program to ensure that controls are appropriately designed and 
operating effectively. For example, GAO found that NASA has not always 
conducted comprehensive tests and evaluation of its information system 
controls; tracked the status of plans to remedy known weaknesses; and 
maintained capabilities to detect, report, and respond to security 
incidents.
    Despite actions to address prior security incidents, GAO concluded 
that ``NASA remains vulnerable to similar incidents. NASA networks and 
systems have been successfully targeted by cyber attacks. During fiscal 
years 2007 and 2008, NASA reported 1,120 security incidents that have 
resulted in the installation of malicious software on its systems and 
unauthorized access to sensitive information.''
    GAO also concluded that the control vulnerabilities and program 
shortfalls it identified ``collectively increase the risk of 
unauthorized access to NASA's sensitive information, as well as 
inadvertent or deliberate disruption of its system operations and 
services. They make it possible for intruders, as well as government 
and contractor employees, to bypass or disable computer access controls 
and undertake a wide variety of inappropriate or malicious acts. As a 
result, increased and unnecessary risk exists that sensitive 
information is subject to unauthorized disclosure, modification, and 
destruction and that mission operations could be disrupted.''
    GAO recommended that the NASA Administrator take steps to mitigate 
control vulnerabilities and fully implement a comprehensive information 
security program. For example, GAO recommended that NASA ``conduct 
sufficient or comprehensive security testing and evaluation of all 
relevant security controls including management, operational, and 
technical controls.'' NASA concurred with GAO's recommendations, 
stating that it would continue to mitigate the information security 
weaknesses identified, and noted that many of the recommendations are 
currently being implemented as part of an ongoing strategic effort to 
improve information technology management and correct information 
technology security program deficiencies.

Aerospace Safety Advisory Panel

            Authority and Scope of Work

    Since it was established in 1968 by Congress, the Aerospace Safety 
Advisory Panel (ASAP) has been evaluating NASA's safety performance and 
advising the agency on ways to improve that performance. The panel, 
which is a Federal Advisory Committee Act (FACA)-chartered advisory 
body, is comprised of recognized safety, management, and engineering 
experts from industry, academia, and other government agencies. This 
senior advisory committee reports to the NASA Administrator and 
Congress. The panel was established by Congress in the aftermath of the 
January 1967 Apollo 204 spacecraft fire that took the lives of three 
astronauts. The ASAP's statutory duties, as prescribed in Section 6 of 
the NASA Authorization Act of 1968, Public Law 90-67, 42 U.S.C. 2477 
are as follows:

        ``The Panel shall review safety studies and operations plans 
        that are referred to it and shall make reports thereon, shall 
        advise the Administrator with respect to the hazards of 
        proposed operations and with respect to the adequacy of 
        proposed or existing safety standards, and shall perform such 
        other duties as the Administrator may request.''

    The panel was reauthorized in Section 106, Safety Management, 
Section 6, of the National Aeronautics and Space Administration 
Authorization Act of 2005, [P.L. 109-155]. The ASAP bases its advice on 
direct observation of NASA operations and decision-making. The panel 
provides a report on an annual basis. Its ``2009 Annual Report'' was 
released on January 15, 2010. In addition to an annual report, the 
panel also conducts quarterly meetings, submits minutes, and provides 
NASA with recommendations.

            2009 Annual Report

    In its recently issued 2009 annual report, the ASAP recognized 
several NASA accomplishments in 2009, such as safe completion of five 
successful Shuttle missions, continued construction of the ISS, flight 
testing of the Ares I-X, and progress in Constellation Program ground 
project efforts. Safety is the primary focus of the report. Two 
critical safety-related issues identified relate to human space flight, 
specifically those concerning the establishment of human rating 
requirements for follow-on vehicles and the potential extension of the 
Shuttle beyond its current flight manifest. Other issues identified as 
critical were external communication of the risks associated with 
exploration; transition of workforces from Shuttle to Constellation; 
integration of robotics agency-wide; and timeliness in completing 
mishap investigations. Other safety-related issues identified in the 
annual report were NASA facilities/aging infrastructure; timeliness of 
NASA responses to ASAP recommendations; and progress in addressing the 
recommendations of the Columbia Accident Investigation Board (CAIB).

            Establishment of Human Rating Requirements
    In referencing the work by the Review of U.S. Human Space Flight 
Plans Committee, better known as the ``Augustine Committee'', the 
report raised concern about the committee's observation that 
``appropriate consideration be given to using the commercial space 
industry to fulfill NASA crew-delivery services to LEO.'' The panel 
said, regarding the committee's assumption that safety was assumed to 
be ``a given'', that ``this assumption is premature and oversimplifies 
a complex and challenging problem because there is not a ``cookie-
cutter approach'' to safety in space.'' The ASAP strongly reaffirmed, 
as a basic principle, that ``whatever new policies or vehicles are 
selected for America's space activities, ensuring human safety must 
continue to receive the appropriate funding, visibility, and support to 
prevent another Columbia-like tragedy. With this basic principle in 
mind, the Panel has set its focus on the following critical safety 
issues associated with the present program and its potential 
alternatives.''
    In its prior ``2008 Annual Report'', the panel had stated that 
proposed commercial orbital transportation services (COTS) vehicles 
being developed by SpaceX and Orbital Sciences Corporation had not been 
required to meet Human Rating Requirements (HRR) standards nor were 
they proven to be appropriate to transport NASA personnel. The ASAP 
acknowledged that this was understandable, since these contractors were 
only tasked with developing cargo delivery systems.
    However, the ASAP noted that the possible expansion of the 
commercial vehicle mission to include human transport caused the panel 
to highlight the standards for human rating requirements as an issue at 
every quarterly meeting in 2009. The report said that a principal 
concern identified at the first ASAP meeting in 2009 was that the 
current HRR procedures, when applied to the development of future 
human-related vehicles, were not specifically intended to establish 
requirements for vehicles produced by entities external to NASA, such 
as commercial space transportation firms or international programs. 
Consequently, the panel recommended that ``NASA stipulate directly the 
applicable HRR standards and share acceptable risk levels with those 
other entities.'' The 2009 annual report noted that in the fourth 
quarter of 2009, ``NASA finally made a start at achieving progress to 
more clearly develop and communicate the standards necessary for any 
COTS manufacturer if astronauts are to be transported on non-NASA 
vehicles. However, this will only partially answer the challenge. After 
the criteria and their applicability are clearly established, a process 
must be developed for validating and certifying compliance with those 
criteria. Validation and certification itself has two components: that 
which takes place at the front end (at various stages) and one that 
follows the program in the form of insight, oversight etc. Although the 
Panel strongly supports the start that NASA has made, the Panel 
continues to believe that NASA is behind where it needs to be at this 
point in time. Considerable work must be done, and priority efforts 
should be established to accelerate the level of effort underway.''
    The report also stated that ``It is the Panel's position that no 
COTS manufacturer is currently HRR qualified, despite some claims and 
beliefs to the contrary. Questions that must be answered are: What is 
the process for certifying that potential COTS vehicles are airworthy 
and capable of carrying astronauts into space safely? How is compliance 
assured over the life of the activity? The same questions would apply 
to any potential international orbital transportation systems.''
    With regard to NASA's ``program of record'', the report noted that 
``The Ares I vehicle has been designed from the beginning with a clear 
emphasis on safety. Its architecture was selected by NASA's Exploration 
System Architecture Study (ESAS) team because of its potential to 
deliver at least 10 times the level of crew safety as the current 
Shuttle. The launch vehicle configuration has been developed to provide 
the best possible allowances for crew escape in the event of a launch 
failure. The independent launch escape system pulls the capsule clear 
of the launch pad and any attendant explosion or fire. The demonstrated 
high reliability of the solid rocket booster (SRB) suggests a low 
likelihood of first stage failure on ascent, but the launch escape 
system would cover, even with this low probability of failure.
    To abandon Ares I as a baseline vehicle for an alternative without 
demonstrated capability nor proven superiority (or even equivalence) is 
unwise and probably not cost-effective. The ability of any current COTS 
design to ``close the gap'' or even provide an equivalent degree of 
safety is speculative. Switching from a demonstrated (design approach 
proven by Apollo, use of heritage hardware, and Ares 1-X flight 
success), well designed, safety optimized (ESAS) system to one based on 
nothing more than unsubstantiated claims would seem a poor choice. 
Before any change is made to another architecture, the inherent safety 
of that approach must be assessed to ensure that it offers a level of 
safety equal to or greater than the program of record.''

            Shuttle Extension

    The ASAP said in its 2009 report that it was very concerned about 
possible extension of Shuttle operations beyond those currently 
manifested to complete the construction of the ISS. The U.S. Human 
Space Flight Plans Committee had concluded that the only way to reduce 
the ``gap'' in human space flight launch capability between ISS 
completion and the planned flights of Ares I is by extending the 
Shuttle program well beyond 2010. The ASAP indicated that it ``does not 
support extending the Shuttle significantly beyond its current 
manifest. We are especially concerned over any kind of ``serial 
extension'' where a few flights at a time might be added. The risk of 
continuing to fly the Shuttle without a recertification and expending 
the resources to bring the vehicle up to modern standards is more than 
what we should ask astronauts to shoulder.'' The ASAP concluded that 
``Extension significantly beyond what is planned through the current 
manifest would be unwise.''

            External Communication on Risks Associated with Exploration

    The ASAP noted that, in light of critical human space flight 
efforts, communications with the public and Congress are more important 
than ever before. The report encouraged NASA to be ``fully candid with 
the public and Congress, and those audiences must fully understand what 
risks are involved. There can never be zero risk, and the rate of 
progress can be limited by the amount of risk one is willing to take. 
Space exploration is a dangerous enterprise, and the Nation is 
fortunate to have courageous people willing to accept the risk. In 
going forward with exploration, the shouldering of risk needs to be 
undertaken not only by NASA, but by Congress and the Administration. 
The risks must be communicated clearly to Congress and the public. To 
do otherwise is disingenuous and does the Nation a disservice.''

            Shuttle to Constellation Workforce Transition

    The panel commended NASA Centers' leadership and contractors in 
working to ease the transition from the Shuttle program to the 
Constellation Program. However, the report noted that the ``workforce 
is worried about the uncertainty of NASA's mission and the five- to 
eight-year gap between Shuttle and its successor. Human space flight is 
a business in which safety rides on the shoulders of skilled, hard-
working people. Successful workforce transition depends heavily on a 
decision being made about NASA's direction. The Panel's concern 
continues to grow as NASA's future in human space flight remains 
undecided. The current ``transition'' plans were drawn up assuming that 
the program of record would be executed. The Panel is impressed by the 
level of detail in the plans and the diligence with which they are 
being carried out. A programmatic decision regarding exploration and a 
possible change to the program of record is under review as a result of 
the Augustine Committee report. At the time this Annual Report went to 
press, the future path forward for the space program had not been 
announced. When it is announced, the transition plans will need to be 
reevaluated and redefined.''

            Integration of Robotics Agency-Wide

    In the annual report, the panel continued to urge NASA to take an 
aggressive view towards using robots to reduce human risk whenever 
possible, consistent with mission accomplishment. The report said that 
``This means using robots to replace humans on some missions and to 
support astronauts on others. The Panel notes that the vision for 
exploration includes dangerous and challenging work like construction, 
mining, and manufacturing. In accomplishing this work, there is 
significant risk to astronauts in their fragile but critical 
spacesuits.'' The panel said that it is still finding a wide 
discrepancy between how NASA views robots and the current state of 
practice in the commercial and military arenas. As a result, during 
2010, the ASAP said that it would undertake a more in-depth assessment 
of NASA's investment in and planning for using robots in place of and 
in support of human astronauts.

            Timeliness in Completing Mishap Investigations

    In 2007, the panel had recommended that NASA reevaluate the mishap 
investigation process to provide for more timely release of information 
across the agency. The panel followed up with two more recommendations 
in 2008 to spur this effort forward. Despite some progress, the ASAP 
said in its 2009 annual report that it ``continues to be concerned 
about the need to correct each phase in the process to shorten the 
overall timeline: (1) accomplishing the investigation itself; (2) 
developing the investigation report; (3) obtaining the NASA 
Headquarters endorsements; (4) obtaining the Center approval; (5) 
developing the corrective action plan and implementing it; and (6) 
verifying implementation so that the case can be closed.'' While 
acknowledging progress at the Field Centers to reduce the timeline for 
the phases that are under their control, the ASAP said that ``it will 
take more effort, especially at NASA Headquarters, before an overall 
improvement in the final report's timeline is seen. What is still 
lacking are the metrics that show the tracking and trending for all 
phases of the mishap investigation process so that one can see whether 
positive changes in the timelines are occurring.''

            Other Issues

        <bullet>  NASA Facilities/Aging Infrastructure: The ASAP said 
        that ``over 80 percent of NASA facilities are beyond their 
        design life, and annual maintenance is underfunded. Facilities 
        continue to degrade and facilities failures are starting to 
        impact missions and have safety implications Agency-wide. 
        Evidence for this can be seen in the increasing number of small 
        fires, key equipment losses through failures in material 
        handling and transportation facilities, and in the ``weak 
        signals'' that we observe in current safety reports. The 
        infrastructure used to launch complex vehicles into space must 
        be reviewed and maintained down to the smallest component to 
        remain safe. In the past, one of NASA's goals was ``ten healthy 
        Centers.'' A considerable investment in facility maintenance, 
        repair, and replacement is needed for this goal to be achieved. 
        This may be unrealistic in the current economic climate. If 
        funding is not available, NASA should consider consolidating 
        its programs and efforts at fewer Centers so that its 
        activities may be safely continued at the remaining facilities. 
        This planning needs to be part of a conscious and deliberate 
        facilities strategy.''

        <bullet>  Timeliness of NASA Responses to ASAP Recommendations: 
        The panel indicated concern about NASA's unresponsiveness to 
        its recommendations. Following 25 written recommendations to 
        NASA in 2009, by the end of the year, the report said that NASA 
        had issued a single response addressing just three 
        recommendations. The report found that about half of the 
        remaining responses were in a ``concurrence loop'' at NASA for 
        signature. The panel recommended ``that more management 
        attention be placed on streamlining the review and concurrence 
        process for NASA responses to Panel recommendations.''

        <bullet>  Monitoring NASA's Responses to CAIB Recommendations: 
        As Congress mandated in the NASA Authorization Act of 2005, the 
        ASAP evaluates and reports annually on NASA compliance with 
        CAIB return-to-flight (RTF) and continue-to-fly (CTF) 
        recommendations. In 2009, there were three outstanding CAIB 
        recommendations: (1) eliminate all external tank thermal 
        protection system debris shedding at the source; (2) increase 
        the orbiter's ability to sustain debris damage; and (3) develop 
        an on-orbit repair capability. In 2008, the panel had concluded 
        that ``NASA must decide whether to formally accept the risks 
        associated with these three outstanding recommendations. The 
        Panel believes that informed, formal risk acceptance is 
        essential for a successful safety program. This process 
        provides a formal record of the risks that were accepted and 
        the assumptions used in making those decisions. While NASA has 
        concluded that no further action is warranted on the remaining 
        three CAIB recommendations and has closed these out, it is not 
        clear that the risk acceptance for that decision has been 
        formally documented by NASA management. The Panel continues to 
        recommend that NASA do so. NASA should revisit these decisions 
        if the Agency decides to recertify the Shuttle. Because NASA 
        has moved beyond the RTF phase, the Panel will no longer 
        specifically address RTF in future annual reports.''

        <bullet>  In the 2009 annual report, the ASAP stated that 
        ``While NASA has concluded that no further action is warranted 
        on the remaining three CAIB recommendations and has closed 
        these out, it is not clear that the risk acceptance for that 
        decision has been formally documented by NASA management. The 
        Panel continues to recommend that NASA do so. NASA should 
        revisit these decisions if the Agency decides to recertify the 
        Shuttle. Because NASA has moved beyond the RTF phase, the Panel 
        will no longer specifically address RTF in future annual 
        reports. The Panel will continue to monitor, review, and 
        provide recommendations on CTF issues.''

    Admiral Dyer, the Chairman of the ASAP, will be a witness at the 
hearing and can provide additional details on the ASAP's 2009 Annual 
report.
    Chairwoman Giffords. I want to welcome everyone this 
morning and let everyone know that this is the first 
subcommittee hearing of the second session, and we have had a 
very active subcommittee over the last session, and I fully 
expect that this upcoming year will be as busy in carrying out 
our oversight responsibilities.
    In that regard, I have called this hearing today so that we 
have a chance to hear from NASA's watchdogs; the NASA Inspector 
General, the Government Accountability Office, and the 
Independent Aerospace Safety Advisory Panel.
    As Congress prepares to reauthorize NASA, it is important 
that we focus on the issues and the challenges that will 
determine whether or not NASA will be successful over the next 
decade. The three individuals testifying before us today can 
provide us with the kind of expert, objective assessments that 
we will need to inform our deliberations over NASA's future, 
and we look forward to your testimony.
    As everyone knows, the President's fiscal year 2011 budget 
request was delivered to the Hill on Monday. It proposes large 
changes to NASA's programs, including the outright cancellation 
of Constellation. Today's hearing, of course, is not intended 
to be an examination of that request, in part because many of 
those details are still unavailable to us.
    However, I can assure you that the full Science and 
Technology Committee and this subcommittee will be holding 
hearings over the next few weeks to examine the President's 
proposals, and of course, we intend to give them serious 
scrutiny.
    I would just like to state that one of the reasons that I 
was particularly honored to accept the chairmanship of this 
subcommittee last year was my excitement to be involved in an 
agency that has inspired Americans, and frankly the world at 
large for decades.
    But as I reviewed the President's budget request, I found a 
quite glaring omission. I once again point all of you to this 
chamber, in this chamber to the proverb that is on the wall 
behind us, and in fact, it is good for members of this 
subcommittee and the full committee to think about why we are 
here, and of course, that quote is, ``Where there is no vision, 
the people perish.'' And these words are as true today as when 
our forefathers undertook a voyage of discovery, when they 
landed on this continent and founded America as a city upon a 
hill, a beacon of light for the future world, for the entire 
world to admire.
    We are still that city on the hill, and the eyes of all 
people are upon us. We have set forth on a mission to explore 
the heavens, and should we deal falsely with this work we have 
undertaken, we shall be made a byword across the world. We 
shall shame the faces of many of America's worthy civil 
servants who have dedicated their lives to this mission.
    Today we are still a city on that hill, but I fear that we 
may soon abandon our vision. Our job as servants of the people, 
as members of this subcommittee, is to allow our scientists, 
our engineers, our researchers, our visionaries, to be as bold 
in this undertaking as our faculties will allow. To be 
unconstrained by artificial impositions of expedience or purse 
but rather limited only by the strength of their imagination 
and the immutability of the laws of physics.
    My concern today is not numbers on a ledger but rather the 
state of the American dream to reach for the stars. Should we 
falter, should we slip, should we let our dream fade? What will 
we tell our children? How will we inspire the next generation 
of great minds to pursue the science and engineering fields 
critical to our competitiveness in the 21st century when we 
abandoned a generation of thousands of aerospace engineers in 
the middle of this endeavor? What will we tell the world that 
we led into space and that we took the moon? My fear is that we 
will tell them--tell us what the stars are like when you get 
there.
    So in the coming weeks we will be holding a number of 
hearings, both in the subcommittee and in the full committee to 
address the range of NASA programs and responsibility in 
science, aeronautics, and space flight. We will discuss the 
potential impact of program changes on tens of thousands of 
jobs, precisely the type of high-tech jobs that are critical to 
our economic competitiveness. We will discuss the impact that 
NASA programs, especially those in human space exploration, 
play in inspiring young people to pursue careers in STEM 
fields, another issue vital to developing a workforce for the 
21st century.
    Both of these issues will be especially timely as the full 
committee considered reauthorization of the America COMPETES 
legislation. And I in my work on the House Arm Services 
Committee and others that serve on both of these committees, 
will be diving into the impact the proposed cuts to human 
spaceflight will have on our aerospace industry and our 
national defense as well.
    No doubt we will hear a great deal in order to assess what 
will be decided in the next few weeks and the testimony that we 
hear I think will--today, will likely raise additional concerns 
and considerations.
    And just in closing before I hand it over to Mr. Olson, I 
would just like to tell a story that illustrates my concern. 
Nearly 100 years before Columbus sailed to the Americas, China 
had a great fleet of ships traveling throughout the Indian 
Ocean. This fleet was ahead of its time, exploring the seas, 
and spurring an unprecedented era of knowledge, trade, and 
discovery. However, as times changed China felt they could no 
longer afford its fleet and so it was defunded. The fleet soon 
fell to ruin, with some historians reporting that the ships 
were burned and destroyed, and so ended a great opportunity for 
the Chinese people.
    Had the Chinese continued to fund this endeavor of 
exploration, of discovery, the world today might very well be a 
totally different place, and how ironic, then, it is that today 
we consider abandoning our space-worthy vessels, ending a half 
century of American leadership in space exploration just as the 
Chinese ramp up their own space program and aim for the moon.
    NASA is an agency with a wide range of programs and 
responsibilities in science, aeronautics, and human 
spaceflight, and we need to make sure that the agency is 
proceeding as effectively as possible to carry out its diverse 
missions. Today's hearing will help us assess how NASA is doing 
in that regard.
    I look forward to working with members on both sides of the 
aisle as we strive to ensure that Congress crafts the most 
responsible and productive future for the Nation's space and 
aeronautics programs. The stakes for America are too high for 
us to attempt anything less.
    [The prepared statement of Chairwoman Giffords follows:]
          Prepared Statement of Chairwoman Gabrielle Giffords
    Good morning, and welcome to the Subcommittee's first hearing of 
the 2nd session. We had a very active Subcommittee last session, and I 
expect to be at least as busy this year as we carry out our oversight 
responsibilities. In that regard, I have called this morning's hearing 
so that we may have a chance to hear early on from NASA's 
``watchdogs''--the NASA Inspector General, the Government 
Accountability Office, and the independent Aerospace Safety Advisory 
Panel.
    As Congress prepares to reauthorize NASA, it is important that we 
focus on the issues and challenges that will determine whether or not 
NASA succeeds or fails in the coming decade. The three individuals 
testifying before us today can provide us with the kind of expert, 
objective assessments that we will need to inform our deliberations 
over NASA's future, and I look forward to their testimony.
    As you know, the president's Fiscal Year 2011 budget request was 
delivered to the Hill on Monday. It proposes large changes to NASA 
programs, including the outright cancellation of Constellation. Today's 
hearing is not intended to be an examination of that request, in part 
because many of the details are still unavailable. However, I can 
assure you that the full Science and Technology Committee and this 
Subcommittee will be holding a series of hearings over the coming weeks 
to examine the president's proposals, and we intend to give them 
serious scrutiny. One of the reasons I was particularly honored to 
accept the chairmanship of this subcommittee was my excitement to be 
involved in an agency that has inspired Americans, and the world at 
large, for decades.
    But as I reviewed the President's budget request, I found a quite 
glaring omission. I would once again point all of you in this chamber 
to the proverb written on the wall behind me. ``Where there is no 
vision, the people perish.'' These words are as true today as when our 
forefathers undertook a voyage of discovery, when they landed on this 
continent and founded America as a city upon a hill, a beacon of light 
for the whole world to admire. We are still that city upon a hill and 
the eyes of all people are upon us.
    We have set forth on a mission to explore the heavens and should we 
deal falsely with this work we have undertaken, we shall be made a 
byword across the world. We shall shame the faces of many of America's 
worthy civil servants who have dedicated their lives to this mission. 
Today we are still that city upon a hill, but I fear that we may soon 
abandon our vision. Our job as servants of the people, as members of 
this committee is to allow our scientists, our engineers and 
researchers, our visionaries to be as bold in this undertaking as their 
faculties allow. To be unconstrained by artificial impositions of 
expedience or purse, but rather limited only by the strength of their 
imagination and the immutability of the laws of physics. My concern 
today is not numbers on a ledger, but rather the fate of the American 
dream to reach for the stars. Should we falter, should we slip, should 
we let our dream fade, what will we tell our children? How will we 
inspire the next generation of great minds to pursue the science and 
engineering fields critical to our competitiveness in the 21st century 
when we abandon a generation of thousands of aerospace engineers in the 
middle of this endeavor? What will we tell the world that we led into 
space, that we took to the moon? My fear is that we will tell them, 
``Tell us what the stars are like, when you get there.''
    In the coming weeks we will be holding a number of hearings both in 
this subcommittee and the full committee to address the range of NASA 
programs and responsibilities in science, aeronautics, and human 
spaceflight. We will discuss the potential impact of program changes on 
tens of thousands of jobs, precisely the type of high tech jobs that 
are critical to our economic competitiveness. We will discuss the 
impact that NASA programs, especially those in human space exploration, 
play in inspiring young people to pursue careers in STEM fields, 
another issue vital to developing a workforce for the 21st century. 
Both of these issues will be especially timely as the full committee 
considers reauthorization of America COMPETES legislation.
    And I, in my work on the House Armed Services Committee, will be 
diving into the impact that proposed cuts to human spaceflight will 
have on our aerospace industry and our national defense.
    No doubt we will have a great deal to assess in the coming weeks. 
The testimony we hear today will likely raise additional issues that we 
will need to consider.
    In closing, I would like to tell a story that illustrates my 
concern. Nearly 100 years before Columbus sailed to the Americas, China 
had a great fleet of ships traveling throughout the Indian Ocean. This 
fleet was ahead of its time, exploring the seas and spurring an 
unprecedented era of knowledge, trade, and discovery. However, as times 
changed, China felt that it could no longer afford its fleet, and so it 
was defunded. The fleet soon fell to ruin, with some historians 
reporting that the ships were burned and destroyed, and so ended a 
great opportunity for the Chinese people. Had the Chinese continued to 
fund this endeavor of exploration, of discovery, the world might now be 
a very different place. How ironic then that today we consider 
abandoning our space worthy vessels, ending a half century of American 
leadership in space exploration just as the Chinese ramp up their own 
space program and aim for the moon.
    NASA is an agency with a range of programs and responsibilities in 
science, aeronautics, and human spaceflight--and we need to make sure 
that the agency is proceeding as effectively as possible to carry out 
its diverse missions. Today's hearing will help us to assess how NASA 
is doing in that regard. I look forward to working with Members on both 
sides of the aisle as we strive to ensure that Congress crafts the most 
responsible and productive future for the nation's space and 
aeronautics programs. The stakes for America are too high for us to 
attempt anything less.

    Chairwoman Giffords. And with that the Chair now recognizes 
Mr. Olson for an opening statement.
    Mr. Olson. Well, thank you, Madam Chairwoman, and thank you 
for calling this morning's hearing, and I will do my best to 
stay on the advertised topic, but I make no guarantees.
    I would like to thank our witnesses for their appearance 
today. I realize that each one of you has spent considerable 
time and effort preparing for this hearing, and I look forward 
to hearing from you so that our subcommittee can benefit from 
your expertise.
    The role of watchdogs is critical in our government, and I 
applaud your efforts and encourage your continued diligence 
going forward. We have a similar role right here in Congress, 
and when we can, we would like to partner with you to make each 
of our jobs more effective to accomplish our shared goals.
    Mr. Martin, good to see you again. I trust you have gotten 
more acquainted in your new role as you are settling in there. 
I do have an admonition that we will surely discuss in the 
future, but it is in light of the President's recent budget 
proposal. His proposal is a radical departure for how NASA does 
business. The impacts to the workforce and to the relationship 
between the government and its contractors is about to change 
and change dramatically. I implore you, implore you to monitor 
how this process evolves going forward.
    Ms. Chaplain, thank you for your work, especially in light 
of your recent report on the International Space Station. 
Should this program continue, and it appears it is going to 
continue at least until 2020, your recommendations about a 
centralized structure will need to be addressed, and we are 
anxious to hear more.
    And finally, Admiral Dyer, we thank you for your service. 
Earlier this week we marked the seventh anniversary of the 
Columbia tragedy. We must not forget the inherent dangers that 
travel by space brings on. You and the members of the ASAP are 
critical in our efforts of exploration. Your recent annual 
report provided critical insight on the path our Nation should 
be pursuing in regard to human spaceflight, and I would like to 
read for the record a very significant passage. The statement 
was included in a press release the agency issued but since 
that release went out at 6:00 p.m. on the Friday of the long 
Martin Luther King Day holiday, I think it is worth reading for 
the record.
    In regard to the Constellation Program you found, and I 
quote, ``To abandon the program of record as a baseline for an 
alternative without demonstrated capability or proven 
superiority is unwise and probably not cost effective.'' Let me 
read that again. ``To abandon the program of record as a 
baseline for an alternative without demonstrated capability or 
proven superiority is unwise and probably not cost effective.'' 
And yet this is exactly what the President's 2011 budget aims 
to do.
    My concern about the direction of the Administration's 
budget proposal will take NASA is something I have spoken out 
about and will continue to do so. We are on the verge of 
abandoning human spaceflight in the near term, and I fear 
beyond that. The witnesses before us will play a critical role 
in the direction the agency goes, and the men and women on this 
dais will have an equally-critical role in the direction our 
Nation goes.
    And I look forward to working with you to chart that path.
    [The prepared statement of Mr. Olson follows:]
            Prepared Statement of Representative Pete Olson
    Madam Chairwoman, thank you for calling this morning's hearing. I 
will do my best to ensure we stay on the advertised topic, but I make 
no guarantees. I'd like to thank our witnesses for their appearance 
today. I realize that each of you has spent considerable time and 
effort preparing for this hearing, and I look forward to hearing from 
you so that our subcommittee can benefit from your expertise.
    The role of watchdogs is critical in our government, and I applaud 
your efforts and encourage your continued diligence going forward. We 
have a similar role here in Congress, and when we can, would like to 
partner with you to make each of our jobs more effective to accomplish 
our shared goals.
    Mr. Martin, it is good to see you again and I trust you are getting 
more acquainted with your still-new role. I do have an admonition that 
we will surely discuss more in the future, but it is in light of the 
President's recent budget proposal. His proposal is a radical departure 
for how NASA does business. The impacts to the workforce and to the 
relationship between the government and its contractors is about to 
change. I implore you to monitor how this process evolves going 
forward.
    Ms. Chaplain, thank you for your work, especially in light of your 
recent report on the International Space Station. Should this program 
continue, your recommendations about a centralized structure will need 
to be addressed and we are anxious to hear more.
    Finally, Admiral Dyer, thank you for your service. Earlier this 
week we marked the 7th anniversary of the Columbia tragedy. We must not 
forget the inherent dangers that travel by rocket brings. You and the 
members of the ASAP are critical in our efforts of exploration.
    Your recent annual report provided critical insight on the path our 
nation should be pursuing in regard to human space flight. I would like 
to read, for the record, a very significant passage. This statement was 
included in the press release the agency issued, but since that release 
was sent out at 6:00 pm on the Friday of the long Martin Luther King 
Day Holiday weekend I think it is worth reading for the record:

         In regard to the Constellation program you found that: To 
        abandon the program of record as a baseline for an alternative 
        without demonstrated capability or proven superiority is unwise 
        and probably not cost-effective.''

    My concerns about the direction the Administration's budget 
proposal will take NASA is something I have spoken about, and will 
continue to do so. We are on the verge of abandoning human space flight 
in the near term, and I fear beyond that. The witnesses before us will 
play a critical role in the direction the agency goes, and the men and 
women on this dais will have an equally critical one in the direction 
we as a nation goes. I look forward to working with you all to chart 
that path.
    Thank you, Madam Chairwoman. I yield back by time.

    Mr. Olson. And I yield the balance of my time, Madam 
Chairwoman, to the Ranking Member of the full committee.
    Chairwoman Giffords. No objection.
    Mr. Olson. Gentleman from Texas.
    Mr. Hall. Thank you, and thank you, Madam Chairman.
    Everyone in this room knows NASA's management is constantly 
challenged to manage a diverse, complex, and yet risky set of 
programs and missions with resources that too often are deemed 
to be inadequate and yet NASA succeeds, producing startling 
discoveries that help us better understand our solar system and 
universe, the planet earth, and living and working in space. I 
can't think of any other civil, federal agency that matches its 
record of scientific achievement, not one with a record of 
fostering new technologies that have helped transform the 
American economy.
    And Madam Chairwoman, speaking of sound management 
practices, I want to digress slightly by offering a couple of 
thoughts regarding NASA's fiscal year 2011 budget request. I 
can hardly read this damn thing I am so mad.
    Congress expects and demands that the Executive Branch 
offer solid justification for their plans and programs, but for 
the life of me I cannot understand how this Administration can 
rationalize its decision to scrap Constellation and simply 
start anew, especially given the strong support it has received 
from Congress, Republicans and Democrats. It is naive to assume 
that a do-over will somehow offer a safer, cheaper system 
faster than the current path we are on.
    The Ares Launcher and Orion Crew Vehicle have been designed 
to be very safe and robust systems. They have undergone 
rigorous engineering reviews. American taxpayers have invested 
$9 billion, and the agency and its contractors have spent five 
years working to ensure that Constellation will be flexible, 
affordable, and safe. To simply toss this aside and gamble 
America's human spaceflight program on an undefined, untested 
system is more than alarming.
    I look forward to taking part in your incoming hearings, 
examining NASA's budget requests and exploration program.
    Madam Chairman, I thank you. I yield back.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Madam Chairwoman, thank you for calling this hearing, and my thanks 
to our witnesses for testifying before us this morning. I realize you 
and your staffs have worked long and hard to prepare for this 
appearance, and I want to assure you that your efforts will help this 
Committee as we begin the necessary work of reauthorizing NASA later 
this spring.
    As everyone in this room knows, NASA's management is constantly 
challenged to manage a diverse, complex and risky set of programs and 
missions with resources that too often are deemed to be inadequate. And 
yet NASA succeeds, producing startling discoveries that help us better 
understand our solar system and universe, the planet Earth, and living 
and working in space. I cannot think of any other civil federal agency 
that matches its record of scientific achievement, nor one with a 
record of fostering new technologies that have helped transform the 
American economy.
    Day-in and day-out, NASA has to rely on the talents of its 
scientists and engineers, and its trained and motivated managers, to 
ensure taxpayers' dollars are wisely spent to meet its goals while also 
ensuring the best use of very limited resources. With 90 percent of the 
agency's budget spent on procuring goods and services, fiscal 
accountability and sound business practices are crucial.
    Thanks to the good work performed by the organizations represented 
at the witness table this morning, I am confident their skills and 
expertise help push NASA to be a better and more capable manager as it 
seeks to launch future missions and engage scientists and engineers in 
research that will be exciting and inspiring.
    Madam Chairwoman, speaking of sound management practices, before 
closing I want to digress slightly by offering a couple of thoughts 
regarding NASA's FY11 budget request. Congress expects and demands that 
the executive branch offer solid justification for their plans and 
programs, but for the life of me I cannot understand how this 
Administration can rationalize its decision to scrap Constellation and 
simply start anew, especially given the strong support it has received 
in Congress. It is naive to assume that a do-over will somehow deliver 
a safer, cheaper system faster than the current path we're on.
    The Ares launcher and Orion crew vehicle have been designed to be a 
very safe and robust system. They have undergone rigorous engineering 
reviews. American taxpayers have invested nine billion dollars--and the 
agency and its contractors have spent five years--working to ensure 
that Constellation will be flexible, affordable, and safe. To simply 
toss this aside and gamble America's human spaceflight program on an 
undefined, untested system is alarming.
    I look forward to taking part in your upcoming hearings examining 
NASA's budget request and the Exploration program.
    Thank you.

    Chairwoman Giffords. And thank you, Mr. Hall, for your 
leadership over so many years and Mr. Olson.
    If there are other members that wish to submit opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our witnesses. First 
up we have Honorable Paul Martin, who was recently confirmed by 
the Senate as Inspector General for NASA. Welcome back, Mr. 
Martin.
    We have Ms. Cristina Chaplain, who is the Director of 
Acquisition and Source Management Team at the Government 
Accountability Office. Thank you, our Nation's watchdog group. 
We are glad you are back as well.
    And finally we have Vice Admiral Joseph Dyer, who is the 
Chair of NASA's Aerospace Safety Advisory Panel, and Admiral, 
thank you for your service to our Nation.
    As our witnesses should know, you will each have five 
minutes for your spoken testimony. Your written testimony will 
be included in the record for the hearing, and when you have 
completed your spoken testimony, we will begin rounds of 
questions, and each member will have five minutes to question 
the panel.
    We would like to start this morning with the Honorable Mr. 
Martin.

 STATEMENT OF HON. PAUL K. MARTIN, INSPECTOR GENERAL, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Martin. Thank you, Madam Chairwoman. Chairwoman 
Giffords, Ranking Member Olson, and members of the 
subcommittee, thank you for inviting the Office of Inspector 
General to testify about the key challenges facing NASA. Based 
on our oversight work we identified five critical issues.
    Number one, transitioning from the Space Shuttle to the 
Next Generation of Space Vehicles. Number two, managing risks 
to people, equipment, and mission. Number three, improving the 
agency's financial management. Number four, addressing systemic 
weaknesses in acquisition and contracting processes, and number 
five, ensuring the security of NASA's information and 
information technology systems.
    Some of these challenges, in particular financial 
management, acquisition and contracting, and IT security, have 
confronted NASA leadership for most of the past decade. Other 
challenges such as transitioning from the Space Shuttle are 
more recent. But none of these challenges are easily solved. 
They are complex, multi-faceted issues that will take 
dedication, determination, and NASA's best efforts to do 
successfully.
    My written statement provides detailed information about 
each of these challenges. In my remarks this morning I will 
focus on two challenges; transitioning from the Space Shuttle 
and NASA's efforts to produce a clean financial statement.
    Perhaps the highest-profile challenge facing NASA at the 
moment is maintaining the critical skills and capabilities 
required to safely fly the five remaining Space Shuttle 
missions until the program's planned retirement in September of 
this year. We have doubts, however, that NASA will be able to 
keep to this ambitious timetable and most likely the last of 
the planned Shuttle flights will take place in the second 
quarter of fiscal year 2011.
    Importantly, any delay in NASA's current timetable has 
ramifications far beyond scheduling, given that the agency 
spends approximately $200 million a month to sustain the 
Shuttle program. Moreover, if the Shuttle's flight schedule is 
extended beyond the five missions currently planned, NASA will 
need to evaluate not only funding issues but also the 
sustainability of the Shuttle's workforce and infrastructure, 
much of which has been in wind-down mode since 2009.
    I will leave it to ASAP Chairman Dyer to address the 
potential safety implications of extending the Shuttle Program 
beyond its currently-scheduled manifest.
    Just this past Monday the President's fiscal year 2011, 
budget set out the Administration's blueprint for NASA and the 
Shuttle Program. Of course, this subcommittee and other 
committees of Congress will weigh in and help shape NASA's 
future direction. However, one thing is clear. NASA will need a 
sustained level of funding to enable it to successfully execute 
whatever plan is ultimately adopted.
    Financial management. For most of the past decade the OIG 
has identified the need to improve financial management as one 
of the agency's top management challenges. In early December, 
2009, when I last testified before this subcommittee, I noted 
that several challenges remain, even though NASA has 
successfully implemented a variety of corrective actions to 
address these longstanding weaknesses. In NASA's fiscal year 
2009 audit the independent accounting firm, Ernst and Young, 
disclaimed an opinion on the agency's financial statements. 
This disclaimer resulted primarily because of continued 
weaknesses in NASA's internal controls over accounting for 
legacy assets, specifically the Space Shuttle and the 
International Space Station.
    As we discussed in detail at the December hearing, E & Y 
identified three significant deficiencies in internal controls, 
one of which was considered a material weakness. Since that 
December hearing staff from the Inspector General's Office and 
E & Y have met with NASA's financial staff to discuss the 
agency's efforts to address these weaknesses, in particular, 
the evaluation of legacy assets.
    While we cannot predict the success of NASA's efforts, I am 
hopeful that by implementing the outstanding recommendations 
and continuing to focus on its monitoring and remediation 
efforts NASA can correct these weaknesses in its financial 
management to the point that E & Y can render an opinion for 
fiscal year 2010. We will continue to work closely with NASA 
managers in an attempt to achieve that goal.
    Finally, the OIG has several reviews ongoing that examine 
other high-profile NASA projects such as the agency's 
development of the James Webb Space Telescope and upgrades to 
the Tracking and Data Relay Satellite System.
    In the months ahead we look forward to working with NASA 
leadership, this subcommittee, and other Congressional 
committees as we seek to help the agency address these and 
other critical challenges. Thank you.
    [The prepared statement of Mr. Martin follows:]
                  Prepared Statement of Paul K. Martin
Chairwoman Giffords, Ranking Member Olson, and Members of the 
Subcommittee:

    Thank you for the opportunity to discuss the key issues and 
challenges facing NASA. As requested, this statement describes the 
Office of Inspector General's (OIG's) observations based on findings 
and recommendations from our recent oversight work, particularly our 
report on ``NASA's Most Serious Management and Performance 
Challenges,'' which we provided to the Administrator and Congress in 
November 2009. Our report, which was included in the Agency's 
Performance and Accountability Report for fiscal year (FY) 2009, is 
available to the public on the OIG's Web site.
    Based on our audit and investigative work, we identified five areas 
that we believe constitute the most serious management and performance 
challenges facing NASA. They are:

        <bullet>  Transitioning from the Space Shuttle to the Next 
        Generation of Space Vehicles

        <bullet>  Managing Risk to People, Equipment, and Mission

        <bullet>  Financial Management

        <bullet>  Acquisition and Contracting Processes

        <bullet>  Information Technology Security

    In determining whether to identify an issue as a ``top management 
and performance challenge,'' we consider its significance in relation 
to NASA's mission; its susceptibility to fraud, waste, and abuse; 
whether the underlying problems are systemic; and the Agency's progress 
in addressing the issue. Some of the challenges, such as financial 
management, acquisition and contracting processes, and information 
technology security, have confronted Agency leadership for most of the 
past decade.
    Through various initiatives, including implementing recommendations 
made by the OIG and other oversight bodies such as the Government 
Accountability Office (GAO) and the Aerospace Safety Advisory Panel 
(ASAP), NASA is working to address these and other challenges and to 
improve Agency operations. For example, NASA has implemented a variety 
of corrective actions over the last several years to address long-
standing weaknesses in its financial management processes and systems, 
reduce vulnerabilities in information technology security, and improve 
acquisition and contracting practices. However, NASA needs to do more 
to address these and other critical challenges.
    The remainder of this statement provides more detail on NASA's five 
major management and performance challenges identified by the OIG.

Transitioning From the Space Shuttle to the Next Generation of Space 
                    Vehicles

    A key challenge for NASA is maintaining the critical skills and 
capabilities required to fly the Space Shuttle safely until its 
retirement while transitioning to the next generation of space 
vehicles. In 2004, the President's Vision for U.S. Space Exploration 
caused a substantive reorganization of NASA's strategic priorities, 
established a timeline for the retirement of the Space Shuttle, 
established the completion date for the International Space Station 
(ISS), and set the human spaceflight goals of returning to the Moon and 
reaching Mars. However, since that time fiscal constraints and 
technical challenges have hampered NASA's efforts to implement the 
Vision effectively.
    NASA continues to fund and plan for completion of the five 
remaining Space Shuttle flights by September 30, 2010. However, we have 
doubts that NASA will be able to keep to this aggressive and ambitious 
flight schedule. Based on calculations by the OIG, historical flight 
rates, the presidentially directed Review of U.S. Human Space Flight 
Plans Committee (the Augustine Committee), and internal NASA 
evaluations, NASA is not likely to meet its September 2010 timetable, 
and it will most likely take until the second quarter of FY 2011 to 
complete the last of the planned Space Shuttle flights. Importantly, 
any delay in this timetable has ramifications far beyond scheduling, 
given that NASA spends approximately $200 million a month to sustain 
the Shuttle Program.
    At the request of Congress and the Administration, NASA has 
developed options for extending Shuttle operations and closing the gap 
between its planned retirement in 2010 and the planned first piloted 
space flight of the Constellation Program's Orion crew exploration 
vehicle in 2015. While technically feasible, each option involves 
additional Shuttle flights and results in a higher cumulative safety 
risk associated with increased exposure to debris and potential vehicle 
failures. Moreover, NASA would need additional funding to avoid 
``borrowing'' from the development of the next generation of space 
vehicles and other NASA programs to pay for more Shuttle missions.
    If the Shuttle's flight schedule is extended beyond the five 
missions currently planned, NASA will need to reevaluate not only 
funding issues, but also the sustainability of the Shuttle's workforce 
and infrastructure, much of which has been in wind-down mode since 
2009. In 2003, the Columbia Accident Investigation Board recommended 
that NASA complete a recertification at the material, component, 
system, and subsystem levels before operating the Shuttle beyond 2010. 
In its recently released annual report, the ASAP stated that it does 
not support extending the Shuttle Program significantly beyond its 
current manifest. I will leave to ASAP Chairman Joseph Dyer any 
additional comments he cares to offer on the potential safety 
implications of extending the Shuttle Program beyond its currently 
scheduled manifest.
    The President's FY 2011 budget, released on Monday, set out the 
Administration's blueprint for NASA's future. Of course, this 
Subcommittee and other Committees of Congress will weigh in and help 
shape NASA's future direction. Amid much uncertainty, one thing is 
clear: NASA will need a sustained level of funding to enable successful 
execution of whatever future plan is ultimately adopted.

Managing Risk to People, Equipment, and Mission

    NASA program and project managers face a variety of challenges 
associated with risks introduced by fiscal constraints, schedule 
demands, and changing priorities. To meet these challenges, NASA 
program and project managers must adhere to the fundamentals of program 
and project management, fully implement acquisition strategies that 
share risks and rewards with contractors, and effectively use earned 
value management systems to help Agency managers identify and mitigate 
risks.
    In the past year, the OIG dedicated considerable resources to 
reviewing the Agency's risk management efforts at program and project 
levels. For example, we identified opportunities to improve the risk 
management processes in the Landsat Program and Orion Project. 
Specifically, we found that the Landsat Data Continuity Mission was 
facing a cost increase and possible launch schedule delays because 
baseline requirements were not finalized prior to contract award. In 
reviewing the Orion Project, we found that the Project Office conducted 
a premature life-cycle review. Instead of delaying the life-cycle 
review until the revised vehicle configuration was developed, the Orion 
Project Office proceeded with the review of a vehicle configuration 
that was under revision.
    Technical issues continue to add risk to NASA projects and 
challenge mission success. For example:

        <bullet>  The Stratospheric Observatory for Infrared Astronomy 
        (SOFIA) Program recently resolved technological challenges with 
        the aircraft's movable door that covers the opening to the 
        telescope, challenges that had caused delays in flight testing.

        <bullet>  The Mars Science Lab suffered a major setback due to 
        technical challenges that resulted in a missed launch 
        opportunity in 2009, a $400 million cost increase, and a 2-year 
        schedule delay.

        <bullet>  The Orbiting Carbon Observatory, a satellite 
        important to monitoring and understanding the Earth's changing 
        climate, suffered an undetermined technical failure on launch, 
        resulting in the loss of the $209 million satellite and leaving 
        a gap in NASA's ability to measure carbon dioxide in the 
        atmosphere and its role in global warming.

Financial Management

    For most of the past decade, the OIG has identified the need to 
improve financial management at NASA as one of the Agency's most 
serious management and performance challenges. In early December 2009, 
when I testified on this issue before this Subcommittee, I noted that 
while NASA has successfully implemented a variety of corrective actions 
over the years to address long-standing weaknesses, several challenges 
remain.
    For example, in its most recent report the independent public 
accounting firm Ernst & Young (E&Y) disclaimed an opinion on NASA's 
financial statements for FY 2009, noting that it was unable to obtain 
sufficient evidentiary support for the amounts presented in the 
Agency's financial statements. This disclaimer resulted primarily 
because of continued weaknesses in NASA's internal controls over 
accounting for legacy assets--specifically, the Space Shuttle and 
International Space Station.
    As we discussed in detail at the December hearing, E&Y identified 
three significant deficiencies in internal controls with one considered 
a material weakness. Specifically, E&Y reported a material weakness in 
NASA's controls for assuring that the financial statements fairly state 
the value of legacy property, plant, and equipment (PP&E) and 
materials. E&Y's identification of internal controls over legacy assets 
as a material weakness means there was a reasonable possibility that 
the controls were not sufficient to prevent a material misstatement in 
the financial statements. The other two internal control deficiencies 
cited by E&Y involved NASA's processes for estimating environmental 
liabilities and its compliance with the Federal Financial Management 
Improvement Act of 1996.
    E&Y's report contained specific recommendations intended to assist 
NASA in remediating these weaknesses during FY 2010, to include 
implementing guidance allowing the use of estimates in establishing the 
value of legacy assets. Since the December hearing, OIG and E&Y staff 
have met with staff in NASA's Office of the Chief Financial Officer to 
discuss the Agency's efforts to address identified weaknesses in 
internal controls.
    While we cannot predict the success of NASA's efforts, I am hopeful 
that through effective implementation of E&Y's most recent 
recommendations and a continued focus on its ongoing monitoring and 
remediation efforts, the Agency can correct existing weaknesses in 
financial management during FY 2010 to the point that E&Y can render an 
opinion. We will continue to work closely with NASA managers throughout 
the fiscal year in an attempt to achieve that goal.

Acquisition and Contracting Processes

    Systemic weaknesses in NASA's acquisition and contracting processes 
represent another long-standing management challenge for the Agency. In 
our November report addressing NASA's key challenges, we specifically 
note acquisition and contracting challenges in relation to cost 
estimating, acquisition processes, contract management, and ethical 
standards.
    In recent reviews of several NASA programs, the OIG found that NASA 
still lacks the disciplined cost-estimating processes and financial and 
performance management systems needed to effectively establish 
priorities, quantify risks, and manage program costs. For example, in 
our review of the SOFIA Program, which is now 10 years behind schedule 
with costs more than 200 percent over initial estimates, we found that 
the program had not developed an independent cost estimate or 
implemented an earned value management plan to monitor and control 
program costs. Given that NASA programs and projects have historically 
experienced cost overruns, improvements in cost estimating using 
detailed, empirical data to explain program decisions could help 
minimize the risk of cost overruns.
    GAO--which has done a lot of oversight work in this area--first 
identified NASA's contract management as a high-risk area in 1990, 
citing NASA's undisciplined cost-estimating processes, a lack of 
information needed to assess contract progress, and persistent cost 
growth and schedule slippage in many of its major projects. In its most 
recent high-risk update, GAO reported improvements in NASA's processes, 
including its plan for addressing systemic weaknesses. I will leave it 
to Cristina Chaplain from GAO to provide further details on their work.
    During 2009, the OIG also noted NASA's plan for addressing systemic 
weaknesses and improving its acquisition and contract management 
processes. However, our audits and investigations continue to identify 
weaknesses such as those we found in contracts under NASA's Small 
Business Innovation Research (SBIR) Program that bring into question 
the effectiveness of the program's internal controls.
    Given that NASA spends approximately 90 percent of its $19 billion 
budget on contracts and grants, it is imperative that NASA employees 
comply with applicable ethics laws and regulations. The scope of this 
ongoing challenge is underscored by the large amount of interaction 
between NASA employees and individuals in the private sector, both in 
industry and academia.
    As an illustration of the challenge, NASA directives require that 
Standing Review Board (SRB) members be independent to ensure that the 
boards can provide an impartial opinion of a project's potential 
success. Our 2009 review of membership for all Constellation Program 
SRBs found that 21 of the 66 non-Federal board members were employees 
or consultants of a NASA contractor with an interest in or contract 
with either the Constellation Program or one of its constituent 
projects.
    Our review concluded that NASA's procedures for determining the 
independence of SRB members were inadequate. Specifically, NASA did not 
organize the SRBs in accordance with the Federal Advisory Committee Act 
(FACA) requirements even though they met the definition of a FACA 
committee. As a result, NASA did not use the more stringent ethics 
review process associated with the establishment of FACA committees. 
Instead, NASA used a process that was lacking in both rigor and 
accuracy for determining the independence of SRB members. During our 
review, NASA suspended the activities of its Constellation Program SRBs 
while it addressed the FACA and conflict of interest compliance issues 
we disclosed.
    Given the large amount of money at stake in NASA projects, the 
OIG's Office of Investigations has made procurement fraud and ethics a 
high priority. Within the past year, several OIG investigations led to 
criminal indictments and convictions. For example:

        <bullet>  A former NASA Chief of Staff was convicted on 
        conflict of interest and false statement charges stemming from 
        his steering of earmarked funds to a client of his private 
        consulting company.

        <bullet>  A NASA SBIR contractor submitted false financial 
        reports and improperly claimed family members on the company 
        payroll.

        <bullet>  An individual working on Intergovernmental Personnel 
        Act agreements pled guilty to conspiracy to defraud and tax 
        evasion for payments he received from NASA and other Federal 
        agencies.

        <bullet>  A senior NASA scientist steered contracts to a 
        company operated by his spouse.

    These cases illustrate the types of criminal offenses the OIG 
pursues to help guard against waste, fraud, abuse, and misconduct. 
Moving forward, the OIG will continue to work with NASA ethics 
officials and the Agency's Acquisition Integrity Program to address 
these issues proactively through comprehensive training while at the 
same time conducting vigorous investigations and enforcement.

Information Technology Security

    NASA continues to face significant challenges in developing, 
documenting, and implementing an Agency-wide program to secure its 
information and information technology (IT) systems. Recent breaches of 
NASA computer systems have resulted in the theft of sensitive data 
related to Agency programs, which adversely affected NASA's mission and 
resulted in millions of dollars in losses. Over the last several years, 
NASA implemented a series of technical solutions that have 
incrementally improved the Agency's overarching IT infrastructure and 
management practices. However, IT security remains a key management 
challenge.
    During FYs 2008 and 2009, the Agency reported making progress on 
two key management initiatives related to IT security. First, NASA 
implemented the Cyber Threat Analysis Program to proactively detect and 
handle intrusions into NASA's cyber assets. The program includes threat 
analysis, identification, and reporting as well as advanced data 
forensics. Second, NASA initiated the Security Operations Center (SOC) 
project to consolidate Agency security operations and incident response 
capabilities. The SOC, scheduled to be fully operational in late FY 
2010, will provide the Agency with the capability to perform real-time 
monitoring of its computer networks and systems.
    Similarly, NASA has shown progress in improving IT security as 
judged by our annual Federal Information Security Management Act 
(FISMA) audits. For example, in our FY 2009 FISMA audit we found that 
89 percent of the 29 NASA IT systems we reviewed were certified and 
accredited as required. However, only 50 percent of the systems met 
FISMA requirements for annual contingency plan testing and only 25 
percent had their security controls tested within the last year as 
required.
    NASA is a prime target for sophisticated cyber attacks as new 
phishing techniques and malware programs become more advanced and 
destructive. In a recent incident, for example, intruders were able to 
steal large amounts of NASA research data, including information 
protected under the International Traffic in Arms Regulations. The 
foreign-based intruders initially compromised a single user's account 
but gained access to a great deal of data across a number of NASA 
programs because of poorly implemented access controls. This incident 
remains under investigation by our Computer Crimes Division, a group of 
highly skilled special agents and forensic technicians with advanced 
training in cybercrime investigations.
    Our cybercrime investigations have resulted in criminal convictions 
or disruptions in the operations of internationally based cyber-
intruders who are highly adaptive in avoiding detection. For example, a 
group of Romanian hackers, the so-called ``White Hat Gang,'' penetrated 
and damaged a number of NASA systems integral to the Global Earth 
Observation System. Our agents and technicians eventually tracked one 
perpetrator to Arad, Romania, where local officials held him 
accountable in the Romanian Judicial System. Similarly, we have had 
investigative success against cyber-criminals from Nigeria, Portugal, 
Slovenia, Italy, Venezuela, and Sweden.
    Finally, recommendations from our cybercrime investigations have 
also identified opportunities to enhance NASA's incident response 
training, internal coordination, and centralized command and control, 
leading to systemic improvements in NASA IT security. Significantly, 
NASA's decision to establish a Security Operations Center for 
centralized management of intrusion detection, response, reporting, and 
damage assessment was partially based on OIG recommendations supported 
by over 4 years of investigative and audit analyses.

Conclusion

    We have a number of ongoing or planned reviews that address the key 
challenges facing NASA. For example, we are assessing critical 
components of NASA's efforts to transition from the Space Shuttle to 
the next generation of space vehicles. Specific areas of focus include 
NASA's plans for completing the remaining Shuttle flights, disposing of 
Shuttle Program equipment, and estimating costs for transition and 
retirement activities.
    In addition, we are nearing the completion of fieldwork for our 
reviews of the James Webb Space Telescope and the Tracking and Data 
Relay Satellite System. We are also conducting a review of NASA's 
acquisition strategy for obtaining launch services when the current 
contract expires in June 2010.
    We continue to work with NASA to improve its financial management 
through both the annual audit of the Agency's financial statements and 
our monitoring NASA's use of the $1 billion received under the American 
Recovery and Reinvestment Act of 2009.
    In the area of acquisition and contracting, our investigative work 
continues to identify fraud, waste, and abuse by participants in NASA's 
SBIR Program. Consequently, we opened a comprehensive audit of NASA's 
management of the SBIR Program that will examine the sufficiency and 
implementation of the Program's internal controls.
    Finally, we are continuing to assess NASA's IT security and the 
Agency's efforts to ensure the availability, confidentiality, and 
integrity of mission and mission support networks and systems.
    We look forward to continuing our work with NASA leadership, this 
Subcommittee, and other congressional Committees as we seek to help the 
Agency address its top management and performance challenges.

    Chairwoman Giffords. Thank you, Mr. Martin.
    Ms. Chaplain, please.

 STATEMENT OF MS. CRISTINA T. CHAPLAIN, DIRECTOR, ACQUISITION 
   AND SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Chaplain. Madam Chairwoman, members of the 
subcommittee, thank you for inviting me to discuss NASA's major 
management challenges. Our work in recent years has identified 
several specific challenges. They are very similar to the IG's. 
They include retiring the Space Shuttle, completing and 
sustaining the International Space Station, acquiring highly-
complex, unique systems for exploration, science, and 
aeronautics research, improving financial management, and 
protecting critical data in IT systems.
    Each one of these activities is integral to the success of 
the agency, yet difficult to achieve given a variety of 
factors. For instance, inherent technical and engineering 
complexities and challenges to developing systems create 
challenges to developing systems, as well as recruiting the 
right workforce. Complications associated with launching 
spacecraft can also make missing schedule deadlines much more 
costly than non-space systems.
    The broad changes to NASA's direction proposed in the 
President's budget this week do not change the basic challenges 
facing NASA. The agency will still be acquiring complex, unique 
systems that demand highly-specialized skills, high-performing 
contractors and partners, and highly-effective management and 
oversight.
    But for nearly 2 decades GAO has identified significant 
weaknesses in acquisition management practices at NASA. 
Specifically, projects are allowed to move forward into full-
scale acquisition programs when they still have considerable 
unknowns about technology and design. In turn, technology and 
design problems invariably arise and are much more costly to 
fix than they would have been in a more forgiving environment 
earlier in the acquisition process.
    Another issue, contractors and international partners are 
not always able to execute as intended. Optimistic estimating 
allows too many programs to compete for too few dollars. 
Funding instability disrupts high-performing programs and 
causes delays that may end up being much more costly in the 
long run. Requirements might not always be stable. And lastly, 
sound contract management practices such as limiting the use of 
undefinitized contracts are not always followed.
    A review of NASA's projects issued this week confirm that 
these problems still persist. Nine of 19 projects we reviewed 
experience significant costs and schedule growth, some within 
just a year or two. Only one ongoing project in the 
implementation phase did not have significant cost and schedule 
growth. The remaining projects were either in the formulation 
phase where no baselines are set or just very recently had 
baselines set.
    There was a 1.2 billion total cost increase in just two 
years with the projects that had baselines. This number does 
not include the Constellation Program, as it does not have a 
baseline yet, or the James Webb telescope, which just 
established a measurable baseline fiscal year 2009. It also 
does not include cost growth that may have occurred before the 
baselines were set.
    The President's budget also proposes heavier reliance on 
commercial suppliers for human spaceflight missions. Again, the 
need for effective management and oversight practices will be 
just as necessary here as they were for the Constellation 
Program. In the past space programs claiming to be following 
commercial approaches did not succeed because they lacked sound 
insight and oversight on the government's part. In fact, key 
government technical expertise was let go once such programs 
were in vogue, and that was a trend that both DOD and NASA have 
deeply regretted.
    Moreover, while we found in prior reports that the cost 
providers were making progress in meeting their milestones and 
that the program was well managed, we also noted that the most 
very difficult phases of development lay ahead.
    Lastly, in moving forward with the new budget it is 
critical that NASA maintain transparency and accountability for 
its spending. Requirements for baselining and authorizing major 
programs have helped considerably to shed light on problems and 
the help of the acquisition portfolio, but little is known 
about programs before they reach implementation, which can 
sometimes take years, and there has not always been clarity on 
costs involved with the challenges we identify in our 
testimony.
    We recognize that NASA is taking an array of actions to 
reduce acquisition risks and respond to recommendations. For 
example, it is revamping cost estimating and providing more 
oversight at the headquarters' level. We are hopeful that these 
and other efforts will meet the challenges we discussed, but 
for this to happen senior leaders need to sustain their 
attention to instituting discipline processes and remove 
incentives that drive poor decision making. This will be 
difficult to do but yet integral for the future success of 
NASA.
    Thank you.
    [The prepared statement of Ms. Chaplain follows:]
               Prepared Statement of Cristina T. Chaplain
Madam Chairwoman and Members of the Subcommittee:

    Thank you for inviting me to discuss the challenges facing the 
National Aeronautics and Space Administration (NASA). NASA is in the 
midst of many changes and one of the most challenging periods in its 
history: the space shuttle is slated to retire this year after flying 
for 29 years; the International Space Station draws closer both to its 
completion but remains underutilized; and the future vehicles for human 
space flight are experiencing problems in development and have been 
hotly debated and recently reviewed by an independent commission.
    The Administration in its 2011 budget is proposing to cancel the 
Constellation Systems program and replace it with a new approach that 
uses the commercial space industry and international partnerships to 
develop new technologies for space exploration. Amid all this potential 
change, one thing that will most likely remain constant is NASA's need 
to manage programs and projects within a fiscally constrained 
environment. This will require hard choices among competing priorities 
within the organization, which must balance its core missions in 
science, aeronautics, and human space flight and exploration. In 
addition, NASA will be competing for an ever-shrinking share of 
discretionary spending against other national priorities such as the 
economy, fighting terrorism, and health care reform.
    Over the years NASA has had significant achievements exploring 
space, helping us understand Earth's environment, and conducting 
fundamental research in the aeronautical disciplines. Unfortunately, it 
has not achieved the same level of results on its business side. For 20 
years, NASA acquisition management has been on GAO's list of federal 
programs and operations at high risk and vulnerable to fraud, waste, 
abuse, and mismanagement. To its credit, NASA has made a concerted 
effort to improve its acquisition management and continues to work 
constructively with GAO to address systemic weaknesses in program/
project management, contractor performance, business processes, 
financial management, and information technology.
    The broad changes proposed for NASA do not change the basic 
challenges facing the agency. Against this backdrop, my testimony today 
focuses on four management and program challenges: (1) retiring of the 
space shuttle, (2) utilizing and sustaining the International Space 
Station, (3) continuing difficulty developing large-scale systems, and 
(4) continuing weaknesses in financial management and information 
technology systems.In preparing this statement, we relied on completed 
and ongoing work. All of the work used in preparing this statement was 
performed in accordance with generally accepted government auditing 
standards. Those standards require that we plan and perform the audit 
to obtain sufficient, appropriate evidence to provide a reasonable 
basis for our findings and conclusions based on our audit objectives. 
We believe that the evidence obtained provides a reasonable basis for 
our findings and conclusions based on our audit objectives. We have 
made a number of recommendations to address some of the challenges we 
identified.

NASA Challenges

Retiring of the Space Shuttle

    This year the space shuttle is scheduled to fly its final six 
missions to deliver hardware, supplies, and an international scientific 
laboratory to the International Space Station. NASA officials remain 
confident that the current flight manifest can be accomplished within 
the given time, and add that should delays occur, the International 
Space Station can still function. According to NASA, there are trade-
offs the agency can make in what it can take up to support and sustain 
the station. However, failure to complete assembly as currently planned 
would further reduce the station's ability to fulfill its research 
objectives and deprive the station of critical spare parts that only 
the shuttle can deliver. The recent review completed by the U.S. Human 
Space Flight Plans Committee included the option of flying the space 
shuttle through 2011 in order to complete the International Space 
Station. However, the Committee noted that there are currently no funds 
in NASA's budget for additional shuttle flights. Most recently, the 
Administration is proposing over $600 million in the fiscal year 2011 
budget to, ensure that the space shuttle can fly its final missions, in 
case the space shuttle's schedule slips into fiscal year 2011.
    Retirement of the shuttle will involve many activities that warrant 
special attention. These include: disposing of the facilities that no 
longer are needed while complying with federal, state, and local 
environmental laws and regulations; ensuring the retention of critical 
shills within NASA's workforce and its suppliers; and disposing of over 
1 million equipment items. In addition, the total cost of shuttle 
retirement and transition to include the disposition of the orbiters 
themselves-is not readily transparent in NASA's budget. We have 
recommended that NASA clearly identify all direct and indirect shuttle 
transition and retirement costs, including any potential sale proceeds 
of excess inventory and environmental remediation costs in its future 
budget requests. NASA provided this information to the House and Senate 
Appropriations committees hi July 2009 but did not identify all 
indirect shuttle transition and retirement costs in its fiscal year 
2010 budget request. We look forward to examining the fiscal year 2011 
budget request to determine whether this information is identified.
    Lastly, NASA has recognized that sustaining the shuttle workforce 
through the retirement of the shuttle while ensuring that a viable 
workforce is available to support future activities is a major 
challenge. We commend NASA for its efforts to understand and mitigate 
the effect of the space shuttle's retirement on the civil service and 
contractor workforce. Nevertheless, how well NASA executes its 
workforce management plans as they retire the space shuttle will affect 
the agency's ability to maintain the skilled workforce to support space 
exploration.

Utilizing and Sustaining the International Space

    Although it is nearing completion, the International Space Station 
faces several significant challenges that may impede efforts to 
maximize utilization of research facilities available onboard. These 
include: the retirement of the Space Shuttle in 2010 and the loss of 
its unmatched capacity to move cargo and astronauts to and from the 
station; the uncertain future for the station beyond 2015; and the 
limited time available for research due to competing demands for the 
crew's time.
    We have previously reported that the International Space Station 
will face a significant cargo supply shortfall without the Space 
Shuttle's great capacity to deliver cargo to the station and return it 
to earth.\1\ NASA plans on using a mixed fleet of vehicles, including 
those developed by international partners, to service the space station 
on an interim basis. However, international partners' vehicles alone 
cannot fully satisfy the space station's cargo resupply needs. Without 
a domestic cargo resupply capability to augment this mixed fleet 
approach, NASA faces a 40 metric ton (approximately 88,000 pounds) 
cargo resupply shortfall between 2010 and 2015. While NASA is 
sponsoring commercial efforts to develop vehicles capable of carrying 
cargo to the station and the administration has endorsed this approach, 
none of those currently in development has been launched into orbit, 
and the vehicles' aggressive development schedules leave little room 
for the unexpected.
---------------------------------------------------------------------------
    \1\ GAO, NASA: Commercial Partners Are Making Progress, but Face 
Aggressive Schedules to Demonstrate Critical Space Station. Cargo 
Transport Capabilities, GAO-09-618 (Washington, D.C.: June 16, 2009).
---------------------------------------------------------------------------
    Furthermore, upon completion of construction, unless the decision 
is made to extend station operations, NASA has only 5 years to execute 
a robust research program before the International Space Station is 
deorbited. The leaves little time to establish a strong utilization 
program. At present, NASA projects that its share of the International 
Space Station research facilities will be less than fully utilized by 
planned NASA research. Specifically, NASA plans to utilize only 48 
percent of the racks that accommodate scientific research facilities 
onboard, with the remainder available for use by others.\2\ Congress 
has directed NASA to take all necessary steps to ensure that the 
International Space Station remains a viable and productive facility 
capable of potential utilization through at least 2020.\3\ The 
Administration is proposing in its fiscal year 2011 budget to extend 
operations of the International Space Station to 2020 or beyond in 
concert with its international partners.
---------------------------------------------------------------------------
    \2\ Scientific research facilities currently available inside the 
space station are generally mounted in modular, refrigerator-sized 
mounts called racks or ExPRESS racks, which provide the utilities 
necessary for conducting research.
    \3\ National Aeronautics and Space Administration Authorization Act 
of 2008, Pub. L. No. 110-422 Sec. 601.
---------------------------------------------------------------------------
    Lastly, NASA faces a significant constraint for science on board 
the space station because of limited crew time. There can only be six 
crew members aboard the station at one time due to the number of spaces 
available in the ``lifeboats,'' or docked spacecraft that can transport 
the crew in case of an emergency. As such, crew time cannot presently 
be increased to meet increased demand. Though available crew time may 
increase as the six-person crew becomes more experienced with operating 
the space station efficiently or if the crew volunteers its free time 
for research, crew time for U.S. research remains a limiting factor. 
According to NASA officials, potential National Laboratory researchers 
should design their experiments to be as automated as possible or 
minimize crew involvement required for their experiments to ensure that 
they are accepted for flight.
    We have recommended that NASA implement actions, such as developing 
a plan to broaden and enhance ongoing outreach to potential users and 
creating a centralized body to oversee U.S. space station research 
decision making, including the selection of all U.S. research to be 
conducted on board and ensuring that all U.S. International Space 
Station National Laboratory research is meritorious and valid. NASA 
concurred with our recommendation and is researching the possibility of 
developing a management body to manage space station research, which 
would make the International Space Station National Laboratory similar 
to other national laboratories.

Continuing Difficulty Developing Large-Scale Systems

    NASA projects have produced ground-breaking research and advanced 
our understanding of the universe. However, one common theme binds most 
of the projects--they cost more and take longer to develop than 
planned. As we reported in our recently completed assessment of NASA's 
19 most costly projects--which have a combined life-cycle cost that 
exceeds $66 billion--the agency's projects continue to experience cost 
growth and schedule delays.\4\ Ten of the 19 projects, which had their 
baselines set within the last 3 years, experienced cost growth 
averaging $121.1 million or 18.7 percent and the average schedule 
growth was 15 months.\5\ For example, the Glory project has recently 
breached its revised schedule baseline by 16 months and exceeded its 
development cost baseline by over 14 percent--for a total development 
cost growth of over 75 percent in just 2 years.\6\ Project officials 
also indicated that recent technical problems could cause additional 
cost growth. Similarly, the Mars Science Laboratory project is 
currently seeking reauthorization from Congress after experiencing 
development cost growth in excess of 30 percent. Many of the other 
projects we reviewed experienced challenges, including developing new 
or retrofitting older technologies, stabilizing engineering designs, 
and managing the performance of contractors and development partners.
---------------------------------------------------------------------------
    \4\ GAO, NASA: Assessments of Selected Large-Scale Projects, GAO-
10-22-7SP (Washington, D.C.: Feb. 1, 2010.)
    \5\ Of the 19 projects included in our review, 4 are still in the 
formulation phase, including Ares I and Orion, where cost and schedule 
baselines have yet to be established. Five of the projects just entered 
the implementation phase in fiscal year 2009 and therefore have not 
experienced cost and schedule growth.
    \6\ If development cost of a program will exceed the baseline 
estimate by more than 30 percent, then NASA is required to seek 
reauthorization from Congress in order to continue the program. If the 
program is reauthorized, NASA is required to establish new cost and 
schedule baselines. 42 U.S.C. Sec. 16613(e).
---------------------------------------------------------------------------
    Our work has consistently shown that reducing these kinds of 
problems in acquisition programs hinges on developing a sound business 
case for each project. Such a business case provides for early 
recognition of challenges, allows managers to take corrective action, 
and places needed and justifiable projects in a better position to 
succeed. Product development efforts that have not followed a 
knowledge-based business case approach have frequently suffered poor 
cost, schedule, and performance outcomes. A sound business case 
includes development of firm requirements, mature technologies, a 
preliminary design, a realistic cost estimate, and sound estimates of 
available funding and time needed before the projects proceed beyond 
preliminary design review. If necessary, the project should be delayed 
until a sound business case, demonstrating the project's readiness to 
move forward into product development, is in hand.
    In particular, two of NASA's largest projects--Ares I and Orion, 
which are part of NASA's Constellation program to return to the moon--
face considerable technical, design, and production challenges. NASA is 
actively addressing these challenges. Both projects, however, still 
face considerable hurdles to meeting overarching safety and performance 
requirements, including limiting vibration during launch, mitigating 
the risk of hitting the launch tower during liftoff, and reducing the 
mass of the Orion vehicle. In addition, we found that the Constellation 
program, from the onset, has faced a mismatch between funding and 
program needs. This finding was reinforced by the Review of U.S. Human 
Spaceflight Plans Committee, which reported that NASA's plans for the 
Constellation program to return to the moon by 2020 are unexecutable 
without increases to NASA's current budget.
    To its credit, NASA has acknowledged that the Constellation 
program, for example, faces knowledge gaps concerning requirements, 
technologies, funding, schedule, and other resources. NASA stated that 
it is working to close these gaps and at the preliminary design review 
the program will be required to demonstrate that the program and its 
projects meet all system requirements with acceptable risk and within 
cost and schedule constraints, and that the program has established a 
sound business case for proceeding into the implementation phase. Even 
though NASA has made progress in developing the actual vehicles, the 
mismatch between resources and requirements remains and the 
administration's proposed fiscal year 2011 budget leaves the future of 
the program in question.

Continuing Weakness in Financial Management and Information Technology 
                    Systems

    NASA has continually struggled to put its financial house in order. 
GAO and others have reported for years on these efforts.\7\ In fact, 
GAO has made a number of recommendations to address NASA's financial 
management challenges. Moreover, the NASA Inspector General has 
identified financial management as one of NASA's most serious 
challenges. In a November 2008 report, the Inspector General found 
continuing weaknesses in NASA's financial management process and 
systems, including internal controls over property accounting. It noted 
that these deficiencies have resulted in disclaimed audits of NASA's 
financial statements since fiscal year 2003. The disclaimers were 
largely attributed to data integrity issues and poor internal controls. 
NASA has made progress in addressing some of these issues, but the 
recent disclaimer on the fiscal year 2009 audit shows that more work 
needs to be done.
---------------------------------------------------------------------------
    \7\ GAO, Property Management: NASA's Goal of Increasing Equipment 
Reutilization May Fall Short without Further Efforts, GAO-09-187 
(Washington, D.C.: Jan. 30, 2009); GAO; Business Modernization: NASA 
Must Consider Agencywide Needs to Reap the Full Benefits of Its 
Enterprise Management System Modernization Effort, GAO-07-691 
(Washington, D.C.: July 20, 2007); and GAO, Financial Management 
Systems: Additional Efforts Needed to Address Key Causes of 
Modernization Failures, GAO-06-184 (Washington, D.C.: Mar. 15, 2006).
---------------------------------------------------------------------------
    We have also reported that NASA remains vulnerable to disruptions 
in its information technology network.\8\ Information security is a 
critical consideration for any organization reliant on information 
technology and especially important for NASA, which depends on a number 
of key computer systems and communication networks to conduct its work. 
These networks traverse the Earth and beyond, providing critical two-
way communication links between Earth and spacecraft; connections 
between NASA centers and partners, scientists, and the public; and 
administrative applications and functions. NASA has made important 
progress in implementing security controls and aspects of its 
information security program. However, NASA has not always implemented 
sufficient controls to protect the confidentiality, integrity, and 
availability of the information and systems supporting its mission 
directorates. Specifically, NASA did not consistently implement 
effective controls to prevent, limit, and detect unauthorized access to 
its networks and systems. A key reason for these weaknesses is that 
NASA has not yet fully implemented key activities of its information 
security program to ensure that controls are appropriately designed and 
operating effectively.
---------------------------------------------------------------------------
    \8\ GAO, Information Security: NASA Needs to Remedy Vulnerabilities 
in Key Networks, GAO-10-4 (Washington, D.C.: Oct. 15, 2009.)
---------------------------------------------------------------------------
    During fiscal years 2007 and 2008, NASA reported 1,120 security 
incidents that resulted in the installation of malicious software on 
its systems and unauthorized access to sensitive information. NASA 
established a Security Operations Center in 2008 to enhance prevention 
and provide early detection of security incidents and coordinate 
agency-level information related to its security posture. Nevertheless, 
the control vulnerabilities and program shortfalls--which GAO 
identified--collectively increase the risk of unauthorized access to 
NASA's sensitive information, as well as inadvertent or deliberate 
disruption of its system operations and services. They make it possible 
for intruders, as well as government and contractor employees, to 
bypass or disable computer access controls and undertake a wide variety 
of inappropriate or malicious acts. As a result, increased and 
unnecessary risk exists that sensitive information is subject to 
unauthorized disclosure, modification, and destruction and that mission 
operations could be disrupted.
    GAO has recommended actions the NASA Administrator should take to 
mitigate control vulnerabilities and fully implement a comprehensive 
information security program including: developing and implementing 
comprehensive and physical risk assessments; conducting sufficient or 
comprehensive security testing and evaluation of all relevant security 
controls; and implementing an adequate incident detection program. In 
response to our report, the Deputy Administrator noted that NASA is 
implementing many of our recommendations as part of an ongoing NASA 
strategic effort to improve information technology management and 
information technology security program deficiencies. The Deputy 
Administrator also stated that NASA will continue to mitigate the 
information security weaknesses identified in our report. The actions 
identified by the Deputy Administrator, if effectively implemented, 
will improve the agency's information security program.

Concluding Observations

    In executing NASA's space exploration, scientific discovery, and 
aeronautics research missions, NASA must use its resources as 
effectively and efficiently as possible because of the severity of the 
fiscal challenges our nation faces and the wide range of competing 
national priorities. Establishing a sound business case before a 
project starts should also better position NASA management to deliver 
promised capability for the funding it receives. While space 
development programs are complex and difficult by nature, and most are 
one-time efforts, the nature of its work should not preclude NASA from 
being accountable for achieving what it promises when requesting and 
receiving funds. Congress will also need to do its part to ensure that 
NASA has the support to hold poorly performing programs accountable in 
order to provide an environment where the systems portfolio as a whole 
can succeed with the resources NASA is given. NASA shows a willingness 
to face these challenges. We look forward to continuing work with NASA 
to develop tools to enhance the management of acquisitions and agency 
operations to optimize its investment in space and aeronautics 
missions.
    Madam Chairwoman, and Members of the Subcommittee, this concludes 
my prepared statement. I would be happy to answer any questions you may 
have at this time.

    Chairwoman Giffords. Thank you, Ms. Chaplain.
    Admiral Dyer. Admiral Dyer, before you start, yeah, the 
microphone, please.

STATEMENT OF VICE ADMIRAL JOSEPH W. DYER (U.S. NAVY, RETIRED), 
 CHAIR, AEROSPACE SAFETY ADVISORY PANEL, NATIONAL AERONAUTICS 
                    AND SPACE ADMINISTRATION

    Admiral Dyer. Thank you. Thank you for the opportunity to 
discuss the Aerospace Safety Advisory Panel's 2009 activities 
and annual report.
    Let me begin by quoting from the report's conclusion. ``The 
panel continues to believe, as it did in 2008, that NASA faces 
unprecedented challenges, perhaps greater than any time in the 
agency's history. Important decisions on the future of human 
spaceflight face NASA as well as the White House, the Congress, 
and the Nation. Commercial entities and international partners 
will likely have a larger role in transporting both cargo and 
crew to orbit. It is critical that NASA focus on establishing 
the criteria requirements and the certification process for 
orbital transportation vehicles, as well as a process for 
validating compliance. The performance and safety requirements 
must be stated promptly and clearly to enable NASA and non-NASA 
entities to proceed in the most productive and effective 
manner.
    The Ares I vehicle has been designed from the beginning 
with a clear emphasis on safety. Before any changes made to 
architecture, the inherent safety of a selected approach should 
be assessed to ensure it offers a level of safety equal to or 
greater than the program of record. We recognize that the 
Shuttle is risky by inherent design and is becoming more so 
because of aging and wear. Extension of the Shuttle's use 
significantly beyond what is planned through the current 
manifest is not recommended.
    Space exploration is a dangerous enterprise. The risks must 
be shouldered by NASA, the Congress, and the Administration, 
and those risks must be communicated clearly to the public. The 
panel hopes that our summary of critical safety-related issues 
will help focus attention on the important decisions and the 
direction of the agency.''
    The 2009, report has been widely read, strongly commended, 
and energetically criticized. With those well-rounded metrics 
we believe we have fulfilled our statutory purpose which is to 
infuse safety considerations into an informed debate.
    The panel spent a good amount of ink on two specific 
issues; human rating requirements or HRR for follow-on vehicles 
and the Shuttle extension.
    Regarding human rating requirements, in our report the 
panel recommends NASA stipulate directly the applicable HRR 
standards and the level of acceptable risk for potential 
commercial contractors. Not only should the standards be 
provided but the certification mechanism and required 
validation data should be made clear as well.
    Regarding the Shuttle extension, the panel does not support 
extending the Shuttle significantly beyond its current 
manifest. We are especially concerned over any kind of serial 
extension where a few flights at a time might be added.
    The report goes on to add other issues and opportunities. 
Those include the use of robots to both supplement astronauts 
and to replace them in some undertakings, as well as facilities 
and aging infrastructure, a growing and under-funded issue. If 
one steps back and observes with a wide lens the 2009 ASAP 
report is about three things. First, about the Space Shuttle, 
second about safely meeting our Nation's goals and objectives 
for space transportation, and third, the knowledge needed to 
safely transport human beings into space.
    Let me address those one at a time. With the Shuttle, we 
believe that every responsible American has some concerns about 
the safety of the Shuttle. The Shuttle has flown 129 flights. 
There have been two catastrophic accidents and 14 lives lost. 
The Shuttle's history, age, and eroding supply and support 
chain all speak to increasing risks.
    Secondly, we must be clear about our goals for space 
transportation and what is required to achieve safety in the 
implementation of those goals. Are the goals to, A, minimize 
the gap between Shuttle and America's next transportation 
vehicle? Is it to privatize transport of NASA astronauts into 
low-earth orbit? Is it to secure a launch vehicle with greater 
lift and potentially greater flexibility? The panel believes 
NASA can accomplish any of these goals given sufficient time 
and money, but NASA cannot be expected to accomplish all three 
safely and concurrently within available budgets.
    Third, let us talk about the knowledge. Perhaps competency 
would be the better word. The panel is not against commercial 
transport of humans but has registered concern in our report 
about commercial transportation without updated safety 
standards. Those standards have not yet been written by NASA, 
so no one can truly claim compliance with them.
    Chairman, in closing I want to highlight what causes 
programs to get into situations where safety is at risk. We 
believe there are most often three common themes; compressing 
schedule, stretching resources, and a workforce that loses 
direction. We believe both resources and scheduling must 
include management reserve to accomplish and accommodate issues 
that will arise as the new design evolves and working 
relationship matures.
    Additionally, managing the Shuttle's workforce, both 
government and contractor, will require new and focused 
attention. The Workforce Transition Plan that has maintained 
the stable Shuttle workforce and requisite knowledge is now in 
jeopardy. It will be a challenge to keep the necessary skill 
sets as workers find themselves without a clear future and are 
looking for a safe place to land.
    Again, thank you for the opportunity to testify today on 
behalf of the Aerospace Safety Advisory Panel.
    [The prepared statement of Mr. Dyer follows:]
                  Prepared Statement of Joseph W. Dyer
Chairwoman Giffords, Ranking Member Olson, and Members of the 
Subcommittee:

    Thank you for the opportunity to discuss the Aerospace Safety 
Advisory Panel's 2009 Activities and Annual Report. Let me begin by 
quoting from the Report's conclusion.

CONCLUSION

    ``The Panel continues to believe, as it did in 2008, that NASA 
faces unprecedented challenges, perhaps greater than any time in the 
Agency's history. Important decisions on the future of human 
spaceflight face NASA, as well as the White House, the Congress, and 
the Nation.
    Commercial entities and international partners will likely have a 
larger role in transporting both cargo and crew to orbit. It is crucial 
that NASA focus on establishing the certification requirements, a 
certification process for orbital transportation vehicles, and a 
process for validating compliance. The performance and safety 
requirements must be stated promptly and clearly to enable NASA and 
non-NASA entities to proceed in the most productive and effective 
manner possible.
    The Ares I vehicle has been designed from the beginning with a 
clear emphasis on safety. Before any change is made to architecture, 
the inherent safety of that approach should be assessed to ensure that 
it offers a level of safety equal to or greater than the program of 
record.
    We recognize that the Shuttle is risky by inherent design, and it 
is becoming more so because of aging and wear. Extension of its use 
significantly beyond what is planned through the current manifest is 
not recommended.
    Space exploration is a dangerous enterprise. The risks must be 
shouldered by NASA, Congress, and the Administration, and those risks 
must be communicated clearly to the public.
    The Panel hopes that our summary of critical safety-related issues 
will help focus attention on the important decisions and the direction 
of the Agency.''
    The 2009 Report has been widely read, strongly commended, and 
energetically criticized. With those well rounded metrics, we believe 
we have fulfilled our statutory purpose, which is to infuse safety 
considerations into an informed debate.
    During this period of deliberation and redirection, it is important 
not to overlook NASA's 2009 accomplishments. In the Report, we 
highlight several accomplishments that are noteworthy due to the 
commitment to safety. Highlights include:

        <bullet>  Five successful Shuttle launches,

        <bullet>  Progress on International Space Station (ISS) build 
        out,

        <bullet>  Ares I-X Rocket flight test,

        <bullet>  NASA Safety Center (NSC) Safety & Mission Assurance 
        Technical Excellence Program (STEP),

        <bullet>  ISS cargo resupply,

        <bullet>  Safe and successful Hubble Servicing Mission (SM)-4,

        <bullet>  NASA and the OSHA Voluntary Protection Program (VPP), 
        and

        <bullet>  Continuing successes in deep space missions.

    The Panel also highlighted a few critical issues in the Report. The 
most important one is, ``Whatever new policies or vehicles are selected 
for America's space activities, ensuring human safety must continue to 
receive the appropriate funding, visibility, and support . . ..''
    The Panel spent a good amount of ink on two specific issues: Human 
Rating Requirements (HRR) for Follow-on Vehicles and Shuttle Extension.

Human Rating Requirements

    In our Report, we note that the Commercial Orbital Transportation 
Services (COTS) vehicles being developed thus far had not been required 
to meet HRR standards nor were they proven to be appropriate to 
transport NASA personnel. This is understandable since COTS vehicle 
contractors are currently tasked only with developing cargo delivery 
systems. However, since expanding the commercial vehicle mission to 
include human transport has become an active topic, the Panel 
highlighted the HRR standards issue at every quarterly meeting in 2009. 
A principal concern identified at the first meeting in 2009 was that 
the current HRR procedures, when applied to the development of future 
human-related vehicles, were not specifically intended to establish 
requirements for vehicles produced by entities external to NASA. The 
Panel recommended that NASA stipulate directly the applicable HRR 
standards and share acceptable risk levels with those other entities. 
It is essential that any entity that might be creating human-rated 
transport systems that may transport NASA astronauts must understand 
the safety requirements that will be mandatory for such services. Not 
only should the standards be provided, but the certification mechanism 
and required validation data should be made clear.
    We go on to note that, in the fourth quarter of 2009, NASA made a 
start at achieving progress to more clearly develop and communicate the 
standards necessary for any COTS manufacturer if astronauts are to be 
transported on non-NASA vehicles. However, this will only partially 
answer the challenge. After the criteria and their applicability are 
clearly established, a process must be developed for validating and 
certifying compliance with those criteria. Although the Panel strongly 
supports the start that NASA has made, the Panel continues to believe 
that NASA is behind where it needs to be at this point in time. 
Considerable work must be done, and priority efforts should be 
established to accelerate the level of effort underway.
    For these reasons, the Panel stated, ``To abandon Ares I as a 
baseline vehicle for an alternative without demonstrated capability nor 
proven superiority is unwise and probably not cost effective. The 
ability of any current COTS design to ``close the gap'' or even provide 
an equivalent degree of safety is speculative.''

Shuttle Extension

    The Augustine Committee concluded that the only way to reduce the 
``gap'' in human spaceflight launch capability between ISS completion 
and the planned flights of Ares I is by extending the Shuttle program 
well beyond 2010.
    The Panel does not support extending the Shuttle significantly 
beyond its current manifest. We are especially concerned over any kind 
of ``serial extension'' where a few flights at a time might be added. 
The risk of continuing to fly the Shuttle without a recertification and 
expending the resources to bring the vehicle up to modem standards is 
more than what we should ask astronauts to shoulder. The Panel does not 
believe that there is full transparency to the risk. We recognize that 
such transparency is challenging due to the difficulty in communicating 
highly technical issues to a largely non-technical public. Still, NASA 
must find a way to successfully communicate the level of risk inherent 
in experimental space flight. The Agency must be supported in doing so 
by Congress and the Administration. In our opinion, the time to extend 
the Shuttle was several years ago when there was an opportunity to go 
forward with an extension certification program of reasonable scope and 
cost. With sufficient money, manpower, and recertification efforts, it 
is possible that the Shuttle could be extended. While we are aware of 
no major systems that are ``on the knee of the curve'' of wear out, the 
funds needed to allow full recertification are substantial, and the 
probability of finding things that demand even more resources during 
recertification is very real.
    The Report goes on to address other issues and opportunities. Those 
include:

        <bullet>  Integration of Robotics Agency-wide

                  The Panel continues to urge NASA to take a more 
                open-minded and aggressive view towards using robots to 
                reduce human risk whenever possible, consistent with 
                mission accomplishment. This means using robots to 
                replace humans on some missions and to support 
                astronauts on others.

                  The Panel notes that the vision for Exploration 
                includes dangerous and challenging work like 
                construction, mining, and manufacturing. In 
                accomplishing this work, there is significant risk to 
                astronauts in their fragile but critical space suits.

        <bullet>  Facilities and Aging Infrastructure

    Over eighty percent of NASA facilities are beyond their design 
life, and annual maintenance is underfunded.\1\ Facilities continue to 
degrade and facilities failures are starting to impact missions and 
have safety implications Agency-wide. Evidence for this can be seen in 
the increasing number of small fires, key equipment losses through 
failures in material handling and transportation facilities, and in the 
``weak signals'' that we observe in current safety reports. The 
infrastructure used to launch complex vehicles into space must be 
reviewed and maintained down to the smallest component to remain safe. 
In the past, one of NASA's goals was ``ten healthy Centers.'' A 
considerable investment in facility maintenance, repair, and 
replacement is needed for this goal to be achieved. This may be 
unrealistic in the current economic climate. If funding is not 
available, NASA should consider consolidating its programs and efforts 
at fewer Centers so that its activities may be safely continued at the 
remaining facilities. This planning needs to be part of a conscious and 
deliberate facilities strategy.
---------------------------------------------------------------------------
    \1\ Presentation ``NASA's Construction Program'' by Frank 
Bellinger, Director Facilities Engineering & Real Property Division, 
NASA Headquarters, to American Council of Engineering Companies, April 
27, 2009.
---------------------------------------------------------------------------
    If one steps back and observes with a wide lens, the FY 2009 ASAP 
Annual Report is about three things: the Space Shuttle, safely meeting 
our nation's goals and objectives for space transportation, and the 
knowledge needed to safely transport human beings into space.

        <bullet>  The Space Shuttle--We believe every responsible 
        American has concerns about the safety of the Shuttle. The 
        Shuttle has flown 129 flights; there have been two catastrophic 
        accidents and 14 lives lost. The Shuttle's history, age, and 
        its eroding supply and support chain all speak to increasing 
        risk.

        <bullet>  Space Transportation Goals--We must be clear on our 
        goals for space transportation to meet those goals safely. Are 
        they to:

                  Minimize the gap between the Shuttle and America's 
                next human transport vehicle?

                  Privatize the transport of NASA astronauts to low 
                earth orbit?

                  Secure a new launch vehicle with greater lift and 
                potentially greater flexibility?

    The panel believes NASA can accomplish any of these goals, given 
sufficient time and money, but NASA cannot be expected to accomplish 
all three safely and concurrently within available budgets.
    To speak clearly about the first goal, the ASAP believes attempting 
to close the gap or to buy time for new program direction by extending 
the Shuttle is ill advised.

        <bullet>  Competency--The Panel is not against commercial 
        transport of humans but has registered concern in our Report 
        about commercial transport without updated safety standards. 
        These standards have not yet been written by NASA, so no one 
        can truly claim compliance with them. So far in the U.S., only 
        NASA has demonstrated the knowledge and competence needed to 
        transport humans into space and return them safely to the 
        earth. If the U.S. decides to contract for commercial services 
        to transport our astronauts into low earth orbit, there is much 
        work to be done. That work is about transferring knowledge and 
        about developing a process whereby competency and design can be 
        certified.

    Whatever the direction forward, the Congress and the White House 
need to provide NASA with clear guidance. The focus needs to turn to 
getting the job done as soon as possible.
    What causes programs to get into situations where safety is at risk 
or, sometimes, even a causality? We believe there are most often three 
common themes:

        1.  Compressing schedule,

        2.  Stretching resources,

        3.  A workforce that looses direction.

    With the new budget come significant changes to our Nation's plan 
for space. The ASAP's advice is to carefully and adequately provide 
resources and to realistically schedule work. We believe both resources 
and scheduling must include a ``management reserve'' to accommodate 
issues that will arise as new designs evolve and working relationships 
mature.
    Additionally, managing the Shuttle's workforce--both government and 
contactor--will require new and focused attention. NASA's workforce 
transition planning that has maintained a stable Shuttle workforce and 
requisite knowledge is now in jeopardy. It will be a challenge to keep 
the necessary skill-sets as workers find themselves without a clear 
future and looking for a safe place to land.
    Once again, I thank you for the opportunity to offer the Panel's 
view on these issues and would be pleased to respond to any questions 
you or other Members of the Subcommittee may have.

    Chairwoman Giffords. Thank you, Admiral Dyer, and to all of 
our witnesses today, at this point we are going to begin our 
first round of questions, and the Chair will recognize herself 
for five minutes.

                              Cost Growth

    I would like to start with Ms. Chaplain. GAO has reported 
that cost and schedule growth in several of NASA's projects has 
resulted from problems such as failing to adequately identify 
requirements and underestimating technology complexity and 
maturity. And I know that this is just a draft that you have 
submitted here to our subcommittee, but can you talk a little 
bit about cost growth and schedule delay? Is this a matter of 
agency discipline, or is it something else that has--that is 
involved in this very slow progress at NASA?
    Ms. Chaplain. I believe it is more than just discipline, 
though discipline has a lot to do with it. There are issues 
with regard to planning ahead for acquisitions, notably like 
really looking at your supplier base, the health of it, what 
gaps and expertise they have, what potential problems you may 
have when you come to acquisitions. More of that could be done 
at the headquarters level and at the project level.
    There are also issues that are related to launch manifest 
that are going to be very severe in the next few years as NASA 
goes away from the Delta II vehicles to other medium launch 
vehicles. They raised the cost of missing any kind of launch 
deadline.
    So I think it is just an array of issues, but discipline is 
a big part of it.
    Chairwoman Giffords. Thank you. Mr. Martin, would you care 
to comment.
    Mr. Martin. Yes. Our observation would be we think that 
NASA has done a better job developing guidance to steer program 
management and now is really more of a matter of effectively 
implementing the guidance developed. And they have had varying 
degrees of success with some programs.

                     Risk Reduction Report Methods

    Chairwoman Giffords. As a follow up, Ms. Chaplain, looking 
at the report you released yesterday, and you talk about 19 
large-scale projects and includes a thumbnail sketch of Ares I, 
you indicate in the report that the totality of your work 
lasted until February 10, yet when you go to describe the 
status of Ares I, you failed to acknowledge significant 
progress such as the successful Ares I ground tests, the I-X 
flight, an agreement on how to deal with the thrust oscillation 
issue. All of these events that I mentioned happened late last 
year, so I am curious as to why they weren't acknowledged in 
the report and whether or not you consider them to be among the 
risk-reduction activities.
    Ms. Chaplain. A couple of things with regard to that. We do 
have to cut off our audit work at a certain point in time to 
allow for production of the report, and they also allow at 
least a month for agency comment period, so you are always 
going to have a lag of a month or two between the audit work 
and the report.
    Where we could, we tried to update the projects, 
specifically with some issues that were brought to our 
attention, either by NASA or the committee. Some key events 
like the Ares I-X we couldn't validate the results yet, so they 
are not reflected. They will be reflected in the next one.
    On the other hand, too, while you might have some positive 
events taking place, there might be negative events taking 
place. The NPP Project, for example, may have more cost 
increase than what we reflect in the report. So we really need 
to be sure that we are as accurate as possible. We have to cut 
off and know what we can validate.
    I will also note that when NASA does have an opportunity to 
provide comments, it can also point out those events that have 
taken place. They didn't specifically point anything like that 
out in their comment letter, and in our agency exit meeting we 
didn't have any specific updates that were validated, and when 
I say validated, it has to be provided by documentation, things 
we can substantiate and analyze. We didn't get those kinds of 
materials from NASA at the exit conference, either.
    In addition to that, each program has an opportunity to 
update their status when they comment on the 2-page sheet that 
we produce for that report.
    Chairwoman Giffords. And Ms. Chaplain, is that pretty 
typical of agencies not providing that information? I mean, 
obviously, NASA is unlike all agencies just because of the 
complexity and the cost of these programs, but I am just 
curious whether or not that is typical and----
    Ms. Chaplain. I would say yes. We produce a very similar 
product for our DOD weapons portfolio, and there, again, most 
of the information on that is based on these selected 
acquisition reports that go to Congress every year, and that 
information can be dated by the time the report comes out. The 
projects try to update where we can, and we try to validate 
where we can, but you tend to have that lag.
    The one thing about this mandate for this work is there is 
a biannual reporting requirement. That gives us an opportunity 
to brief staff midyear and kind of report on the updates that 
have taken place and where we stand with some of the programs.

                          Risk in Ares Program

    Chairwoman Giffords. Okay. Just--I just have a few seconds.
    Admiral Dyer, would you just talk briefly about your 
thoughts on where Ares I stands relative to risk, in relation 
to risk rather?
    Admiral Dyer. The panel's position is that if the goal is 
to minimize the gap between Shuttle and a follow-on vehicle, 
then Ares I offers the safest, quickest opportunity and 
probably the most cost effective one. If the Nation is willing 
to accept a wider gap, more risk, and a higher cost, then other 
opportunities avail themselves.
    Chairwoman Giffords. And Admiral Dyer, in terms of your--
the panel, the experts that are apart of your organization, I 
mean, to what extent are you confident that the analysis is 
truly accurate?
    Admiral Dyer. We are confident that the analysis is 
accurate, that the program is on track. I bristle a bit when 
any program is referenced as troubled, because you have to 
discriminate between the ongoing activities of any 
developmental program, part of getting the work done, and 
programs that are really in general in great difficulty. We 
think what you see with Ares is part of the developmental 
process. We think the program is on track.
    Chairwoman Giffords. Okay. Thank you, Admiral.
    The Chair recognizes Mr. Olson for five minutes.

                    Regulation of Human Space Flight

    Mr. Olson. Well, thank you very much, Madam Chairwoman, and 
I have got a question for all the panelists.
    With respect to ensuring that future human space-related 
vehicles meet NASA requirements and to validate compliance, it 
has been suggested that NASA follow the FAA model by delegating 
safety mission assurance authority to the space launch 
provider.
    It has been asserted that this system is much more 
efficient, adaptable, and cost effective than having to deal 
with NASA's cumbersome safety regime. Under the FAA Enforcement 
System select employees of aircraft manufacturers, airlines, 
and aircraft maintenance companies are licensed by the FAA and 
charged with enforcing FAA safety regulations. Failure to 
adhere to FAA standards can lead to fines, license suspensions, 
or worse.
    What are your views on adapting such a system for companies 
hired to fly astronauts to low-earth orbit? Mr. Martin.
    Mr. Martin. Okay. We will take that one first. We have not 
done work in this particular issue, but speaking for myself I 
would think that NASA would be foolish to cede any issues 
dealing with the safety of its most precious cargo, that is the 
astronauts. I would be shocked if the administrator, who is an 
astronaut, would agree to that, and I just think the human 
rating issue and the safety issue needs to remain in house.
    Mr. Olson. Thank you for that answer.
    Ms. Chaplain.
    Ms. Chaplain. I am not as familiar with the FAA process, 
but I do have some thoughts. We would almost like to see a 
process analogous to what they have for the launch services 
program for NASA, probably more stringent than that, so when 
NASA is looking to get a new supplier, for example, to take up 
science missions, it has a very rigorous process for certifying 
those suppliers and ensuring that they meet all of NASA's 
standards for taking up science missions, which are pretty 
stringent in and of themselves.
    Along with this process comes insight into design 
production and test activities, and in the case of human 
spaceflight you would almost expect that they have approval 
authority over top-level requirements and test strategies and 
success criteria, et cetera.
    Overall, I would just see a much more rigorous process and 
a lot more insight and oversight than what we have with the 
COTS Program. The COTS wasn't set up to be that kind of 
rigorous oversight effort.
    Mr. Olson. Thank you, Ms. Chaplain.
    Admiral Dyer.
    Admiral Dyer. May I point out or perhaps predict two 
evolving catch-22 opportunities. The first is that FAA has 
great knowledge about the certification of commercial vehicles 
but little knowledge about space. Just the opposite is true on 
NASA; deep knowledge with regard to spaceflight, little 
knowledge with regard to certifying commercial vehicles.
    Madam Chairman, I guess you could call this an interagency 
opportunity in the making.
    A second catch-22 related is how do you, as you have heard 
us mention a couple of times, how do you both communicate what 
is required and then certify it? The second catch-22, Mr. 
Olson, I believe, will be commercial industry's belief that 
they can only deliver on-cost and on-schedule if NASA is kept 
at arm's length. But keeping NASA at arm's length will neither 
transition the knowledge that is needed, nor build the 
confidence to certify.
    These are two serious problems that need to be addressed as 
we go into the future.
    Mr. Olson. Yes, sir. I can see how both of those would 
affect safety.

                  Technology Development on Ares/Orion

    One more question and this is for you, again, Admiral Dyer. 
One of the biggest technical challenges for the Ares and Orion 
has been the design and development of a launch-abort system, 
and as you know, later this spring NASA has scheduled its first 
major test of an integrated launch-abort system at White Sands.
    Assuming this system won't be used now on the Orion 
Vehicle, is it reasonable to believe that this technology and 
design can be transferred to other vehicles? Would the hardware 
and software be fairly generic, and what are the kinds of 
validation tests that would be required to ensure the system is 
safe and reliable?
    Admiral Dyer. Sir, I would note that the technology and the 
development is sound. There is much knowledge with this regard. 
Probably some of it can be transferred, but I am afraid we 
don't have on the board the panel, the deep knowledge necessary 
to answer your question.

                              Cost Growth

    Mr. Olson. Thank you for that answer, sir, and I will close 
with just one comment I would like to make.
    I mean, one of the things we hear, and it is sort of a 
follow up on a comment Admiral Dyer made, but one of the things 
we hear is how the justification for this new budget and its 
implication for human spaceflight is the cost overruns and how 
the Constellation Project is just way beyond budget. And the 
numbers are true. We have, you know, we have put $9 billion in 
there, and I want to point out that some of the cost overruns, 
the majority of that problem hasn't been with the agency. It 
has been with the people in this room, the people in the 
Congress, and the people over at 1600 Pennsylvania Avenue.
    We haven't given NASA the resources they need to complete 
the missions we have asked them to do, and I hope to eliminate 
that process in the future, and again, keep the Constellation 
Program going.
    Madam Chairwoman, I yield back.
    Chairwoman Giffords. Thank you, Mr. Olson.
    The Chair will now recognize Ms. Edwards.

              Systemic Weakness of Government Acquisitions

    Ms. Edwards. Thank you, Madam Chairwoman, and thank you for 
holding this hearing and discussion today. I think it is really 
important and especially in light of the Administration, the 
President's release of the budget for 2011.
    I want to--and I just wanted to say I do share the concerns 
expressed by my colleagues about the proposed budget and the 
impact on human spaceflight and essentially decimating 
America's human spaceflight capacity. I think there is a bit of 
an inconsistency between thinking about it and as the President 
has outlined, the future and 21st century technology and job 
creation for this century and maintaining a robust human 
spaceflight program. And we need to resolve those 
inconsistencies, and I look forward to working with the 
committee and with this subcommittee in doing that.
    I am concerned about a couple of things. One, Ms. Chaplain, 
you said that--you noted in your testimony that NASA has 
produced over the years some amazing research and technology, 
but the projects cost more and take longer. How much different 
really is this say from Department of Defense large-scale 
weapon systems or military spaceflight? How much greater are 
the cost overruns and the financial management problems in--
within NASA different from these--from say the Department of 
Defense and other agencies? Because I think we suffer from some 
of those same problems across the board in the Federal 
Government, and the fact that we are spotlighting NASA for I 
think a cut, a decimation of the human spaceflight program, 
looking at those kind of things, really misplaces where we need 
to go in terms of how we think about risk taking and 
technology.
    And I also wonder whether you have had an opportunity 
really to look within the culture of NASA where I think that 
there are times when the agency recognizes the limitations here 
in the Congress, and as Mr. Olson has pointed out, at 1600 
Pennsylvania Avenue, and then constrains its requests to the 
Congress and then we run up costs in programs and systems. And 
that is in, you know, and I don't know that that necessarily 
can be placed at the foot of the agency.
    Ms. Chaplain. I would say NASA's issues with constant 
schedule overruns are very similar to the ones that DOD, 
particularly the space systems, and the underlying causes are 
very similar, and some of that does have to do with culture and 
the competition for funding and having a lot of instability in 
that funding process.
    I will note at DOD there has been cuts in big programs 
there as well.

                Progress on Improving Program Management

    Ms. Edwards. Thank you, and then I am also curious as to--
and perhaps, Admiral Dyer, you can comment on this, when you 
look at things like contractor management and trying to 
stabilize, stabilizing engineering designs and those challenges 
that NASA faces, do you think that the agency is actually on a 
path and perhaps Mr. Martin, you could talk to this, speak to 
this as well, is actually on a path to doing a better job there 
so that there is a little bit more predictability for future 
programs?
    Admiral Dyer. I think the situation is improving. It is 
certainly a focus for General Boldon, but you do give me an 
opportunity to make a point I was thinking about during Ms. 
Chaplain's answer to your question.
    Cost and schedule and safety warp and weave. They are very 
tightly related to one another, so both from a safety 
perspective as well from a program management cost performance 
perspective. If I could give this subcommittee a gift in 
deliberation going forward, it would be an independent, truly 
independent cost estimate, one that is independent of the 
missionary movement, the folks that are trying to sell a 
program, and one that is also independent of the folks that are 
trying to fit a program within the available budget. In my 
experience and many folks on the panel, an independent cost 
estimate is the key to predicting the future.
    Ms. Edwards. Thank you, and lastly, is there any indication 
whatsoever that abandoning the human spaceflight program in 
terms of its residence within NASA will result in any lower 
costs and would change any of the challenges that you have 
already identified that NASA faces?
    I will take that--as I mentioned in my opening, it won't 
change the challenges. There still needs to be a lot more 
discipline in the acquisition process. We need cost estimates 
to improve, we need them to be independent. There is a lot of 
things that need to change whether that Constellation Program 
is there or not. The condition is very systemic across the 
agency.
    Thank you very much.
    Chairwoman Giffords. Thank you, Ms. Edwards.
    The Chair will recognize Mr. Hall.
    I am sorry. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, and thank you, 
Chairman Hall.

              Public vs. Private Management of Spaceflight

    We are all pretty shocked about the President's budget one 
way or the other. There are some good things in it, there are 
some things in it that we really need to discuss, and I am very 
pleased that we have got some people who are focusing on these 
issues.
    Today our witnesses are not necessarily here to discuss the 
new budget, however, and not even perhaps to discuss policy but 
to talk about key challenges that we face in America's Space 
Program, and safety is, of course, one of the preeminent 
challenges.
    Let us note that those of us who do believe that mankind is 
destined to head into space and that we look at that as a 
dramatic challenge to our generation, to continue that movement 
of humankind into space, that we understand that there are 
great risks involved with this perhaps most noble of human 
endeavors. And that is to locate human beings elsewhere in this 
universe.
    But let us also note there that great risks should not be 
the impediment to fulfilling that task. They are saying, and 
Admiral, I am sure you have heard this many times, that if a 
captain thinks his only responsibility towards the ship is the 
safety of his ship, he will never leave port, and there are 
safety elements that we have to have identified with my 
colleagues. Remarks recently--we just heard about comparing the 
cost overruns and some of the efficiency problems of NASA to 
the Department of Defense.
    Let me just note that that is not a proper comparison. The 
proper comparison is are these extra costs and are these 
overruns comparable to the private sector, and that is the 
question that needs to be asked and perhaps I would ask that of 
our witness.
    Ms. Chaplain. We have compared----
    Mr. Rohrabacher. To Space X, et cetera.
    Ms. Chaplain. Yeah. We have done some comparisons to the 
other space companies and found out most of the commercial 
companies don't have the same costs and growth, but you have to 
remember they are not chasing after the same requirements. They 
have much less demanding, they are not pushing the technical 
edge that DOD and both NASA are trying to do.
    Mr. Rohrabacher. Okay. Pushing the edge and let us take a 
look at this and look at some of the things that that 
indicates.
    Admiral, in your statement you indicate that Ares, the 
government approach to trying to--new approach to getting into 
space, has been designed from the very beginning with a clear 
emphasis on safety. Is it your contention that Space X or 
Orbital or Lockheed Martin or Boeing have not had an emphasis 
on safety in launching, in developing and designing their 
launch vehicles?
    Admiral Dyer. For sure. These are right-hearted folks, and 
they have given safety a great consideration, but I would make 
two points, sir. The first is they are on contract only for 
cargo deliveries, not for human transport.
    Mr. Rohrabacher. Uh-huh.
    Admiral Dyer. Number one, and number two, the information, 
the knowledge that needs to be transmitted in terms of human 
rating requirements out of NASA and provided to the commercial 
sector has not been published, has not been made available.
    And by the way, that is a hard challenge because while NASA 
has human rating requirements, they are for NASA, and they rest 
on a foundation of 50 years of understanding and institutional 
knowledge.
    Mr. Rohrabacher. Right.
    Admiral Dyer. To transmit that out to new activities with 
new undertakings is quite----
    Mr. Rohrabacher. Well, is it your contention that these 
private companies are then developing something that is unsafe?
    Admiral Dyer. Absolutely not, sir. I didn't say that.
    Mr. Rohrabacher. All right.
    Admiral Dyer. What I said was they don't have the measuring 
stick yet available to answer that question.
    Mr. Rohrabacher. Uh-huh. So these requirements that we are 
talking about just have not been presented by NASA then. Is 
that it?
    Admiral Dyer. That is correct.
    Mr. Rohrabacher. So we have a bureaucratic impasse, not 
based on a willingness of these private companies to meet 
standards, but instead by, again, a government agency not being 
able or willing to do its job in a timely manner.
    Admiral Dyer. Upon General Boldon's arrival at NASA, this 
activity started, and it started in earnest in the last quarter 
of last year, but in terms of being behind the ball, yes, sir.
    Mr. Rohrabacher. So how long do you expect this to take 
before we can actually let these--I have been involved with 
commercial space concepts for 20 years now, and I think it 
should be a cost-effective alternative to just simply relying 
on the government for these endeavors. How long do you think it 
should take to develop this certification and these standards 
that we can measure these companies by?
    Admiral Dyer. Less time than it will take but you need, 
sir, to, I think, put that question to NASA rather than the 
panel. We can never speak, neither speak for them, nor do we 
have the insight of the staffing requirements in terms of the 
timeline or delivery.
    Mr. Rohrabacher. Let me be very----
    Chairwoman Giffords. Mr. Rohrabacher, your time----
    Mr. Rohrabacher.--just a clarification on a point that he 
has already made. You then are not saying that the Ares Program 
by what you are testifying today is that--you are not saying 
that it is safer and more reliable than the counterparts in the 
private sector? You are not saying that?
    Admiral Dyer. We are saying that it is well ahead on that 
timeline because it had human rating requirements and 
institutional knowledge and from the get-go had a set of 
measuring sticks----
    Mr. Rohrabacher. Does that mean safer? That you consider 
them to be safer and that the other ones are less safe?
    Chairwoman Giffords. Mr. Rohrabacher, we are going to do a 
second round of questions.
    Mr. Rohrabacher. All right.
    Chairwoman Giffords. So I think it is just important that 
everyone gets a first round of questions----
    Mr. Rohrabacher. Got it.
    Chairwoman Giffords.--and then hold that, and we will come 
back to you in a few minutes.
    Mr. Rohrabacher. All right. Got it.
    Chairwoman Giffords. Thank you, Mr. Rohrabacher.
    The Chair recognizes Mr. Wilson.

           Managing the Shuttle and Constellation Transitions

    Mr. Wilson. Thank you, Madam Chairman.
    The ASAP mentioned that the current workforce transition 
plans were drawn up assuming that the Constellation Program 
would be executed. These plans have been put on hold because of 
the uncertain future of NASA's human spaceflight program. How 
are NASA personnel being impacted by the delays in settling on 
a new strategy, number one? Number two, how quickly can NASA 
modify and implement these transition plans once a final 
decision is made with regard to the Constellation Program?
    Please, anyone on the panel give me that. Start with you, 
Mr. Martin.
    Mr. Martin. That would be fine. Obviously, the--it is 
exactly right that the transition plan was based on retirement 
of the Shuttle and movement of the technology and many of the 
people onto the Constellation Program. There needs to be a new 
development of this workforce transition strategy, and it is 
going to affect NASA's people, it is going to affect NASA's 
parts and NASA's facilities.
    As far as a timetable for execution of that, that is up the 
agency. I think they need to develop the strategy. I doubt that 
it is developed at this point and then how long it would take 
to implement that remains to be seen.
    Mr. Wilson. Ms. Chaplain.
    Ms. Chaplain. I would agree, but I would also add that to 
NASA's advantage it does have a very robust, strategic human 
planning process and a lot of good mechanisms for dealing with 
uncertainties and changes. They were dealing with that somewhat 
under the Constellation Program, a lot of flexibility needed to 
be in place because we didn't quite know what the requirements 
were yet for Constellation.
    So I have confidence that the agency has a lot of good 
tools and processes to manage this uncertainty, but it will 
take time because it is a big change.
    Mr. Wilson. Admiral Dyer.
    Admiral Dyer. I really don't have anything to add. I think 
Mr. Martin and Ms. Chaplain covered the water, sir.
    Mr. Wilson. Okay. You know, we are very concerned.

               Oversight of Commercial Human Spaceflight

    The jobs and what all effects it has, NASA Glenn in Ohio is 
significant and concerned about the decisions that are being 
made and why we are going through the time that we are. Then in 
my second question, if the decision is made to end NASA's 
direct involvement in sending U.S. astronauts into space, what 
would be an appropriate level of NASA involvement in oversight 
during vehicle design and development?
    Ms. Chaplain. I covered a little bit of this before, but I 
think they should have a much stronger role than they have now 
under the COTS Program. They do have a pretty good process and 
guidance and certifications for bringing new commercial 
vehicles on to do science missions, and it is a very rigorous 
process, and it involves a lot of oversight into the design of 
the vehicles and what is behind them.
    So I would see that as sort of the starting point for the 
thinking of what should happen when it comes to human 
spaceflight.
    Mr. Wilson. Thank you. Admiral Dyer.
    Admiral Dyer. Well, sir, I think you do touch this 
requirement for a delicate balance, and the balance is deep 
enough insight to be able to certify and to manage the process 
of certification but at the same time to have enough distance 
to allow commercial industry to exercise efficiencies and 
hopefully speed that are promised.
    Mr. Wilson. Thank you. Mr. Martin.
    Mr. Martin. I have nothing to add, Mr. Wilson. Thank you.
    Mr. Wilson. Thank you very much.
    Chairwoman Giffords. Thank you, Mr. Wilson.
    The Chair will now recognize Mr. Olson.
    Oh. Mr. Hall.

                       Human Rating Requirements

    Mr. Hall. Okay. Thank you. Thank you very much.
    I won't go any further than Mr. Rohrabacher and Congressman 
Wilson have gone on their questions, but just one thing I would 
like to ask is will each competing commercial crew vehicle and 
launcher have its own set--own unique set of requirements?
    Admiral Dyer. I would not anticipate, sir, that the 
requirements would be different. The performance requirements. 
Design approaches may be different, but there will be different 
trades across the system at large, and you can meet a common 
set of requirements with different approaches.
    Mr. Hall. And I note that you support or supported the 
theory of the Constellation because of its safety. I somehow 
gleaned that from your testimony, and I believe, and I would 
like to ask you how you feel about the President just clearing 
off a place and canceling it, but I don't imagine that is one 
that you all, any of you want to answer. We sure would like to 
hear it, but I will get away from that.

                         Ensuring Access to LEO

    A premise underlying NASA's reliance on commercial human 
space launches, that the launch company is going to be a 
successful business, but if they have a bad day at the launch 
pad or if sufficient customers don't materialize, there is 
always the risk of going out of business. Right?
    Admiral Dyer. Sure.
    Mr. Hall. So leaving NASA then and the Nation in the lurch, 
what steps should NASA take to ensure that it has alternative 
means of getting U.S. astronauts to and from orbit if we are in 
the hands of a contractor that falls by the wayside or doesn't 
come up to do what they have indicated that they can do?
    It gives you some concern, doesn't it?
    Admiral Dyer. Well, sir, it isn't cheap, but if you have 
sufficient resources, and the undertaking is of sufficient 
importance, an acquisition technique is to dual source, to 
mitigate that risk that you discussed.
    Mr. Hall. Well, money ain't much, but it sure keeps you in 
touch with your kids. That is what you are saying.
    Admiral Dyer. Yes, sir.

                  NASA Role in Commercial Spaceflight

    Mr. Hall. And I ask, Admiral, proponents of the commercial 
human spaceflight have argued that presently NASA relies on 
private contractors to build, maintain, and launch the Shuttle. 
NASA is merely the Shuttle owner. Right?
    Admiral Dyer. NASA's involvement today in programs is 
significantly more engaging.
    Mr. Hall. But they are the owner.
    Admiral Dyer. They are the owner.
    Mr. Hall. And by giving up their ownership role and 
becoming the customer, there is an implication that little else 
has changed in the relationship or in the execution of the 
program, and from a safety perspective what are your thoughts 
about the significance of being a mere customer now? Going from 
an owner to being just a customer?
    Admiral Dyer. Well, when we talk about certification and 
the process of certification, we are talking about clearing up 
or sharpening up this gray zone that extends from just 
contracting the services over to being the systems integrator 
and general contractor if you want to use a term from the 
housing industry perhaps.
    It can be--you can rest at many places on that continuum, 
Congressman Hall, but deciding what is the right place is work 
yet to be done.
    Mr. Hall. I can't disagree with that, but if the private 
contractors fall by the wayside and we have lost the faith of 
our international partners and we have lost our huge 
professional group of people that have carried out the work of 
NASA, we would be in a pretty tough situation, wouldn't we?
    Admiral Dyer. It would be regrettable, sir.
    Mr. Hall. I thank you, Admiral. I admire you, and I thank 
you for your testimony.
    I yield back. Thank you, Madam.
    Chairwoman Giffords. Thank you, Mr. Hall.
    The Chair recognizes Ms. Kosmas for five minutes.
    Ms. Kosmas. Thank you very much. Thank you all for being 
here today. I happen to be the representative from the 24th 
Congressional District in Florida, which is the home of Kennedy 
Space Center, so obviously, your participation in the 
discussions as we move forward are very important to me, and 
like many others have expressed today, I am extremely concerned 
about some of the lack of direction that we might have in the 
policy as put forth in the President's budget. I don't see a 
vision, I don't see an inspiration, and I see a major loss of 
workforce and workforce skills.

                           Shuttle Extension

    So I have a couple questions that I would like to ask first 
to Admiral Dyer and Ms. Chaplain. Can you discuss whether or 
not you have studied the recertification process for the 
Shuttle? In other words, what it would take to fly the Shuttle 
past 2010, and how that could be impacted if we should make a 
determination that we want to add a couple of Shuttle flights?
    Ms. Chaplain. We have not been requested to do that study, 
and we have not done work there.
    Ms. Kosmas. Do you know if the certification process is in 
process, recertification process?
    Ms. Chaplain. I don't believe so.

                 Maintaining Vital Skills in Transition

    Ms. Kosmas. Okay. Okay. The other question I guess it would 
be for anybody who wants to answer it. What do you see in terms 
of human spaceflight expertise, capabilities, and critical 
skills? Are we at risk of losing in the Nation due to the gap 
in the human access to space after--U.S. access to space after 
the Shuttle is retired, and how do we go about retaining those 
skills, particularly if the government's human exploration 
program is put on a hiatus, which is apparently what is 
happening in the Administration's budget directive.
    Ms. Chaplain. I think NASA has a very good basis to build 
on when it comes to determining what skills might be at risk 
with this transition. For the past several years they have been 
going through a skill-mapping exercise at all their centers, 
determining like what are the very critical skills each center 
needs to retain, what kind of skills they are, and so they kind 
of have an inventory now of what they need and what they have, 
and they can look at this change coming up and see what the 
gaps are, because they could be considerable, and you don't 
want to lose certain expertise in case there is something 
disastrous that happens, and you need to call people back.
    Ms. Kosmas. I appreciate that. Again, if they have been 
doing this assessment for several years, it would be somewhat 
not relative to where we look to be moving based on what we 
have learned this week. So I guess the question then becomes--
that you all observed that the current workforce transition 
plans were drawn based on what we anticipated to happen, that 
is to say, obviously, that the next phase would be 
Constellation and so forth.
    Now, these plans would be on hold because the uncertain 
future of what has not been identified frankly as the U.S. 
Human Spaceflight Program.
    So if you can put that into the answer, I would appreciate 
it.
    Ms. Chaplain. Yeah. Just to clarify what I said earlier, at 
least they have an as-is inventory, so they know what kinds of 
skills they have onboard. As they look to the new programs 
coming on and the new requirements that they will have, they 
will at least have the first part of the basis that they need 
to do a gap analysis for. You are exactly right that going 
forward it is going to be a whole new kind of ballgame in terms 
of what you want to stay on board, what you may not want. That 
part is going to be all new to them.

                           Shuttle Extension

    Ms. Kosmas. Okay. With that response let me go back to 
Admiral Dyer, if you don't mind. Can you answer the earlier 
question that I asked about the certification and whether you 
have any details on what it would take for an extension should 
there be a Congressional move towards extending the Shuttle 
Program for a couple of flights?
    Admiral Dyer. Well, let me repeat a caution from the panel. 
We think the most dangerous thing that could happen to us with 
regard to extending the Shuttle would be serial extension. A 
couple more followed by a couple more followed by a couple 
more.
    Ms. Kosmas. Okay. I am going to run out of time, but let us 
just assume four or less.
    Admiral Dyer. With that said, could the Shuttle be 
extended? Absolutely. It would be, we believe, a fairly serious 
and expensive undertaking.
    Ms. Kosmas. Okay. Again, I am going to run out time, but I 
want to just express to you, again, my appreciation for your 
being here and my extreme concern for my particular loss of 
jobs and the lost opportunities for this Nation to remain 
number one in space exploration in the world and continue to be 
a leader with this undefined plan. I think you are going to see 
based on what you have heard here that Congress is going to 
fill in some of the blanks with what we see as our vision.
    Thank you, Madam Chairman.
    Chairwoman Giffords. Thank you, Ms. Kosmas.
    Mr. McCaul.

                       Opinions on Constellation

    Mr. McCaul. Thank you, Madam Chair.
    In his State of Union, President Kennedy outlined the 
mission of NASA, and that was to land a man on the moon and 
return him safely to the earth, and according to the NASA 
website their vision was to explore the universe and search for 
life and to inspire the next generation of explorers as only 
NASA can.
    I believe that with the President's cutting in his budget 
of the Constellation Program it undermines that very mission, 
the vision of NASA, and the actual, the principles upon which 
NASA was set up in the first place was human spaceflight. I am 
concerned about the impact on our children in science and math, 
in those fields, and I am concerned about our leadership in the 
world as it relates to the Russians and the Chinese by 
scrapping this human spaceflight program.
    We have invested a tremendous amount of money, billions of 
dollars already in the Constellation Program. Now, I know this 
may be a policy decision that may be a little bit over your pay 
grade, but I would like to get some comment from you as to why 
we are doing this.
    Ms. Chaplain. I really can't offer a comment. We don't look 
at policy and the goodness of it or not at GAO.
    Mr. McCaul. Well, instead we are moving to an earth science 
mission as opposed to a human spaceflight mission. That is what 
I am getting from this Administration, and I am sorry. Did you 
have a comment?
    Mr. Martin. Just that at the Inspector General's office we 
don't do policy. We come behind the policy made by the agency 
and then criticize them.
    Mr. McCaul. Well, maybe you could criticize them here.

                        Gap in Human Spaceflight

    Admiral, I don't know if you have a comment. You may not 
want to touch that, but as it relates to the commercial, I 
mean, we are going to have a gap in human spaceflight in my 
judgment, and it sounds like the plan here is to have a 
commercial spaceflight somehow fill the void and the gap there. 
I have got some serious questions and reservations whether that 
is going to--or that it is possible.
    Can you comment on that and also the fact that, you know, 
we have been working on the safety requirements as it relates 
to Orion and Ares. Why wouldn't that also apply to commercial?
    Admiral Dyer. Would you restate that last part?
    Mr. McCaul. Well, first of all, do you think, do you really 
think that, I mean, I think we are going to have a real gap and 
a break in human spaceflight under this proposal. Do you really 
think the commercial sector after we have invested billions of 
dollars in infrastructure in NASA can possibly fill that gap in 
this short period of time?
    Admiral Dyer. Well, you constrained that in a number of 
ways. Again, the panel believes that Ares I is the quickest gap 
fill because it has been underway for a considerable period of 
time with human transport, a fundamental part, and with NASA's 
knowledge imparted into it. Again, can commercial industry do 
that? Absolutely. Is it important to have a commercial industry 
going forward? I think the panel would agree, but it is a 
question of what are those goals that we talked about earlier 
in the testimony.
    Mr. McCaul. But do you foresee a disruption in human 
spaceflight, though, under this plan?
    Admiral Dyer. We think that some of the positions that say 
that the commercial industry can deliver a launch vehicle in 
three years probably is unrealistic given the work to be done.
    Mr. McCaul. You know, sir, and I am all for competition in 
the private sector. I just think we have--NASA has had a, you 
know, a very different mission here. We have invested a lot of 
money into NASA, and particularly in the Constellation Program, 
and I hate to see that being completely scrubbed and taken out 
of this budget.
    And with that I yield back.

                        Fully Utilizing the ISS

    Chairwoman Giffords. Thank you, Mr. McCaul.
    With that, members have expressed an interest in a second 
round of questions, so I will begin.
    I would like to talk about the International Space Station. 
The President did outline a proposal to extend the ISS until 
2020, and this is, of course, something that has been expressed 
favorably by members of the subcommittee for quite some period 
of time, even in consideration of the fact that the 
International Space Station is not even yet completed, we 
certainly don't want to de-orbit it and not take advantage of 
the science and technology that we have worked so hard and paid 
so much to construct.
    Ms. Chaplain, can you talk about the primary obstacles in 
the way of utilization in terms of effective research for the 
International Space Station and the provisions and the upcoming 
NASA authorization legislation that you think would enhance 
greater prospects for better research on the ISS?
    Ms. Chaplain. Yes. We identified several challenges in our 
recent report on the Station. One of them just being the mere 
absence of the Shuttle itself severely limited as to what you 
can take up and down from the Station, even more so in terms of 
what you can take down, and that matters a lot for scientific 
research. The results of the high cost to develop experiments 
and launch them, those costs were somewhat unknown and unknown 
as to who would really pay for them when you are involving 
other agencies like the NIH.
    There is also the issue of little crew time available on 
the Station to manage experiments, so they have to be as 
automated as possible, which could be a disincentive to some 
researchers.
    There has also up until recently been very much uncertainty 
about the retirement date for the Station, which is another 
disincentive for the scientific community to really engage. You 
need a lot of lead time to plan for experiments.
    In terms of the authorization, we looked at other national 
labs to see how they manage their facilities and could anything 
be helpful for the Station, and we did identify three things, 
one being a central management body to kind of help put the 
research together, decide what is the most important, ensure 
that it is peer reviewed, and NASA recognized that this could 
be a good practice. It just--that idea hasn't gone anywhere for 
a couple of years, and I know you guys have emphasized it a 
couple of times.
    The need for robust, in-house technical expertise, that was 
lost in recent years on the Station Program, and that really 
needs to come back if you want to fully utilize the Station.
    And then the idea of significant user outreach, NASA does 
have activities to outreach to user communities, but they 
really could be more robust, and I think the budget helps 
provide some of those resources, but it really needs to be 
emphasized that they need to have very strong outreach efforts.
    Chairwoman Giffords. To follow up with that, you touched on 
it, but can you elaborate on NASA's progress so far in 
establishing some agreements for using the ISS in conjunction 
with federal agencies, perhaps private firms, academic 
institutions, and the provisions in, again, the upcoming 
authorization that would enhance the prospects of the ISS 
becoming a national lab?
    Ms. Chaplain. What was the second part of that?
    Chairwoman Giffords. Yes. The chances, what we can do to 
improve the prospects of the ISS becoming a national 
laboratory.
    Ms. Chaplain. Okay. In terms of agreements, we--I think 
there were five in place at the time of our review, and it 
doesn't sound like a large number, but they seem to be very 
significant agreements. There weren't any with academic 
institutions at the time of our review. They were with agencies 
like the NIH.
    In terms of what could be done to improve the utilization, 
the biggest issue we saw was resources just in the hands of the 
managers of the station. They have been depleted over the 
years, and they are not able to do all the things they could be 
doing to man the station, and then also to kind of encourage 
NASA to manage it more like the labs in terms of having a 
central management body kind of help collect all the research 
ideas, decide who is going to go on board and to really assist 
the users in their ability to use the Station. You need a lot 
of guidance and outreach out there to kind of tell people what 
is available and then, you know, bring them into that process.
    Chairwoman Giffords. Thank you. Admiral Dyer, any safety 
concerns with the extension of the ISS beyond 2015?
    Admiral Dyer. No specific ones. We--our scope has been 
limited to looking at the operation of ISS and look at logistic 
support.
    I might add just one point, and that is while the panel has 
expressed some concerns about COTS contractors or others in 
terms of human rating, their ability to deliver cargo to space 
has been underway, has been an intimate part of the design from 
the beginning, and we think can help significantly.
    Chairwoman Giffords. Thank you.
    Mr. Olson.

               Transitioning Workforce and Infrastructure

    Mr. Olson. Thank you, Madam Chairwoman.
    Question for Mr. Martin and Ms. Chaplain regarding human 
spaceflight infrastructure costs. NASA has estimated that the 
carrying cost of the Shuttle Program was approximately $2.7 
billion a year to pay for much of the personnel, management, 
and related infrastructure costs at the several NASA centers 
devoted to human spaceflight.
    If NASA implements its proposed human spaceflight program, 
as the Obama Administration wants, by becoming a customer of 
commercial space launch companies, how should it book keep the 
infrastructure and personnel now charged to the shuttle 
program, assuming that some portion of those same facilities in 
people continue to play a role in human spaceflight?
    Mr. Martin.
    Mr. Martin. That is a good question. I will defer that if I 
could to Ms. Chaplain. We have not done work in that area. We 
are looking at the--our work to date has focused on the 
transition of the Shuttle Program, the costs associated with 
that, and the concerns we have about NASA being able to 
maintain its ambitious and aggressive schedule.
    Mr. Olson. Thank you. Ms. Chaplain.
    Ms. Chaplain. Well, one thing our work showed is there are 
a lot of aging facilities out there, and the plans for the 
transition effort weren't really showing what costs would be 
involved in terms of revitalizing facilities that you could 
keep for Constellation and what you couldn't. Obviously, now, 
everything changes, so the question is what do you do with all 
these facilities. NASA will have to go through a process where 
it examines everything, because some things could be available 
to the commercial suppliers, for example, on a leasing basis.
    So they will just have to think more out of the box in 
terms of what to do with the facilities. If they take them down 
and dispense with them, as they may have done with the 
Constellation transition, there is a lot of costs associated 
with environmental clean-up and indirect costs that could be 
better reflected in budgets and things like that.
    Mr. Olson. Thank you.
    Mr. Martin. Sir, if I could raise one related matter----
    Mr. Olson. Sure.
    Mr. Martin.--and that is the issue of deferred maintenance 
and facilities. I know that wasn't exactly what you were 
asking, but as far as being a significant challenge facing NASA 
and an expensive challenge, I think the latest estimate is 
there has been about $2.5 billion in deferred maintenance at 
NASA's aging facilities, and that is a key issue that NASA 
needs to keep its eye on the ball.
    Mr. Olson. Thanks for that answer, and I want to get--many 
of my colleagues mentioned the issue of workforce transition, 
and sort of what is happening now with the President's budget 
out there, and I spent yesterday, I talked with the director of 
the Johnson Center, Mike Coats, and he is spending his days in 
the office going around to every employee, ever federal 
employee that he has oversight over to talk to them, letting 
them know what he knows and trying to assuage their fears about 
their future.
    And he is very confident that they are going to proceed as 
the professionals they are and complete the five, you know, we 
have got three operations working out of the Johnson Center. We 
have got the Constellation, the Shuttle, and the ISS, and you 
know, with the Administration's budget we are going to be down 
to one. But he is confident the five Shuttle missions, they are 
going to do their darnedest and be the professionals they are. 
They are going to come off without a hitch.

                   Safety Implications of Transition

    But I just want to--how would you rate NASA's overall 
efforts to keep its Shuttle workforce fully focused on flying 
safely out the manifest? Do you see any deficiencies? And as a 
follow-on question, now that the Administration has proposed 
canceling the Constellation, by injecting new uncertainties in 
terms of a follow on system, scheduling jobs, would this 
further complicate NASA's ability to keep the Shuttle workforce 
for at least to close out the five manifested flights we have?
    Admiral Dyer.
    Admiral Dyer. I think that is perhaps the most significant, 
near-term safety worry. You are a Navy veteran, and in keeping 
with Chairwoman Giffords opening with the historical story of 
the Chinese Navy, let me use a naval term that you will 
appreciate. Underway without way on. The layman's definition of 
that is there is always risks in drifting while you are trying 
to figure it out.
    So whatever the route forward, to transition from deciding 
to implementing will lower this risk and allow for better human 
resource management and keeping the skills necessary to fly 
safely.
    Mr. Olson. Thank you very much.
    Ms. Chaplain.
    Ms. Chaplain. We have commended NASA for its ability to try 
to manage the workforce through the transition and assure that 
the right people are maintained for the Shuttle. They have used 
things like DCMA employees and other kinds of measures to get 
stop-gap people in there.
    But definitely this change will further complicate matters.
    Mr. Olson. Mr. Martin.
    Mr. Martin. As you indicated, it is incredibly important 
that NASA keeps its eye on its mission, especially this Sunday 
with the launch of Endeavour, and so I think if they, you know, 
what we have seen as NASA, very professional work for us, but 
the potential changes out there do create an air of uncertainty 
that NASA is going to need to manage through.
    Mr. Olson. Thanks for the answers. I see I have used my 
time up.
    Chairwoman Giffords. Thank you, Mr. Olson.
    The Chair will recognize Ms. Edwards.
    Ms. Edwards. Thank you, Madam Chairwoman. I have a couple 
of areas of questions.

               SBIR Program Progress/Minority Contracting

    First for Mr. Martin and Ms. Chaplain. In 2009, both the 
GAO and the OIG noted that in your audits and investigations, 
``They continue to reveal systemic weakness in the area of 
acquisition and procurement to include awards as part of the 
Small Business Innovation Research, the SBIR Program.''
    And I would note that in the announcement of the awards of 
$50 million in Recovery Act funding, to companies for 
development and demonstration contracts--concepts, five of the 
companies that received awards, none were minority owned. There 
may have been one woman-owned business, and I wonder if you 
could comment on how NASA is meeting its goals for investing in 
small, minority-owned businesses?
    Mr. Martin. Just quickly, we have done a fair amount of 
work in the SBIR Program and actually have raised a series of 
concerns that the lack of internal controls. These tend to be--
not to be large contracts or grants. I think NASA's focus given 
this multitude of other issues has been to push the money out. 
I don't think there have been adequate, again, safeguards to 
make sure that, frankly, there is not double dipping where 
someone is putting in for an SBIR grant through NASA and at the 
same time through the National Science Foundation.
    Ms. Edwards. Uh-huh.
    Mr. Martin. So I think we can learn, we can adopt past 
practices from the National Science Foundation and others, and 
we can monitor and oversee these grants much more effectively.
    Ms. Edwards. Well, I think I would like to see, you know, a 
little bit more analysis both from GAO and from the Inspector 
General to look at NASA's minority contracting processes. I 
know over at Goddard Space Flight Center, you know, a number of 
businesses in and around the center who want to do business 
there, it is very complicated for them, they don't understand 
the contracting process, and although I think the Administrator 
has made a commitment on this, I don't--I can't see the pathway 
toward meeting those commitments.
    Also, in the general contracting area and looking at 
subcontracts and then analyzing where those subcontracts are 
going as well, and I would like to see some additional 
reporting and analysis in that area.
    Mr. Martin. The Inspector General's Office has an ongoing 
review looking at the entire NASA SBIR Program. I have been 
here----
    Ms. Edwards. Not just SBIR, though. I am talking about 
looking at--because, you know, that is one way for small 
minority-owned businesses to get in. Women own businesses to 
get in the door, but the general contracting processes and 
making sure that those are spread out across our small and our 
large business community and that the subcontracting processes 
also are open in that sense.
    And I just--I really want to pay attention to this because 
if we are investing on one hand in developing scientists, 
engineers, and researchers who represent the broad base of our 
population, and we expect them, some of them to be 
entrepreneurs, where do they get a foot into the agency?
    Anyway, I just leave that for open consideration for the 
future.

                       Human Rating Requirements

    Just as a close here, Admiral Dyer, in your statement you 
said that the 2009, report has been widely read, strongly 
commended, and energetically criticized. With those well-
rounded metrics we believe we have fulfilled our statutory 
purpose, which is to infuse safety considerations into an 
informed debate.
    And I want you to know that this subcommittee is really 
appreciative of ASAP's contributions, and we will continue to 
seek your counsel on safety matters, but I also am sure that 
you are aware that Mr. Elon Musk, the CEO of SpaceX, and one of 
two COTS manufacturers disagrees with your panel's findings and 
conclusions regarding the human rating of SpaceX vehicles 
currently under development. He says that the Falcon 9 Rocket 
and Dragon Spacecraft, ``meet all of NASA's published human 
rating requirements apart from the escape systems,'' and it was 
reported also that he said that the members of your panel 
didn't review SpaceX's data and have, ``no idea what our 
margins are and what is and what isn't human rated.''
    Why is there so much divergence in the views held by ASAP 
and Mr. Musk regarding SpaceX's human rating status?
    Admiral Dyer. Well, I think Mr. Musk used the phrase that 
he has lost respect for the panel. I would tell you that the 
panel has not lost respect for Mr. Musk. He is an icon, an 
American entrepreneur. There is great strength in that, and 
these folks make great things happen. I would predict an 
exciting future for SpaceX, but in terms of fundamentals the 
human rating requirements have not been published by NASA, and 
therefore, a claim that one meets them we think is incorrect. 
It is that simple.
    Ms. Edwards. Thank you very much, and I yield, Madam 
Chairwoman.
    Chairwoman Giffords. Thank you, Ms. Edwards.
    The Chair recognizes Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much. Let me just note that 
earlier my colleague suggested that there would be a gap in 
human space, our capabilities if the President's budget 
suggestions are followed. It is not going to be just a gap. I 
hope we all understand. We are not talking about a gap here. 
The President's budget is leaving us with no governmental 
alternative to human space transportation in the works, anyway.
    So this is something that should be taken very seriously by 
those of us who do believe that human beings should be, 
eventually be playing a role in space. Let us just look at--and 
let me take a look at one other element here.
    We have had one test of--on all of this research that has 
been done on Constellation. One test that had no new technology 
and hardware, no new hardware in that test, and that brought us 
to $9 billion that we spent on the program that now is being 
suggested that we scrap. This does not speak well of using our 
government as the vehicle of getting human beings into space, 
whether it is Elon Musk or whether--I know in the, for example, 
Boeing has the Delta System that could someway be reconfigured, 
but instead we spent $9 billion, and we didn't even have any 
new hardware.
    So we--if we are going to have human beings in space, which 
I believe in, we have got to get serious about this, and we 
can't simply just go back and say, NASA, we are going to rely 
on NASA to do it, because obviously it is not working out.
    Let me get back then to some analysis of this human space 
endeavor. Admiral, how long did it take us--it seems to me that 
the stumbling block now is still NASA in the sense that we have 
to have these standards, and you--that will determine human 
flight, whether human flight is possible in a certain vehicle. 
How long did it take us to determine that the Soyuz vehicles 
were approved for Americans?
    Admiral Dyer. Sir, I don't know the definitive answer to 
that. We have had discussions with regard to the NASA senior 
technical leadership, with regard to the safety of Soyuz----
    Mr. Rohrabacher. Okay.
    Admiral Dyer.--but I am afraid we don't know the details.
    Mr. Rohrabacher. Apparently it took about three years for 
us to, even to analyze what the Soviets had been doing for a 
long time, much less a new system, which is being developed.
    Don't you see this as one unacceptable burden and weight 
that are being carried perhaps by some of our--the 
entrepreneurs in the private sector? To wait for that long just 
before they will even know what the standard is, much less 
being able to incorporate it into their designs?
    Admiral Dyer. I am a bit more empathetic in the following 
sense. This institutional knowledge that is part of NASA, to 
communicate that to the private sector is a job to be done and 
one that needs to be done carefully, and some discussions on 
this topic a week or so ago I used an analogy, sir, and it 
was--it is one thing to give a building code to an electrician 
of significant experience. A guy who has built a lot of houses.
    Mr. Rohrabacher. Uh-huh.
    Admiral Dyer. But to give a building code to a novice 
electrician that doesn't have that history of experience in 
working in the human, in this case, by stretching the analogy, 
in this human arena, it is a dicier undertaking.
    Mr. Rohrabacher. Well, let me go back on that. You know, I 
worked for a guy, sorry, I worked for Ronald Reagan, and Reagan 
always told me that, well, you know, the experts know every 
reason why something can't be done, and so quite often it is a 
better thing to bring in fresh blood and new thoughts that may 
not have the experience but may have an open vision to new 
ideas, and perhaps certainly new approach to trying to do 
things in a cost-effective manner than what the NASA 
bureaucracy has been showing us that they do in this last 
decade or two.
    Well, thank you very much to all of you for sharing your 
talents with us today, and sharing your thoughts because we 
need this type of input the thank you, Madam Chairman, again, 
for your leadership, which you are constantly demonstrating in 
your leadership here on this subcommittee.
    Chairwoman Giffords. Well, thank you, Mr. Rohrabacher.
    We have one final question from Ms. Kosmas, but just to--
you know, you threw out a question, Mr. Rohrabacher, that I 
would like Ms. Chaplain to answer concerning the investment 
that has been made so far in Constellation, the $9 billion that 
has been spent.

                       Progress on Constellation

    Obviously, you know, it wasn't--just for one test flight so 
if you could just detail briefly the money that has been 
invested so far in the program.
    Ms. Chaplain. Well, it was more than just that test flight. 
I think concurrently there was a lot of money being invested in 
developing the new stuff that will be eventually included in 
Ares and Orion, and you have to think about all the money that 
went to Orion, too, but a lot of the money--concurrently as 
Ares I was being developed, it is going into the new parts in 
the final spacecraft.
    Chairwoman Giffords. And either Ms. Chaplain or perhaps 
Admiral Dyer, can you comment on how far along Orion is at this 
point?
    Ms. Chaplain. I believe they recently had their preliminary 
design review, and the Constellation Program as a whole is 
expected to have a preliminary design review this spring. That 
put them very close to the time and point when NASA would 
consider moving them into the formal phase of acquisition, what 
we call implementation. That is when baselines get set, that is 
when they are held more accountable.
    One thing that has been talked about here today is cost 
overruns. Technically they haven't had cost overruns because 
there is no baseline. We are just looking at more money that 
was put to the contract than was originally anticipated.
    Chairwoman Giffords. Okay. Thank you.
    The Chair will recognize Ms. Kosmas.
    Ms. Kosmas. Thank you, Madam Chairman.

                Role of NASA in Commercial Space Program

    I apologize. This is a busy day in my office today, but 
this is an extremely important matter to me. I want to--and I 
am sorry I missed some of the answers and questions and answers 
earlier, particularly with regard to safety and the assessment 
of commercial safety.
    But I want to move onto a slightly different question, ask 
you, Ms. Chaplain, does NASA have the tools to--in place to 
manage a commercial procurement program, and what steps would 
you recommend to enable NASA to adequately manage such a 
program, particularly, and how would that affect Kennedy Space 
Center?
    Ms. Chaplain. They do have the beginnings of that in place, 
and but I think what they need to do is to see how much more 
robust it needs to be. Up until now the idea of having a 
commercial crew was plan B, not the only plan. So you have--
when it becomes the only plan, you kind of need to reconsider 
all your contracting tools, your oversight mechanisms, and you 
probably want to ramp up things, you know, in a more position 
of strength in terms of oversight and management than you had 
when it was just going to be one of several options.
    Ms. Kosmas. Okay. Thank you for that answer. I guess it 
sort of begs the question then, do you, does anyone want to 
make a statement as to whether or not they believe that the 
policy articulated by the Administration anticipated this or 
adequately provides an opportunity for this to be addressed?
    Ms. Chaplain. I don't know the budget and enough detail to 
see that happening myself.
    Ms. Kosmas. Okay. Thank you. I yield back.
    Chairwoman Giffords. Thank you, Ms. Kosmas.
    Before we bring the hearing to a close, I just want to 
thank our witnesses for testifying before the subcommittee 
today, particularly for the GAO and for the IG's office. There 
are a lot of people that work with you that we don't see. They 
are behind the scenes, but you know, every member of Congress 
and all the American people really depend on the work that you 
do. I would say underappreciated probably not quite understood, 
and I just want to thank the two of you and if you will please 
pass that onto your colleagues.
    Admiral Dyer as well, thank you, not just to you but to 
members of your panel for your many, many years of dedication 
to, you know, a very, very important issue that is facing our 
Nation really at the moment.
    The record will remain open for the next two weeks for 
additional statements from members and for answers to any 
follow-up questions that perhaps the subcommittee members may 
have of the witnesses, and as I said in my opening remarks, you 
can be assured that the full Science and Technology Committee 
and our subcommittee as well will be holding a series of 
hearings over the next few weeks to examine the President's 
proposed budget.
    The witnesses are now excused, and the hearing is 
adjourned. Thank you.
    [Whereupon, at 11:44 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Paul K. Martin, Inspector General, National Aeronautics 
        and Space Administration

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  The ASAP's latest report says that over 80 percent of NASA 
facilities are beyond their design life, annual maintenance is 
underfunded, facilities continue to degrade and facilities failures are 
starting to impact missions and have safety implications Agency-wide.

Q1a.  Is this another neglected area in need of resources at the 
Agency?

A1,1a. Yes. As the ninth largest federal government property holder, 
NASA owns more than 100,000 acres with over 6,000 buildings and other 
structures that provided more than 44 million square feet of space. 
Most of the buildings and other structures are more than 40 years old 
and some predate the establishment of NASA. NASA's deferred maintenance 
has increased over the last several years as the Agency has focused its 
funds on mission and project-oriented priorities.

Q1b.  Does the NASA IG know the extent to which NASA's facilities are 
in need of repair, how much this will cost, and what the priority 
projects are?

A1,1b. The NASA OIG is currently conducting an audit of NASA's 
processes for identifying and prioritizing maintenance projects. NASA's 
estimate of deferred maintenance increased from $1.9 billion in fiscal 
year (FY) 2005 to $2.55 billion in FY 2009. Each NASA Center maintains 
a list of priority maintenance and upgrade projects.

Q1c.  Is this area likely to receive greater attention with the recent 
establishment of a Construction and Environmental Compliance account as 
required by NASA's FY2010 appropriations?

A1,1c. Possibly. Creation of the separate account has the potential for 
focusing greater attention on the deferred maintenance backlog, but it 
remains to be seen whether this will translate into increased spending 
in this area.

Q2.  If a decision is made to carry U.S. astronauts on a commercial 
transportation system in the future, NASA will, likely need early 
warning safety systems. Can you suggest any ``time out'' indicators 
that would be capable of providing NASA and the Congress a warning when 
projected margins of safety are in danger of being reduced?

A2. The OIG has not conducted any recent oversight work on this issue. 
Moreover, since the Aerospace Safety Advisory Panel (ASAP) evaluates 
NASA's safety performance, we believe this question would be best 
addressed by ASAP.

Q3.  Are you satisfied with NASA's efforts to enhance its application 
of sound project management principles and identification of technical 
and safety risks? What key areas warrant the OIG's continued oversight?

A3. In the past year, the OIG has found deficiencies when we examined 
the Agency's risk management efforts at the program and project levels. 
For example, we found that the Landsat Data Continuity Mission was 
facing a cost increase and possible launch schedule delays because 
mangers awarded the contract before finalizing baseline requirements. 
In reviewing the Orion Project, we found that the Project Office 
conducted a life-cycle review with a version of the vehicle that was 
under revision instead of delaying the review until the revised vehicle 
configuration was developed.
    Given the importance and cost of its projects. NASA must establish 
and validate project requirements, manages risks, and controls costs 
and schedules using established life-cycle reviews.

Q4.  Your memorandum on serious management challenges references the 
risk posed by counterfeit or inferior parts. I understand that testing 
is being done to determine the extent of ``improperly treated non-
conforming'' titanium'' on the $2.5 billion Mars Science Laboratory 
scheduled for launch later this year. NASA is concerned that some parts 
built using this non-conforming titanium might not withstand the 
stresses, pressures. temperatures present during the life of the 
mission. Is the risk of counterfeit parts being purchased a growing 
issue and if so, how can NASA protect itself from this problem?

A4. A recent proliferation of counterfeit electronic parts (primarily 
microchips) is a new risk to NASA's programs and operations. We have 
found that trade in international counterfeit electronic parts begins 
with traders who export scrap circuit boards from the United States to 
foreign-based counterfeiters who remove, copy, and after the parts so 
they appear to be new parts from reputable manufacturers. Domestic 
distributors then buy the parts and sell them as genuine to industry or 
government buyers, including NASA and the Department of Defense.
    Protecting NASA programs from counterfeit electronics is a complex 
task that involves sensitive law enforcement investigations and 
aggressive oversight policies within NASA. This includes NASA's 
continued commitment to world class quality assurance programs for its 
critical systems, continued participation in interagency information 
sharing groups on counterfeit parts, and a zero tolerance management 
philosophy that holds offending contractors accountable. In that 
regard, NASA OIG is fully integrated with the interagency law 
enforcement to address the distribution of counterfeit electronics 
alongside the FBI and the Department of Homeland Security.

Q5.  In your November memorandum, you note the need for NASA to examine 
the effectiveness of its ethics training and processes. Investigations 
completed by your office have identified cases such as conflict of 
interest and false statement charges stemming from the steering of 
earmarked funds to a client and a NASA scientist steering contracts to 
a company operated by his spouse. In addition to improving ethics 
training and enforcement, what other ways can NASA use to reduce 
instances of ethics violations with its acquisitions?

A5. Given that NASA spends approximately 90 percent of its $19 billion 
budget on contracts and grants, it is imperative that NASA employees 
comply with applicable ethics laws and regulations. The significant 
interaction between NASA employees and individuals in the private 
sector, both in industry and academia, underscores the scope of this 
ongoing challenge.
    Any efforts to reduce ethics violations do not lend themselves to a 
singular solution. Ethics training, awareness, and active enforcement 
of ethics laws and regulations are critical components in ensuring NASA 
employees and contractors have a clear understanding of their 
respective roles, responsibilities, and the consequences for 
noncompliance. Agency initiatives such as NASA's Acquisition Integrity 
Program have proven to be valuable ethics training tools for 
acquisition practitioners. But we also believe the Agency can further 
reduce violations in the acquisition process by strengthening its 
procurement oversight mechanisms, particularly in the pre-award phase 
of the contracting and grant process. For example, in the area of 
grants OIG investigations in the area of Small Business Innovative 
Research indicate that a strong ``certification'' process is helpful in 
ensuring that the award is not an opportunity for fraud--such as 
billing two federal agencies for the same research.

Q6.  Last July, your office reported on NASA's research in support of 
FAA's modernization of the nation's air traffic control system known as 
Next Gen. The report identified some instances where NASA research 
activities could be better coordinated with FAA. What do you recommend 
be done?

A6. Since issuance our report, NASA has taken action to coordinate more 
effectively with FAA on Next Gen support. In response to one of our 
recommendations, the NASA Associate Administrator for the Aerospace 
Research Mission Directorate established a policy for coordinating 
investment decisions with FAA's Joint Planning and Development Office 
that includes quarterly meetings to discuss strategic issues.

Questions submitted by Representative Pete Olson

Q1.  What are your views about NASA's reliance on Space Act Agreements 
to fund commercial space capabilities in lieu of the more standard 
acquisition based on Federal Acquisition Regulations? And going 
forward, where is the threshold that should compel NASA to discontinue 
using Space Act Agreements in favor of a FAR-based acquisition?

A1. Space Act Agreements provide NASA a means to meet wide-ranging NASA 
mission and program requirements and objectives by partnering with 
diverse groups of people and organizations, both in the private and 
public sector. The agreement partner can be a U.S. or foreign person or 
entity, an educational institution, a Federal, state, or local 
governmental unit, a foreign government, or an international 
organization.
    Historically, NASA has used the broad authority granted in the 
Space Act to further a variety of the Agency's missions. However, 
funded agreements, under which the Agency transfers appropriated funds 
to a domestic agreement partner, may be used only when NASA's 
objectives cannot be accomplished with a procurement contract, grant, 
or cooperative agreement.
    The OIG intends to examine NASA's use of Space Act Agreements to 
fund commercial space capabilities in order to ensure that the Agency 
is adhering to requirements of the Space Act and Federal Acquisition 
Regulations, and, ultimately, obtaining the best value for the 
taxpayer.

Q2.  With regard to commercial crew and cargo procurements, NASA's 
FY2011 budget request states that, ``Government requirements are kept 
to a minimum and are only concerned with assuring safe interaction with 
the ISS. The partners [meaning commercial launch companies] are not 
required to follow the standard NASA Program and Project Management 
Processes and Requirements, NPR 7120.5.'' In other places, the budget 
says crew safety won't be compromised and acknowledges the imperative 
of safety, but otherwise provides no detail. What are your thoughts 
about NASA's proposal to relieve commercial launch providers from 
adherence to NPR 7120.5? How difficult would it be for NASA to maintain 
good insight and oversight?

A2. NPR 7120.5 and other NASA acquisition and life-cycle management 
requirements are based on sound management principles and should be the 
standard for all NASA program and project procurements. It is unclear 
to us how NASA intends to maintain the contractor oversight currently 
required by Federal and NASA regulations in the absence of a 
requirement to follow NPR 7120.5 and other NASA acquisition and life-
cycle management requirements.
                   Answers to Post-Hearing Questions
Responses by Cristina T. Chaplain, Director, Acquisition and Sourcing 
        Management, Government Accountability Office

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  Cyber-security is a growing concern across government, as well as 
in the private sector.

Q1a.  Do control weaknesses similar to those GAO found at NASA that 
jeopardize the agency's systems and networks exist across other federal 
agencies?

A1,1a. Unfortunately, NASA is not unique. Most federal agencies have 
deficient information security. We have identified information security 
as a government-wide high risk area since 1997. Having said that, the 
187 recommendations that we made during our audit are the most we made 
in an engagement.

Q1b.  Is GAO satisfied that NASA is moving in the direction of 
correcting these weaknesses in a systematic and pro-active way?

A1,1b. It appears that NASA is moving in the right direction. In his 
``60 day letter'' dated January 6, 2010, the NASA Administrator 
provided a detailed accounting for each of the 179 technical 
recommendations we made in an October 2009 report designated for 
limited official use only. In essence, the Administrator concurred with 
159 recommendations, partially concurred with 10, and non-concurred 
with 10. He also provided details on the status of planned and 
completed actions to mitigate the vulnerabilities. The actions 
identified by the Administrator will, if effectively and consistently 
implemented, improve the agency's information security program. We plan 
to follow-up with NASA to assess the effectiveness of its corrective 
actions going forward.

Q2.  The ASAP's latest report says that over 80 percent of NASA 
facilities are beyond their design life, annual maintenance is 
underfunded, facilities continue to degrade and facilities failures are 
starting to impact missions and have safety implications Agency-wide.

Q2a.  Is this another neglected area in need of resources?

A2,2a. As the ninth largest federal government property holder, NASA 
owns more than 100,000 acres of real estate, as well as over 3,000 
buildings and 3,000 other structures totaling over 44 million square 
feet. Like many federal agencies, NASA faces considerable challenges 
addressing facilities needs with limited funds. In January 2003, GAO 
designated federal real property a high risk area because of long-
standing problems with excess and underutilized property, deteriorating 
facilities, unreliable real property data, over-reliance on costly 
leasing, and building security challenges.

Q2b.  Do we know the extent to which NASA's facilities are in need for 
repair, how much this will cost, and what the priority projects are?

A2,2b. In 2008, GAO reported that NASA has a $2.3 billion repair 
backlog. NASA has used a contractor since 2002 to conduct annual 
deferred maintenance assessments of all its facilities and their 
component systems. NASA contractors visually assess nine different 
systems within each facility (such as the roof and the electrical 
system), and rate each facility using an overall condition index with a 
scale from 0 to 5. Based on that rating, the contractor uses an 
industry cost database and other information to estimate the costs of 
correcting the identified deficiencies. According to NASA officials, 
using a contractor and a standard estimating methodology to assess all 
its facilities provides consistent information across sites.
    Furthermore, NASA requires its Centers to conduct their own 
detailed condition assessments at least every 5 years. These 
assessments, which are separate from the annual deferred maintenance 
assessments, are used by the Centers to identify and prioritize repair 
and maintenance projects. According to officials at the Ames Research 
Center, for example, their assessment focuses more on active, mission-
critical assets and repairs and maintenance that they will try to get 
funded within the next 5 years. According to NASA officials, the 
backlog reported by these individual NASA centers is lower than the 
deferred repair and maintenance needs NASA reported because the centers 
include only the most important projects that they believe should 
receive funding, instead of all projects to address their backlog as 
estimated in NASA's annual deferred maintenance assessment report.

Q2c.  Is this area likely to receive greater attention with the recent 
establishment of a Construction and Environmental Compliance account as 
required by NASA's FY 2010 appropriations?

A2,2c. Establishment of a Construction and Environmental Compliance 
account should provide the Congress better visibility to NASA's plans 
to revitalize or construct facilities and its environmental and 
restoration activities.

Q3.  If a decision is made to carry U.S. astronauts on a commercial 
transportation system in the future, NASA will likely need early 
warning safety systems. Can you suggest any ``time out'' indicators 
that would be capable of providing NASA and the Congress a warning when 
projected margins of safety are in danger of being reduced?

A3. Although GAO has not performed any work in this area, in my opinion 
NASA should have processes in place to obtain the insight into all 
design, production, and test activities and should have approval 
authority over top level requirements, test strategies, success 
criteria, and anomaly resolution. Furthermore, before flying astronauts 
on commercial launch vehicles, NASA should subject these vehicles to a 
formal certification process including an agency inspection of vehicle 
designs, contractor engineering process and analysis of data from all 
flights and test events. This certification should also consider 
demonstrated flight history, e.g., vehicles with less successful flight 
history should be subject to more stringent certification requirements. 
Furthermore, the Congress could direct NASA to provide periodic reports 
on key performance metrics of programs or projects in order to 
facilitate the Congress' oversight of those programs.

Q4.  Philosophically, it is hard to disagree with GAO's call to ensure 
that adequate knowledge is secured at key development points, 
especially for large and costly projects. However, some may question 
the cost-effectiveness of applying this approach uniformly, such as for 
low-cost missions when the agency is openly willing to take greater 
risks in return for the promise of lower development costs. What are 
your views on this matter?

A4. Regardless of the size of the mission, we believe that risk should 
be managed by demonstrating the requisite knowledge prior to moving 
from one phase of development to the next, as even low-cost missions 
have life-cycle estimates of hundreds of millions of dollars. However, 
as long as the all risks are known, openly recognized, accepted, and 
planned for, it is hard to argue that knowingly accepting risks for 
low-cost efforts is inherently bad. Unfortunately, history shows that 
there can be issues associated with this type of approach. For example, 
in the 1990's the NASA administrator challenged agency personnel to do 
projects faster, better, and cheaper by streamlining practices and 
becoming more efficient. The goal was to shorten program development 
times, reduce cost, and increase scientific return by flying more and 
smaller missions in less time. However, smaller lower cost missions do 
not always result in successful projects. For example, NASA experienced 
a few notable failures such as the Mars Polar Lander and Climate 
Orbiter. After-action reports commissioned by NASA found that the Mars 
Program failures resulted from cost and schedule constraints and a lack 
of rigorous attention to sound process and practices. In addition, NASA 
experienced extensive negative feedback about the failure of missions 
developed under the faster, better, cheaper effort.

Q5.  GAO, in its reviews of large scale acquisitions in DOD and NASA, 
has consistently advocated for applying knowledge management principles 
during system development. Is this the only way to look at the health 
of an acquisition project, or are their other indicators that also need 
to be examined?

A5. There are various models that can be used to look at the 
acquisition approach for a project and all tend to focus on having the 
processes in place that allow you to gain the knowledge and employ the 
discipline necessary to manage a project, just as GAO's framework does. 
Further, many of the metrics we use are incorporated in NASA's 
acquisition policy for spaceflight systems. Regardless of the type of 
metrics used, the ability to measure knowledge, processes, and outcomes 
is critical to achieving improved project outcomes. Metrics provide 
important indicators for decision makers, as achieving the right 
knowledge at the right time enables leadership to make informed 
decisions about when and how best to move into various expensive 
acquisition phases. Our extensive body of work examining world-class 
enterprises and the way they operate has validated their value for 
programs that must deliver a new product to market at a certain time 
and within a certain investment cost or suffer significant 
consequences. While knowledge and outcome metrics provide valuable 
information about the potential problems and health of programs, they 
are of limited value if acquisitions do not begin with realistic plans 
and baselines that are informed by doable requirements and accurate 
cost and schedule estimates prior to development start.

Q6.  In your latest assessment of selected large-scale projects, you 
identified cases where contractor performance was a challenge. One case 
involved the buyout of a company. Evidently, NASA had difficulty 
exerting pressure on the company to get better performance. NASA told 
GAO that terminating the contract due to poor performance and bringing 
the work in-house would result in a one-year delay. I find it troubling 
that NASA is in this box. I recognize that NASA cannot anticipate all 
mergers and buyouts. What would you recommend be done to avoid NASA 
being at the mercy of contractors who know NASA's options are limited?

A6. Most of NASA's missions are one of a kind and space development 
programs that require specialized expertise and are complex and 
difficult by nature. For this reason, it can be difficult to change 
contractors in midcourse. Nevertheless, NASA still needs to have a 
business-oriented culture that provides the appropriate level of 
oversight and insight into their contractor's activity. This could 
allow the agency to be proactive in monitoring the work being done by 
contractors and, in some cases, subcontractors. By doing so, any 
problems with the contractor's performance or potential delays could be 
identified sooner and corrective actions could then be put in place.

Questions submitted by Representative Pete Olson

Q1.  What are your views about NASA's reliance on Space Act Agreements 
to fund commercial space capabilities in lieu of the more standard 
acquisition based on Federal Acquisition Regulations? And going 
forward, where is the threshold that should compel NASA to discontinue 
using Space Act Agreements in favor of a FAR-based acquisition?

A1. Other transaction authority enhances the federal government's 
ability to acquire cutting-edge science and technology, in part by 
attracting contractors that have not typically pursued government 
contracts. Other transaction authority was created under the National 
Aeronautics and Space Act of 1958, commonly referred to as the Space 
Act, and agreements utilizing NASA's other transaction authority are 
known as Space Act agreements. NASA uses other transaction authority to 
enter into a wide range of agreements with numerous entities to advance 
NASA mission and program objectives including international cooperative 
space activities under international agreements. Space Act Agreements 
are agreements other than government contracts, grants, or cooperative 
agreements and may take a number of forms. Under a reimbursable 
agreement, the partner pays for work NASA conducts for the partner's 
benefit. Under a nonreimbursable agreement, each party assumes 
responsibility for its own costs for a project that furthers NASA's 
mission. Under a funded agreement, NASA provides funding to the partner 
to accomplish a NASA mission. These Space Act Agreements are one of the 
many tools that NASA has to acquire goods and services or establish 
relationships to advance NASA's mission and program objectives.
    A funded Space Act agreement should only be used when NASA cannot 
use a federal procurement contract or other type of agreement for a 
transaction. Unfortunately, the Space Act does not establish a 
threshold as to when to use a Space Act Agreement versus a federal 
government contract; it is simply based on business judgment. These 
types of agreements are not federal government contracts and, 
therefore, generally are not subject to those federal laws and 
regulations that apply to federal government contracts. Consequently, 
agreements formed using other transaction authority permit considerable 
latitude in negotiating agreement terms. For example, Space Act 
Agreements allow NASA flexibility in negotiating intellectual property 
and data rights, which generally stipulate each party's rights to 
technology developed under the agreement. Since these agreements are 
generally not subject to the certain federal laws and the Federal 
Acquisition Regulation, they carry the risk of reduced accountability 
and transparency if not properly managed. Space Act Agreements 
establish a set of legally enforceable promises between NASA and the 
other party to the agreement, requiring a commitment of NASA resources 
such as personnel, funding, services, equipment, expertise, 
information, or facilities, to accomplish the objectives stipulated in 
the agreement. Because Space Act Agreements do not have a standard 
structure based on regulatory guidelines, they can be challenging to 
create and administer. While NASA has established guidance on how to 
implement these agreements, in our opinion NASA must have staff with 
experience in planning and conducting research and development 
acquisitions, strong business acumen, and sound judgment to enable them 
to operate in a relatively unstructured business environment.

Q2.  With regard to commercial crew and cargo procurements, NASA's 
FY2011 budget request states that, ``Government requirements are kept 
to a minimum and are only concerned with assuring safe interaction with 
the ISS. The partners [meaning commercial launch companies] are not 
required to follow the standard NASA Program and Project Management 
Processes and Requirements, NPR 7120.5.'' In other places, the budget 
says crew safety won't be compromised and acknowledges the imperative 
of safety, but otherwise provides no detail. What are your thoughts 
about NASA's proposal to relieve commercial launch providers from 
adherence to NPR 7120.5? How difficult would it be for NASA to maintain 
good insight and oversight?

A2. While NASA Procedural Requirements 7120.5D is not necessary to 
execute a successful project by a commercial company, it is imperative 
that NASA establish in its contract or agreement a uniform process and 
set of metrics that it can use to identify potential problems that 
could lead to cost, schedule, or performance shortfalls. For example, 
NASA used a Space Act agreement for the Commercial Orbital 
Transportation Services (COTS) project and it was not required to 
follow NASA Procedural Requirements 7120.5D. We reported that NASA used 
these management requirements as a guide to ensure that it had the 
proper program authorization and planning documentation in place for 
the COTS project. Such plans help define realistic time frames, 
identify responsibility for key tasks and deliverables, and provide a 
yardstick by which to measure the progress of the effort. NASA 
developed a program authorization document that outlined NASA's 
management structure, project objectives, acquisition strategy, project 
scope, funding profile, and planned program reviews. In addition, the 
first performance milestone in NASA's agreements with its commercial 
partners required the partners to develop a program or project 
management plan that included the overall project schedule with 
milestones and described how the partner would manage the development 
process and identify and mitigate risks. Each commercial partner 
successfully passed this milestone. Furthermore, during the course of 
our review of the COTS project, we found NASA's management has 
generally adhered to critical project management tools and activities 
and the vast majority of project expenditures were for milestone 
payments to COTS partners. NASA has also taken several steps since the 
beginning of the COTS project to ensure that risks were identified, 
assessed, and documented, and that mitigation plans were in place to 
reduce these risks. NASA has communicated regularly with its partners 
through quarterly and milestone reviews and provided them with 
technical expertise to assist in their development efforts and to 
facilitate integration with the space station.
                   Answers to Post-Hearing Questions
Responses by Joseph W. Dyer (U.S. Navy, Retired), Chair, Aerospace 
        Safety Advisory Panel, National Aeronautics and Space 
        Administration

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  The ASAP's latest report says that over 80 percent of NASA 
facilities are beyond their design life, annual maintenance is 
underfunded, facilities continue to degrade and facilities failures are 
starting to impact missions and have safety implications Agency-wide.

A1. The ASAP based its finding that over 80 percent of NASA facilities 
are beyond their useful life on a recent NASA presentation to the 
American Council of Engineering Companies. That assessment is 
consistent with the conditions that we have observed during our regular 
visits to centers and reviews of NASA activities. Examples of facility 
shortfalls include: expensive deep space probe assembly bays that lack 
basic fire protection; a clean room used for spacecraft assembly that 
shares a room with the dust pad being used to develop Mars Rover 
extraction techniques (separated by a sheet of plastic); and a Saturn 
era rocket motor test stand being refurbished for modern propulsion 
testing, but with insufficient funds to scrape the rust off of the 50 
year old steel structure.

Q1a.  Is this another neglected area in need of resources?

1a. Yes, this is clearly an area that requires addressing. While the 
positive attitude of the workers that we meet attempts to transcend the 
facility conditions, there is no question that lack of proper 
facilities impacts their productivity and morale, and potentially, the 
quality of their products.

Q1b.  Does the NASA IG know the extent to which NASA's facilities are 
in need for repair, how much this will cost, and what the priority 
projects are?

1b. It is our understanding that the NASA IG will respond to you 
directly on his knowledge of specific facility needs.

Q1c.  Is this area likely to receive greater attention with the recent 
establishment of a Construction and Environmental Compliance account as 
required by NASA's FY 2010 appropriations?

1c. While funding mechanisms are outside the purview of the ASAP's 
primary focus, it would appear that having a fenced funding stream 
dedicated to facility improvements and maintenance would reduce the 
need to ``steal from Peter to pay Paul,'' or in this case ``steal from 
facilities to pay for mission.'' The impact on mission will depend 
directly on how its funding was affected by the Construction and 
Environmental Compliance account creation, a subject that we have not 
studied.

Q2.  If a decision is made to carry U.S. astronauts on a commercial 
transportation system in the future, NASA will likely need early 
warning safety systems. Can you suggest any ``time out'' indicators 
that would be capable of providing NASA and the Congress a warning when 
projected margins of safety are in danger of being reduced?

A2. There are signs that a program is under stress and thus vulnerable 
to short term or incomplete thinking that increases risk. The most 
obvious of these follow:

        A.  When the three principal program metrics--cost, schedule, 
        and performance--no longer align, the program may be in 
        trouble. Cost, schedule, and performance are inevitably linked 
        together. Should one principal metric be altered, either 
        deliberately or inadvertently, and the other two are not 
        adjusted, then there is a probability that something is amiss, 
        e.g., that additional risk or trade-offs are taking place that 
        could impact safety.

        B.  In a program where oversight by the customer is essential 
        to ensure safety and subsequent certification, a ``closed 
        hand'' attitude on the part of the executing team (either 
        public or private) such that reasonable outside review is not 
        possible is most certainly a warning signal. The present 
        Shuttle Program is a great example of things done correctly. 
        While such extensive visibility may not be possible for a 
        developmental program, the Shuttle Program sets a good example 
        to be emulated. When programs are open to review (i.e., outside 
        information, ideas, and criticism), they are able to make well 
        informed decisions.

        C.  Failure of or resistance to witnessed testing is a danger 
        sign of a program in trouble. Testing, especially of critical 
        systems, should be carried out such that they can be witnessed 
        by an appropriate oversight authority. In the best programs, 
        the objective of the test and the expected results are also 
        reviewed by the same oversight authority. Unpredictable data is 
        dangerous data. Data like this demonstrates an incomplete 
        understanding about how a parameter is produced, and the next 
        time the result could be far worse than expected.

        D.  Key personnel/workforce fluctuations normally precede 
        problems. When key management personnel (i.e., lead engineers, 
        analysts, etc.) begin to leave a program, for reasons that are 
        neither clear nor explainable, this indicates instability in 
        leadership which inevitably leads to uncertainty in the 
        workforce. Sudden lay-offs within the contractor base, even if 
        not in the same program, can indicate a problem. Also, 
        financial instability in a key contractor or subcontractor can 
        indicate potential problems downstream if the needed parts and 
        pieces must be farmed out to another source.

        E.  Sudden and unanticipated changes in the program's 
        objectives can lead to rapid design changes that can cause 
        things to be missed. ``Constancy of purpose'' means that the 
        entire team executing the program understands the final 
        objective and makes the myriad daily choices in that direction. 
        If there are changes in the final objective, a full, detailed 
        program review that includes the responsible agency should be 
        mandatory.

        F.  When the agency representatives who are the ``boots on the 
        ground'' in the plant begin to be concerned, you can be 
        reasonably certain that there is concern for the program and 
        the decisions that are being made. These representatives play 
        an invaluable role in maintaining cognizance that a 
        contractor's systems (quality, cost, work planning, scheduling, 
        supervision, workforce training and skill set, etc.) are being 
        maintained. These functions are highly valuable for maintaining 
        visibility and oversight in a program. The FAA uses similar 
        representatives and quality assurance personnel in civil 
        aviation programs--they do it differently, but the effect is 
        very similar.

        G.  A weak relationship between the oversight agency and the 
        contractor is a sure warning sign. A strong ``partnership'' 
        relationship cannot be overemphasized. This relationship, built 
        on a mutual drive towards a common goal, will be the best 
        protection against unseen risk entering the program. Likewise, 
        the workforce's identification with that same goal helps ensure 
        that the people involved understand the importance of doing 
        their work right and identifying problems so that they can be 
        corrected.

Q3.  The ASAP states, in its annual report, that no Commercial Orbital 
Transportation Services (COTS) provider is currently human-rated 
qualified and therefore abandoning Ares I for an alternative without 
the alternative's capability being demonstrated is unwise.

Q3a.  How would one go about conducting a safety assessment as the ASAP 
envisions?

A3,3a. First, NASA must publish safety requirements; the assessment 
will follow an evaluation of a provider's ability to fulfill those 
requirements.

Q3b.  Who would conduct the assessment and what criteria or guidelines 
would be used?

A3,3b. Only NASA subject matter experts have the deep knowledge needed 
to conduct these assessments. Independent entities such as the ASAP, 
and the representative from, for example, academia and the national 
academies, should be afforded the insight necessary to attest that NASA 
undertook a complete, fair and balanced approach.

Q4.  In the past, the ASAP has commented on the implications of 
proposals aimed at reducing the gap in U.S. human space flight launch 
capability. Now, with reports that the administration is proposing to 
rely on yet-to-be built commercial crew transportation systems, are 
there any gap-related issues the ASAP believes Congress should be 
cognizant of?

A4. Like others involved in the space sector, the ASAP is aware that 
after the Shuttle's retirement, NASA will not have a NASA-developed 
human spaceflight capability for several years and will need to rely on 
others during this period. While there are both short and long term 
options that NASA can use to fill its requirement for access to the 
Space Station, those options have advantages and disadvantages and 
previously have been reviewed by NASA, your Subcommittee, and others. 
Considering this, the ASAP continues to caution that if actions are 
taken to rapidly close the current gap, including delaying the 
Shuttle's retirement or accelerating the development of alternative 
vehicles including commercial systems, those actions must not and 
cannot compromise safety. Required engineering analysis, testing, 
certification, and verification must be completed, and adequate funding 
to support these actions must be provided. To do otherwise will only 
further extend the gap and could further delay exploration beyond low-
Earth orbit.

Q5.  Your report says that NASA must be fully candid with the public 
and Congress, and those audiences must fully understand what risks are 
involved. You urge that risks be communicated clearly to Congress and 
the public because not doing so is disingenuous and does the Nation a 
disservice.

Q5a.  What was the impetus for this observation?

A5,5a. In the ASAP's 2009 Annual Report, the Panel observed, ``NASA has 
made significant cultural progress evolving and strengthening internal 
communications as well as communications within the technical 
community. Internally, the Agency now speaks more plainly, openly 
discusses risk and risk management, and better ensures dissenting 
voices are heard. Largely gone is the ``spin'' noted by the CAIB. 
External communications has been slower to evolve, and ``spin'' still 
remains a part of these communications. The Panel does not believe this 
practice best serves the Agency.'' We continue to see NASA's external 
communicators practicing public affairs techniques that are contrary to 
the transparency that we believe would better serve the Agency. One 
small example: While NASA's public affairs staff issued a press release 
announcing the publication of the ASAP's Annual Report, they did so 
late on a Friday before a three day weekend. A source that asked not to 
be identified noted, ``This is a technique the public affairs shop uses 
to minimize press coverage which they believe may cast NASA in a less 
than favorable light.'' We are fully confident NASA Administrator 
Bolden is putting in place policies and processes that will lead to 
greater transparency. Such transparency is challenging due to the 
difficulty in communicating highly technical issues to a nontechnical 
public. Still, NASA must find a way to successfully communicate the 
level of risk inherent in experimental space flight. The Agency must be 
supported in doing so by Congress and the Administration.

Q5b.  Does the panel project greater risks in space exploration in the 
future?

A5,5b. Yes. Reaching farther--to the Moon and Mars--brings greater risk 
because it involves more time and distance in space. More modern design 
techniques, better materials, and better modeling and simulation tools 
will serve to reduce risk. The safety impact from commercializing space 
transportation has yet to be determined and will depend on how well 
NASA's knowledge can be transferred to the private sector, the 
sophistication of the acquisition strategy, and the sufficiency of 
resources provided. The net result remains uncertain.

Q6.  Last year, it was reported that the Air Force's 45th Space Wing 
had performed a study which raised concern about the ability of the 
crew of Orion to survive an explosion of the Ares I rocket within the 
first minute of launch. I understand that the Air Force does analyses 
as part of its responsibilities in providing tracking and safety 
services for all launches from Kennedy Space Center and Cape Canaveral 
Air Force Station.

Q6a.  During the course of your safety oversight duties, did the ASAP 
follow up on the Air Force's concern and was it appropriately addressed 
by NASA?

A6,6a. The ASAP did follow-up on the Air Force's concern during our 1st 
Quarterly Meeting on February 23, 2010, at MSFC. Data presented by Mr. 
Anthony Lyons, Deputy of the Flight Performance Systems Integration 
Group for Constellation, provided an overview of the Constellation 
Integrated Aborts Assessment. The presentation included a discussion of 
the 45th Space Wing debris assessment and noted the reasons for the 
potential differences between that assessment and the Ares integrated 
risk assessment. The crew safety concern expressed by the 45th Space 
Wing involved the debris hazard associated with an Ares first stage 
explosion during ascent. The 45th Space Wing assumed that any intrusion 
into the debris cloud is 100% fatal. The Ares/Simulation Assisted Risk 
Assessment (SARA) team used the 45th Space Wing debris catalog to model 
the explosion scenarios, but also included high-fidelity modeling of 
the debris flux, detailed thermal analysis, and an accurate Orion 
trajectory. The Ares modeling indicated that the strike probability 
would be 0.013 for an abort at 60 seconds mission elapsed time, 12 g 
Launch Abort System acceleration, and a 2 second abort delay. The Ares 
results, which have been shared with the 45th Space Wing, show that the 
45th Space Wing and Ares modeling are in close agreement given the same 
assumptions. The ASAP is satisfied that the Air Force's concern was 
appropriately addressed by NASA.

Q6b.  Is it still an issue?

A6,6b. In the opinion of the ASAP, the differences in the 45th Space 
Wing and the Ares assessments are not an issue. NASA is ultimately 
responsible for public safety and astronaut safety and uses the 45th 
Space Wing to assist them. Staff of the NASA Constellation Program and 
the 45th Space Wing meet regularly through the Constellation Range 
Safety Panel and other forums to discuss range safety issues. Results 
to date show that the Constellation ascent abort design provides for 
crew survival during all phases of ascent, and that the abort design is 
sufficiently robust for Preliminary Design Review and allows for 
further improvements. There is still a considerable amount of ascent 
abort work to do, including more detailed analyses and the need to 
determine operationally preferred method of ascent aborts from a risk/
complexity perspective.

Q7.  In your prepared statement, you say: ``The ASAP's advice is to 
carefully and adequately provide resources and to realistically 
schedule work We believe both resources and scheduling must include a 
``management reserve'' to accommodate issues that will arise as new 
designs evolve and working relationships mature.'' While I believe this 
to be wise advice, management reserves, as you know, seem to be prime 
targets for budget cuts. How can NASA best make the case for those 
management reserves?

A7. In any large program, it is impossible to thoroughly anticipate all 
future developments and events. In the execution of difficult technical 
programs, sometimes developments and testing must occur to address 
areas that are not well understood at the time of project inception. 
Since the technology answers cannot always be appropriately 
anticipated, it is important to add in resources, normally funding and 
time, to account for these unknowns. Sometimes the additional resources 
are called a ``management reserve,'' or ``contingency.'' This extra 
funding is prudent, normal, and is targeted appropriately for the 
issues particular to each given program.
    NASA should be in a position to benchmark its reserve, linking the 
estimated need for funding and time with the level of unknown. Usually, 
this is summarized as a percentage of the total requested funding. To 
remove this funding before the unknowns are effectively addressed, is 
to violate the basics of better management practices that are suggested 
by today's universities and business leaders. NASA should be in a 
position to benchmark its reserve with similar large programs, as 
technology development is usually a part of any large endeavor.

Questions submitted by Representative Pete Olson

Q1.  You noted in your statement that the ASAP believes NASA must do a 
better job communicating ``the level of risk inherent in experimental 
space flight.'' Would you elaborate on that statement? What do you 
consider to be the essential elements to convey to the public, and how 
do you best modulate the message so as not to be counter-productive to 
the agency's mission, which, by its very nature, carries significant 
risk?

A1. In order for audiences external to NASA (and by those audiences, 
the Panel means the public, the Administration, and the Congress) to 
better understand the level of risk associated with space flight, NASA 
has to provide more than just a safe or unsafe declaration. While go/
no-go decisions must be made by NASA in its everyday operation, the 
factors that are considered when making these decisions are very 
complex and not readily apparent to those external to these decision 
processes. A simple ``safe'' or ``unsafe'' description implies a 
certainty of performance that does not and never can exist. Therefore, 
when an activity that was declared to be ``safe'' results in a mishap, 
external observers may conclude that something must have been done 
incorrectly and that someone should be blamed because a ``safe'' 
process failed. This can negatively impact confidence in NASA's ability 
to manage its programs and to appropriately allocate resources to 
programs and projects.
    In reality, no operation can ever be 100 percent safe as there is 
always some element of risk. This message of ever-present risk must be 
clearly communicated to all stakeholders and audiences as well as 
defining an acceptable level of safety and its possible consequences. 
If this is not done, NASA will repeatedly suffer degradation to its 
reputation and loss of confidence. Clear communication about the 
undesirable things that can occur, and the likelihood that they will 
occur, does not now exist.
    Communicating the level of risk is certainly not easy because the 
audiences are diverse in their background as well as their ability to 
understand and interpret data. This means that the methods used to 
communicate must be diverse and include not only technical assessments, 
but also give comparisons to activities that are within the public 
experience base, such as commercial airline mishaps or automobile 
accidents. The key here is transparency and candor from the outset. 
Clear descriptions of the potential hazards involved, their likelihood 
of occurring in both quantitative and descriptive terms, as well as 
what risks have been accepted by NASA and why such acceptance was 
worthwhile--if communicated prior to undertaking an activity--are more 
likely to prevent accusations of cover-up or dodging responsibility 
when a mishap does occur. This level of transparency and candor in 
communicating, ``how safe is safe enough?'', is much more likely to 
increase the public's trust and support of NASA and its mission than 
one that only addresses problems after a mishap has already occurred.

Q2.  With regard to commercial crew and cargo procurements, NASA's FY 
2011 budget request states that, ``Government requirements are kept to 
a minimum and are only concerned with assuring safe interaction with 
the ISS. The partners [meaning commercial launch companies] are not 
required to follow the standard NASA Program and Project Management 
Processes and Requirements, NPR 7120.5.'' In other places, the budget 
says crew safety won't be compromised and acknowledges the imperative 
of safety, but otherwise provides no detail. What are your thoughts 
about NASA's proposal to relieve commercial launch providers from 
adherence to NPR 7120.5? How difficult would it be for NASA to maintain 
good insight and oversight?

A2. The NASA Commercial Crew and Cargo Program is aimed at encouraging 
the development of commercial space transportation services and an 
associated market, with multiple suppliers and customers. NASA would be 
one of these customers, purchasing transportation services on the open 
market. In an effort to encourage innovation, NASA is proposing to 
allow providers to use alternatives to the standard NASA program 
management approaches. This appears to be a reasonable strategy, as 
long as the providers are held accountable for meeting NASA's existing 
and future Human Rating standards where appropriate, applicable safety 
standards, and International Space Station visiting vehicle 
requirements. In this regard, the ASAP continues to believe that NASA 
verification that providers have met these requirements is fundamental 
and should not be changed. Further, the ASAP continues to also believe 
that critical vehicle subsystems, such as a crew escape system, be 
NASA-certified prior to acceptance. The fact that the new approach will 
first be implemented on cargo delivery missions will allow NASA time to 
evaluate whether its plan for insight and oversight would be adequate 
for the much more challenging missions involving crew delivery.
    In order for industry to maximize safety in the design of systems 
that are intended to carry crew, it will be very important for NASA to 
finalize its proposed human rating requirements as soon as possible. 
NASA has indicated that it plans to complete an agency and industry-
coordinated human rating draft by the end of 2010. The Panel has noted 
that this timetable has the potential to put NASA behind in building 
systems currently under development, rather than ahead.


</pre></body></html>
